<html>
<title> - DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                    DEPARTMENT OF TRANSPORTATION AND
                    RELATED AGENCIES APPROPRIATIONS
                                FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

 SUBCOMMITTEE ON THE DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES 
                             APPROPRIATIONS

                    FRANK R. WOLF, Virginia, Chairman

TOM DeLAY, Texas             MARTIN OLAV SABO, Minnesota
RALPH REGULA, Ohio           THOMAS M. FOGLIETTA, Pennsylvania
HAROLD ROGERS, Kentucky      ESTEBAN EDWARD TORRES, California
RON PACKARD, California      JOHN W. OLVER, Massachusetts
SONNY CALLAHAN, Alabama      ED PASTOR, Arizona
TODD TIAHRT, Kansas          
ROBERT B. ADERHOLT, Alabama  

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

 John T. Blazey II, Richard E. Efford, Stephanie K. Gupta, and Linda J. 
                        Muir, Subcommittee Staff
                                ________

                                 PART 7

                    TESTIMONY OF MEMBERS OF CONGRESS
                          AND PUBLIC WITNESSES

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

41-452 O                    WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  1998

                              ----------                              

                                        Tuesday, February 25, 1997.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              


                           RUNWAY INCURSIONS

                                WITNESS

DON NELSON, FORMER VICE PRESIDENT FOR FLIGHT OPERATIONS OF NORTHWEST 
    AIRLINES

                            Opening Remarks

    Mr. Wolf. We are going to begin. Mr. Sabo is on his way.
    We appreciate very much you all taking the time and 
particularly those of you coming from outside the city. We 
don't have a gavel. I haven't used a gavel since I have been 
here, but please when the red light comes on, if you could stop 
and summarize. Secondly, there will be an opportunity for us to 
go back and forth with you later on with questions and answers. 
All your statements will be inserted in the record in full.
    We ask you to summarize and then we will read all of the 
statements, so I don't think you will have to worry about that. 
Lastly, if you could keep within the 5 minutes because people 
are coming from out of town, they have airplanes that leave at 
different times.
    Welcome to the hearing. I will ask the National Air Traffic 
Controllers Association, National Association of Air Traffic 
Specialists, Professional Airways Systems Specialists, American 
Psychological Association, and Mr. Nelson, former Vice 
President of Flight Operations of Northwest Airlines, to come 
up to the table. If you could each introduce yourselves and we 
will go from the left to the right.
    Mr. Nelson. I am Don Nelson.
    Mr. McNally. Mike McNally, National Air Traffic Controllers 
Association.
    Mr. McAnaw. I am Mike McAnaw, President of NAATS.
    Mr. Wolf. We can start this way.
    Mr. Nelson. Good morning and thank you for the opportunity 
to speak to you this morning. My name is Don Nelson and prior 
to retirement I was Vice President for Flight Operations for 
Northwest Airlines. I am here today to speak to the problem of 
runway incursions at the U.S. airports.
    Runway incursions pose a significant and growing safety 
threat to aviation and I am here today to testify in favor of 
the installation of in-pavement smart lighting systems at our 
major airports. I would like to make it clear that I do not 
represent Northwest Airlines today, nor do I work for anyone 
involved with the systems, but I do strongly believe that the 
Federal Aviation Administration should be directed to give high 
priority to the use of airport improvement funds for such 
systems in order to reduce the potential for catastrophic loss.
    I do speak from some personal experience. In March of 1985, 
I was at the controls of a fully loaded DC-10 departing 
Minneapolis/St. Paul Airport shortly after a main snowstorm had 
gone over the airport. Braking action was reported about as bad 
as it gets before operations cease. They were reported as poor.
    During the take-off roll unfortunately another fully loaded 
DC-10 taxied out in front of me at a speed--my speed was about 
115 knots. Given the conditions, it was sort of a no man's 
land. We were really too fast to stop under those conditions 
and considerably too slow to take off at that point. I quickly 
evaluated the situation, decided the better course of action 
given the two bad choices was to continue the take-off and 
climb out at minimum airspeed over the other aircraft, which I 
did do.
    Particularly as congestion with airports increases, an 
accident or an incident of this nature reinforces the need for 
airports to have a better warning system for pilots so that 
they don't taxi onto active runways.
    In-pavement smart lighting systems employing guard lights 
and red controllable stop bars at entrances may have prevented 
many of the runway collisions and incidents on record. In my 
judgment, they should be used not only in low visibility 
instances, but I would recommend 24 hours a day, nighttime, 
daytime, bad weather. It is just a good reminder to a pilot 
that he needs to be absolutely certain that he has clearance to 
get onto a runway.
    Technological advances have made it possible to install in-
pavement smart lighting systems at a low cost and to use them 
without disrupting airport capacity or imposing additional 
burden on air traffic controllers. It is my understanding that 
Salt Lake City International has installed such a system, smart 
lighting system, on their new runway and retrofitted the old 
one at a total cost of $2.5 million in airport improvement 
program funds.
    I realize smart airport systems and lighting are already a 
part of FAA's more elaborate future airport surface movement 
safety, guidance and control system. They are, however, a 
discrete component that can be installed now to provide an 
extra margin of safety while the more complex systems are 
developed and fine-tuned.
    The major airports in the U.S. are the busiest in the world 
and in most cases have the most complex geographic layout, 
again, as compared to other major airports around the world. 
Clearly, the chance for a runway incursion with resulting 
catastrophic loss therefore is greater at our major airports in 
the U.S. than I guess most anywhere else in the world.
    It follows, then, that we very much need improvement in our 
guidance and control systems and a smart lighting visual system 
is the way to do that. Frankly, it is attributed to the 
professionalism of the pilots and controllers in the U.S. that 
we have not had more incidents or accidents.
    Systems are being installed around the world and a visual 
system is particularly important where there may be a large mix 
of inexperienced pilots or language barriers. And, of course, 
that is the case in the U.S. I think perhaps most people not in 
the business don't realize the experience mix that we have in 
our major airports.
    We have, obviously, the highly experienced U.S. captain. We 
have foreign carriers who may have some language problems and 
we have private pilots and even in some cases student pilots 
all using the same airport complex. All the more reason for, I 
think, a back-up system. A visual system that pilots can use in 
addition to what we already have, of course, which is the 
spoken word, the clearance by radio.
    I would be happy to answer any questions anyone may have.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Don Nelson follows:]


[Pages 4 - 7--The official Committee record contains additional material here.]



                                        Tuesday, February 25, 1997.

          NATIONAL AIR TRAFFIC CONTROLLERS ASSOCIATION (NATCA)

                                WITNESS

MICHAEL McNALLY, EXECUTIVE VICE PRESIDENT, NATCA

    Mr. Wolf. If you could identify yourself for the record.
    Mr. McNally. Yes. Mr. Chairman, my name is Michael McNally. 
I am Executive Vice President of the National Air Traffic 
Controllers Association, and I would like to thank you, sir, 
and members of the subcommittee, for having us here today to 
speak and thank you for support in our past issues.
    There are a number of issues I would like to talk about 
today. Among them are reclassification of FAA standards and 
compensation and aviation safety. Let me first outline the 
current problems with FAA classification and compensation 
structure.
    The current classification standard for air traffic 
controllers is over 18 years old. As a result of occupational 
changes in the control environment and substantial increases in 
the volume of air traffic over the past several--well, past 
several decades, the classification standard has become 
outmoded. It is now a deficient and inappropriate measure of 
the differences and degree of difficulty among positions and 
the knowledge skills, abilities, responsibilities and 
accountability of controls assigned to the various air traffic 
control facilities throughout the country.
    The application of the current standard and related 
compensation system is based solely on volume of traffic. It 
does not recognize complexities associated with the control of 
traffic at each facility, which results in all en route centers 
within the contiguous 48 States having the same full 
performance level grade and pay when it is well recognized that 
there are wide differences in the demands on air traffic 
controllers depending on the center in which he or she is 
assigned.
    It provides no incentive, in fact, there is a disincentive 
for controllers to move to hard-to-staff, more complex 
facilities throughout the country. And it results in large 
differences in annual pay for small differences in traffic.
    It results in no difference in annual pay among controllers 
where there are large differences in traffic density, and it 
does not provide coverage for controllers assigned to some 
categories of facilities such as up/down towers, combining 
control facilities, towers with radar.
    The present standard is also nonspecific in nature and 
permits manipulation of controller duties regardless of safety 
or efficiency consequences.
    The proposed standard and related compensation system meets 
the criteria established by NATCA and the FAA. We have been 
working with NATCA and the FAA for about 3 years in the design 
of a new classification system. It is unique to air traffic 
controllers and closely related positions and is easily 
understood.
    While pay for proposed grades has not yet been determined, 
the reaction of all those personnel who have received informal 
briefings is that this provides internal equity.
    More than that, the proposed standard addresses and 
corrects deficiencies in the current standard by acknowledging 
the varying complexities associated with different controller 
functions and environments. It assigns different weights to the 
various types of control exercise, different categories of air 
space, varying mixes of type of traffic, and other factors 
pertinent to the six categories of terminals.
    It also assigns different weights to departing and arriving 
aircraft transition in traffic overflights, Visual Flight Rules 
advisories, et cetera, in the centers. It also provides at 
least 10 FPL grades instead of the current five. This, together 
with the new classification criteria, will ensure there will be 
an adequate incentive for controllers to move to the most 
difficult hard-to-staff facilities.
    There will be significant differences in controller duties 
without appropriate differences in controller pay. There will 
not be minor differences in controller duties with large 
differences in controller pay. All categories of control 
facilities will be specifically and appropriately addressed in 
the standard. Lastly, there will be at least three FPL grade 
levels for controllers assigned to centers and six categories 
of terminals.
    The second issue I would like to address real quickly, and 
we have come here before this committee on several occasions in 
the past on the same issue, and we know the committee is 
addressing the issue, but we feel it is rather very important, 
so we would like to once again address it.
    Since 1981, air traffic operations has increased by 36 
percent, while the number of critical frontline air traffic 
controllers has decreased by nearly 2,000. These controllers 
represent an effective margin of safety and efficiency. To date 
the only explanation for this deficiency that we have found is 
a failure of the Advanced Automation System, which anticipated 
the need for fewer controllers when deployed. We can attest to 
the fact that today's controllers are showing the strain of 
chronic 6-day work weeks, increased workload, and intense 
traffic conditions. In many cases, due to sector capacity, 
severe restrictions are imposed on air traffic to ensure 
safety. In certain air traffic sectors on a given day, 
controllers are stretched to the limit without adequate 
information and staffing resources.
    This Congress recognizes the controller staffing 
inadequacies and ordered FAA to request a study of the Agency 
standard. The FAA report is due on April 15th, 1997.
    The FAA report has managed the current air traffic control 
system on the youth of 14,343 air traffic controllers, not the 
17,000 that the Agency continues to claim, most of whom were 
hired between 1981 and 1986. As a result, the aviation system 
is subject to decreasing margin of safety, increasing delays 
and inefficiencies as controllers are forced to cope with the 
increasing traffic volume and density.
    Prior to the 1981 PATCO strike, there were 16,220 line air 
traffic controllers, 2,121 supervisors, 169 trafficmanagement 
coordinators. Since 1981, the number of flights again has increased by 
36 percent, with anticipated growth of 13 percent by the year 2000. 
After the strike, the FAA planned to build the air traffic controller 
ranks to a mere 15,000. Since 1994, again, our numbers are 14,343. They 
are going down, sir, they are not going up.
    In order to increase staffing levels to meet projected 
growth, it is imperative to recruit, select and train the air 
traffic controllers of the future now. In total, 80 percent of 
the controllers on duty today will become eligible for 
retirement by the year 2007. Therefore, we must be prepared to 
completely replace the current workforce in just 10 years.
    Lastly, I would like to bring to focus on the future of the 
FAA and air traffic control with regard to contracting out. I 
would like to strike that, sir.
    In conclusion, NATCA is prepared to play an even greater 
role in aviation safety; to strive for constant improvement in 
all aspects of aviation safety; to build coalitions with other 
nations and organizations to promote positions on safety and 
technology issues; and to work with the executive and 
legislative branches of government and the aviation industry 
for continued improvement of the national airspace system.
    I thank you for this time, sir, and I would be more than 
happy to answer any questions.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Michael McNally follows:]

[Pages 12 - 41--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

        NATIONAL ASSOCIATION OF AIR TRAFFIC SPECIALISTS (NAATS)

                                WITNESS

MICHAEL F. McANAW, PRESIDENT, NAATS

    Mr. Wolf. Thank you very much. The National Association of 
Air Traffic Specialists. Just identify yourself for the record.
    Mr. McAnaw. I am Michael F. McAnaw, president of the 
National Association of Air Traffic Specialists.
    Mr. Chairman, I would like to thank you and your committee 
for your efforts in restoring Chapter 71, Title 5 of the U.S. 
Code last year. I would also like to take this opportunity to 
express our sincere appreciation to you and the subcommittee 
for the efforts last year in the appropriations cycle to 
replace some PCS dollars for the final closures of the 
Auxiliary Flight Service Stations that is presently in progress 
at this time and should be complete at the end of the fiscal 
year.
    I am the only FAA union president that still works the 
board, talks to pilots every day, work with my fellow 
controllers. I am a flight service controller GS 2152. I am a 
controller just like my coworkers at the towers and centers. 
However, in our oversight in 1993, flight service controllers 
were left out of the budget definition of safety-related 
workforce.
    In the true sense of partnership, the FAA has initiated a 
letter to the Office of the Secretary of Transportation to 
correct this oversight. The impact of inclusion in the safety-
related workforce, no more arbitrary cuts to flight service 
staffing. Flight service has been on the road to downsizing 
since 1981, long before it became popular within the Beltway. 
At your request, I would be glad to furnish you with a copy of 
that letter.
    In the FAA world, I am considered a senior employee; in the 
flight services world I am just a kid. I was hired in 1977. I 
will have my 20 years of controller time this summer. I am 
eligible to retire in August 2002. Remember, I am just a junior 
controller in flight service. There has not been any hiring of 
new flight service controllers in Civil Service roles in over 
10 years.
    Did you know that 40 to 50 percent of the flight service 
controllers in the workforce can retire at this time? By the 
year 2002, 80 percent of the flight service controllers will be 
eligible to retire.
    Flight service stations across this country are at a 
critical staff level. Year after year, DOT and FAA officials 
come before you with prepared scripts for OMB telling this 
committee how many flight service controllers OMB believes FAA 
needs. In the necessity of aviation safety, I have come to you 
and asked for your help. FAA needs to hire controllers for 
flight service. There are approximately 2,450 flight service 
controllers now. That is down over 200 from this time last 
year. The FAA needs to hire and train controllers for old 
options, center, tower and flight service, but nowhere is the 
need more critical than in flight service.
    I made a recommendation to the recent White House Aviation 
Safety Committee that is something for you to consider. Hire 
controllers into the flight service first. Develop a pipeline 
of employees that can eventually transfer into towers, approach 
control, and en route centers. This pipeline of controllers 
would learn the importance of aviation weather, talk to pilots, 
and get a sense of what the pilots' needs and desires are 
before the pilots become targets on radar screens. This will 
give future controllers a more thorough understanding of all 
phases of weather, aviation and FAA's mission.
    At your request, again, I can furnish you with a copy of 
these recommendations to the White House.
    Finally I want to say that in the last year, the FAA has 
taken partnership to a new level. The unions are included in a 
number of projects from their conception, in NAVCAS, OASIS and 
SUA and in the pay plan. The spirit of this new partnership you 
will find in the Charter of the National Labor Management 
Partnership Council formed at the FAA. This council is made up 
of six FAA unions. We are working together for the safety of 
all aviation. Thank you.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Michael McAnaw follows:]

[Pages 44 - 56--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

            PROFESSIONAL AIRWAYS SYSTEMS SPECIALISTS (PASS)

                                WITNESS

JACK JOHNSON, PRESIDENT, PASS

    Mr. Johnson. Good morning, Chairman Wolf, Members of the 
subcommittee. My name is Jack Johnson. I am the president of 
the Professional Airways Systems Specialists, and I thank you 
for inviting me to testify today.
    As the exclusive representative for over 10,000 systems 
specialists, flight inspection pilots, and aviation safety 
inspectors working for the FAA, PASS has a significant interest 
in the FAA funding. The services that our membership performs 
range from systems maintenance, installation and certification 
to aviation and flight inspection.
    My testimony today will focus on the Agency's fiscal year 
1998 budget and that request. Specifically, I will address the 
problems currently hindering our work forces, and I will expand 
upon them and those issues which PASS believes are the most 
critical to the future safety and reliability to the future of 
the National Airspace System.
    Airway facilities (AF) systems specialists, or technicians, 
as they are more commonly known, form the backbone of the FAA's 
air traffic control system. The maintenance, repair and 
operation of the system are their primary duties. In 1981, 
11,600 technicians were responsible for maintaining 19,000 FAA 
facilities and equipment. There are now over 37,000 FAA 
facilities and equipment and only 5,888 technicians providing 
hands-on maintenance of the NAS. As a direct result of staffing 
reductions, overtime usage in 1996 increased by 15 percent of 
the systems specialist workforce.
    An analysis of the AF staffing levels show that on average 
each of the nine FAA regions experienced a 13.2 percent decline 
in staffing between 1992 and 1996. Ironically FAA headquarters 
and the Technical Center show over a 72 percent staffing 
increase during the same time frame. Despite the obvious 
shortfall, FAA plans to hire only 25 additional technicians in 
fiscal year 1998.
    Today's staffing problems are definitely attributable to 
poor planning and decision making on the part of FAA 
management. The Agency first calculated the field staffing 
reductions that it believed the Advanced Automation System 
would achieve, and then it cut the field maintenance staff by 
not hiring technicians to fill the pipeline. We all know, 
however, that the Advanced Automation System never 
materialized. We are now left with the right workforce for the 
wrong air traffic control system.
    This system continues to be the safest in the world because 
of the PASS members who serve the flying public as systems 
specialists. The most productive step the FAA could possibly 
take would be to allow more of them to step up to the 
challenge.
    Mr. Chairman, if just one-fourth of the overhead in Airway 
Facilities, defined as support, managerial and supervisory 
employees not directly engaged in the NAS maintenance, was 
converted to the true maintenance workforce, it would mean 850 
more employees in the pipeline who are eventually trained to 
maintain the NAS. This would be a 15 percent increase in the 
number of field technicians available to help keep our skies 
safe. There is no better way for the FAA to make our airspace 
safer without spending additional money.
    Today, the FAA is fielding systems faster than it is 
fielding employees. As a result, the Agency now outsources the 
maintenance of many new systems to private contractors simply 
because it doesn't have enough technicians to cover the 
workload. As we get more advanced technologies without the 
simultaneous evolution of the workforce, the gap between 
employees and the technology widens.
    For years PASS has testified that the safety of the air 
traffic control system is an inherent governmental function, 
and it should not be turned over to the lowest bidder. The 
Agency justifies outsourcing, however, by maintaining that FAA 
technicians are always responsible for system maintenance and 
NAS certification for the operation. Yet FAA technicians often 
cannot get copies of contracts to see what is required of the 
contractors; therefore, they are not sure what to enforce and 
assess the performance of the contractors on.
    The National Airspace System is not just one piece of 
equipment. The NAS is a complex system which includes thousands 
of different smaller systems, many of which interface with one 
another. When contractors come into the FAA facilities and 
maintain a piece of NAS equipment, they often do not understand 
the effect they can have on the intricacies of the whole system 
and on the safety of the flying public. Remember, one small 
system breakdown can contribute to a major safety problem.
    Because our technicians work with the NAS equipment every 
day and are the only people who can certify the systems, they 
understand the need to exhibit caution and to communicate with 
others before performing any maintenance on the system. The 
bottom line is contractors do not have the pride of ownership 
that our FAA technicians provide the FAA.
    In addition, the FAA loses a great deal of flexibility by 
hiring contract personnel that specialize in only one system or 
piece of equipment. The final report of the White House 
Commission on Aviation Safety and Security addresses making air 
traffic control safer and more efficient. According to the 
report, the FAA should develop a revised NAS modernization plan 
within 6 months and would set a goal of being fully operational 
nationwide by the year 2005.
    Since the early 1980s, the FAA's modernization program has 
experienced substantial delays and cost overruns.
    PASS employees are a vital part of developing the future 
NAS and are the FAA's best insurance that this new system will 
work as advertised.
    PASS strongly recommends that the FAA involve employees 
from the lowest operating levels in the highest levels of 
acquisition and decision-making.
    Today PASS proudly represents approximately 2,500 aviation 
safety inspectors and clerical employees of the flight 
standards service. No FAA workforce has received more attention 
this past year than the aviation safety inspectors. These 
professionals saw their integrity questioned and criticized 
during the ValuJet investigation, only to be vindicated by the 
NTSB during a public hearing in November. John Goglia, the 
official in charge of the ValuJet hearing, chided FAA 
management for failing to provide inspectors with the necessary 
funds and staff to ensure the safety of the flying passengers.
    Since this accident, the Agency has reevaluated its 
program, and at the request of the former Administrator David 
Hinson, FAA worked with PASS to conduct a 90-day safety review 
examining safety inspection concerns. The end result: a lengthy 
FAA 90-day safety review report.
    PASS is pleased that the Agency recognized that more 
inspectors are needed to meet the growing aviation demands, 
requesting an additional 273 new flight standards safety 
inspectors and certification personnel for fiscal year 1995.We 
ask Congress to support this staffing increase and to appropriate funds 
to hire enough inspectors to meet the current needs. In addition, PASS 
asked Congress to appropriate funds to hire more clerical personnel in 
flight standards. According to the FAA's own staffing standards, flight 
standards was short nearly 200 clerical employees at the end of fiscal 
year 1996.
    Just as important as inspector staffing is training. There 
is no greater weapon in the war against aviation accidents than 
a properly trained aviation safety inspector. For fiscal year 
1998, PASS understands that the FAA has requested $30 million 
in its operations budget for additional technical training/
flight proficiency training. The Agency has also requested 
$13.2 million to meet the initiatives of Challenge 2000.
    While we are pleased that the Agency is asking for more 
money for training, we are very concerned that the funds are 
not specifically targeted for inspectors. Never before has the 
need for inspector training been so essential.
    The progress that the Agency has made in this year in 
correcting its aviation safety inspection problems would be 
negated unless inspector staffing and training needs are met. 
With input and support from PASS, the FAA produced meaningful 
and significant recommendations within the 90-day safety 
review. The Agency, with oversight from Congress, must now 
follow through and ensure that these recommendations are 
implemented. Otherwise we will be back to where we started.
    Without question, PASS technicians and aviation safety 
inspectors face serious obstacles as the FAA attempts to keep 
our airways systems operating at the highest possible safety 
levels with the least amount of available funds. What PASS has 
tried to emphasize through this testimony is the importance of 
staffing and training and the critical need that the Agency and 
Congress increase staffing and training to meet necessary and 
realistic levels.
    Mr. Chairman, thank you again for the opportunity to 
testify today, and I will be glad to answer any questions you 
may have.
    [The prepared statement of Jack Johnson follows:]

[Pages 60 - 75--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

                   AMERICAN PSYCHOLOGICAL ASSOCIATION

                  HUMAN FACTORS AND ERGONOMICS SOCIETY

     FEDERATION OF BEHAVIORAL, PSYCHOLOGICAL AND COGNITIVE SCIENCES

                                WITNESS

DEBORAH A. BOEHM-DAVIS, ASSOCIATE PROVOST FOR RESEARCH IN GRADUATE 
    STUDIES, GEORGE MASON UNIVERSITY

    Mr. Wolf. Doctor, would you identify yourself for the 
record, please.
    Ms. Davis. Yes. Mr. Chairman, Members of the subcommittee, 
I am Dr. Deborah Boehm-Davis, past president of the Human 
Factors and Ergonomics Society and faculty member of George 
Mason University.
    I am testifying today on behalf of the American 
Psychological Association, Human Factors Ergonomics Society and 
the Federation of Behavioral, Psychological and Cognitive 
Sciences. We represent researchers dedicated to assuring safe 
air travel.
    Rather than read the written testimony, which I understand 
will be read into the record, I would like to take my time this 
morning to share a more personal story. The last time I 
appeared before this committee, I was asked why the 
organizations which I represented should care that funding for 
human factors research had been cut when the FAA itself did not 
seem to care. Although I wasn't quite sure how to answer that 
question at the time, I gave it quite a bit of thought 
afterwards, and I realized the reason for testifying was 
precisely because the FAA did not seem to understand how 
critical this research is.
    Congress supports human factors research and making 
aviation safety a high priority. However, funding for human 
factors research has been eroding steadily. Instead, money has 
been invested in new and better technology. What this ignores 
is the fact that three out of four airline accidents involve 
human performance error.
    Further, the cost of human factors research is small 
compared to the cost of technology. In fact, the total 
investment for one year's human factors research effort at the 
FAA is less than the cost associated with one typical airline 
accident.
    As one quick example of what human factors research can do, 
I would like to talk about some research that my colleagues and 
I have been working on with support from the FAA. In this 
project we are interested in developing and in evaluating a new 
training system for pilots. As part of the evaluation of the 
training program, we ask professional pilots to evaluate the 
performance of crews who had been videotaped in a simulator 
session.
    What we discovered surprised us. We found that two 
different pilots could watch a crew perform certain maneuvers 
and evaluate their performance in quite different ways. For 
example, one evaluator might say that the crew had performed 
above FAA standards, whereas another evaluator might rate that 
same crew's performance as below standard.
    Further, the pilots couldn't even always agree on what we 
called observable behaviors, things that we thought they could 
see in the cockpit. As an example, when a problem occurs on the 
flight deck, one pilot should devote him or herself to flying 
the aircraft while the other pilot diagnoses the problem.
    When we asked evaluator pilots to observe the videotaped 
performance of a set of crews in just such a situation, we 
found that the evaluators were not able to agree on whether the 
crews actually split the duties as they should have. When we 
pointed out the disagreements in the ratings, the evaluators 
talked amongst themselves, determined why the disagreement had 
occurred, and then developed through these discussions, not 
through directives from the research team, a more consistent 
approach for rating pilot performance.
    Now why is this agreement important to us, and why should 
it be important to you? Well, our goal was to determine if our 
training program improved pilot safety. Now let's say that our 
training program is a good program and a given pilot has, in 
fact, improved because of our program. If that pilot was 
evaluated by a lenient evaluator prior to training and by a 
more stringent evaluator after training, we might not see an 
improvement. We might even see a decrease in performance even 
though that pilot had actually improved. This makes it very 
difficult for us to demonstrate the effectiveness of our 
training program. For yourself and the flying public, the 
implication is that a weak pilot could potentially be certified 
as competent due to being evaluated by a lenient instructor, 
while a competent pilot could be judged below standard due to 
an evaluation by a strict instructor pilot.
    To address both of these problems, our research team took a 
side trip to develop a method for helping evaluator pilots be 
more consistent in their evaluation of pilot performance. Based 
on positive feedback about the process that we developed from 
both the pilots at the airline we were working with and our FAA 
research sponsors, our research team developed a 2-day workshop 
where we brought in representatives from a number of different 
airlines and showed them how to use this approach to improving 
evaluator reliability.
    To the extent that this approach is used, we feel we have a 
better and more reliable assessment of which pilots are safe to 
fly and which ones are not. This potential improvement in 
safety is only one product from this project, whose total 
funding over a 3-year period is roughly $700,000. If this 
approach prevents even one accident, it will show a substantial 
cost-benefit ratio. This kind of research can, with your 
support, mold an FAA capable of keeping the skies safe for many 
generations to come. I ask that you provide that support.
    Thank you for this opportunity to speak on behalf of the 
human factors research budget.
    [The prepared statement of Deborah Boehm-Davis follows:]

[Pages 78 - 92--The official Committee record contains additional material here.]


    Mr. Wolf. I thank you very much. I appreciate all of your 
testimony. I wish this process were better; then all of you 
would have more time, and we could get into a lot more 
questions.
    I don't have any questions because of the time, but I do 
want to say something. This Committee on both sides of the 
aisle have been very supportive of putting necessary funding 
in. It has not been a partisan issue. I am concerned, though, 
that we are reaching a point of diminishing returns.
    Secondly, I remember as a new Member of Congress sitting in 
the Public Works Committee when Lynn Helms came up to testify 
for the AAS in 1992 to talk about it being in place by a 
certain year. We have fallen so far behind, and I know the 
point with regard to the amount of personnel has fallen far 
behind.
    Thirdly, this year the administration has asked for $400 
million more in user fees without specifying how we are going 
to get there. We don't have an FAA administrator. Mr. Hinson, 
who I had great respect for, walked out of the building on 
November 1, and that is all of November, all of December, all 
of January. Here we are in February. The building is empty, 
fundamentally empty. And then when Linda Daschle left, there 
was no political person, and I know it is asking too much of 
the career people to come up and deal with some of these 
issues. So we actually have a vacuum here.
    Lastly, we had a ticket tax that was off. When I think of 
the money that we have lost that would enable us to do the 
things that are absolutely critical to do--and we are going to 
have a statement within a week or two about some of these 
issues, but I want to tell you, if you remember the statement 
that Lynn Helms made just about July or August of last year, he 
predicted--and I think the study was from Boeing--that on a 
certain year, either 2005 or 10, or something like that, or 
maybe 2015, there will be a major aviation crash every week, I 
think every 8 days.
    Now you look at what took place, the wretchedness and how 
we feel so bad when a accident like ValuJet takes place, and 
your heart goes out to the people on the plane. Can you imagine 
something like that taking place every 8 days in this world?
    So I think you all raise a good point. All of you raised 
issues of money. Nobody came in asking for program reduction. 
Not one of you did. You want more money for this and you want 
more money for that, and I am really very, very concerned. We 
have got to get an administrator on it, we have got to know 
where these user fees are going to be, and we have got to kind 
of put the ticket tax back on and begin to focus because I 
think aviation safety is something that the American people are 
prepared to pay for.
    I know if you went to any airport and stood in line and 
said, would you pay a little bit extra, they would all say yes, 
particularly as they are getting on that plane.
    So I thank you for your testimony. We may follow up with 
some of you for individual questions, but I think it is 
important we mobilize the Nation to see how important this is 
because we are really going the wrong way when it comes to 
funding on many of these programs.
    Mr. Sabo.
    Mr. Sabo. Thank you, Mr. Chairman, Let me welcome Mr. 
Nelson from Minnesota. Good to see you. And I will make one 
brief comment.
    I have been pushing the FAA to provide information on 
numbers of air traffic controllers and related personnel for 
several years. I gather from all your testimony that we have 
had an substantial emerging problem in terms of trained 
personnel available for the system and that we need to pay 
attention to it.
    I am disturbed by the FAA lack of attention to that issue 
over a number of years, of how we train efficiently and get 
good people into the pipeline. So I welcome your testimony.
    Mr. Wolf. Mr. Packard.
    Mr. Packard. I don't want to take a lot of time, but I was 
curious from the air traffic controller's point of view how 
TCAS, the collision avoidance equipment that has not been 
retrofitted on to most of our passenger planes, is working and 
whether you have any comments relative to TCAS and its 
effectiveness.
    Mr. McNally. Yes, sir. We did have some problems with TCAS 
when it was initially coming on board as new technology. Some 
of it was really procedural type of stuff, differences between 
the cockpit and grounds, what kind of action would be taken by 
the pilot and how the controllers would be plugged in to know 
how they were going to be taking these actions.
    We seemed to have worked through most of those issues of 
concern back then. We have--well, the number is proven out. We 
have situations over the oceanic flights in which TCAS has 
saved lives basically. I mean if it wasn't for TCAS these 
situations could have been a lot more dangerous. So we have 
kind of turned around on TCAS and think it is something that we 
can now begin to support.
    Mr. Packard. Thank you. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Torres.
    Mr. Torres. Thank you, Mr. Chairman. I won't be long. I was 
struck by both Mr. McNally's and Mr. McAnaw's statements that 
since the air controllers strike of 1981, and there were 16,220 
air controllers working, and since then we have had a 36 
percent increase in flight activity.
    As of 1994, there are only 14,343 controllers working. That 
is a tremendous decline and there are many reasons you sort of 
alluded to for that decline. But what is the real salient 
reason for that decline? Why is it so low? What is causing the 
number to just diminish and there is no replacement taking 
place.
    Mr. McNally. Well, quite honestly, sir, we haven't really 
been hiring in 5 years. There was no pipeline whatsoever. I 
mean there was a little token hiring going on, I guess, last 
year. This year we are about to hire 500.
    The problems that are associated with that, however, is it 
takes 3 to 5 years to make an air traffic controller, so 
someone we hire today does not become useful to the system 
until the year 2000, and that is a major problem.
    We also have an attrition rate that is going through the 
ceiling. We have facilities, sir, that sits in your district, 
Washington Center, in which there are almost now 100 air 
traffic controllers eligible to retire, ready to walk out. And 
that facility could not handle it. It would be devastated. They 
wouldn't be able to operate.
    This has gone on for so many years. I guess the advanced 
automation system was the promise that never was delivered and 
as such they staffed on the condition that the advanced 
automated system would actually be in place. And there is 
another issue that the FAA does and we are finally, I think, 
beginning to understand or at least reach some kind of 
agreement with them, but they keep saying that they have 17,080 
air traffic controllers. That is not true. They have 14,343. 
They have even told the Gore Commission that they had 17,080 
controllers and we told them that is not true, we have 14,343.
    What they claim to be air traffic controllers are 
supervisors and traffic management coordinators. These people 
work 8 hours a month, radar control position, 8 hours a month, 
96 hours a year, and they claim them to be air traffic 
controllers.
    The staff jobs, there are 8,333 supervisor traffic 
management coordinators, staff people, in regional headquarters 
up here in 800 Independence and we can't seem to get them to 
reverse that trend. There are a total of 23,500 fifty-twos, 
which are classified as air traffic controllers. There are 
14,343 people that actually separate airplanes.
    So the answer to your question is the FAA simply has not 
focused in on hiring. They have basically used the youth of the 
air traffic control where they were hired in 1982. I was hired 
in 1982. I was 25 years old. And it is a young person's game. 
So for 10 years they can get away with it, but now I just hit 
40 and a lot of my peers, we are getting up in age and we just 
can't simply handle the traffic that is coming at us.
    Mr. McAnaw. In-flight service field, due to consolidation 
of stations from 300 and some down to 61, is why the agency 
hasn't hired since 1981. And a lot of the work force was around 
during the strike. And I, for one, was working in-flight 
service station before the strike. And so our work force is 
considerably older than the NATCA tower and center work force. 
And due to this consolidation, the agency and OMB felt that we 
don't need the staffing.
    Well, we have gone below the critical line. We have found 
that roughly 3,000 journeymen keeps the system pretty well--
answers all the calls, gives all the pilots the weather, takes 
all the flight plans and does everything that the system needs 
that we do in a flight service station. But they haven't hired 
in over 10 years. There has been a freeze on our hiring 
altogether.
    Mr. Torres. Thank you Mr. Chairman. My time has expired.
    Mr. Wolf. Thank you, Mr. Torres. I might add that the 
committee gave the FAA money last year that has not been used 
yet to hire. We are well into the fiscal year. Secondly, there 
was $75 million in user fees. Not one penny of user fees have 
been collected as of yet for air traffic controllers for flight 
services people.
    Secondly, I just urge the committee members one day you may 
just want to go out to Leesburg and walk through, maybe take an 
hour and just let them go through. It is very interesting. But 
you will see.
    Forty, to me, is a mere child, but I think I understand 
what you are saying. They are getting long in the tooth out 
there and I think they are getting older and so it is 
frightening because I know when I talked to the young ones they 
tell me how long it takes to really become proficient and there 
has been a large period of time that we just have not hired new 
people. You will be young in your second career, but old in 
this career.
    Mr. Packard. I am wondering if it would be interesting to 
the committee if you have seen an increase of overtime for air 
traffic controllers or how they adapted or accommodated the 
additional load with fewer people.
    Mr. McNally. Well, that is an interesting question, sir. 
The FAA can show you how their overtime is decreased. That is 
because they simply don't provide the funding. The fact is what 
we are beginning to do is we are beginning to start a day at a 
given facility shorter than we ever did before.
    I can recall back about 5 years ago in any particular area 
of specialization we wouldn't start a shift. It would be 
unheard of to start a shift with less than 11 people. They are 
now starting a shift with seven people and what they are doing 
is combining sectors, combining air space and working one-
person sectors instead of two sets of eyes on a radar scope and 
we now have one. So if a mistake is made, there is not another 
set of eyes to pick up the mistake and correct it before 
something happens.
    Mr. Wolf. Mr. Tiahrt.
    Mr. Tiahrt. Mr. Chairman, I don't have any questions.
    Mr. Wolf. Mr. Olver.
    Mr. Olver. Mr. Chairman, if I might take one moment to 
respond to your earlier comment. PASS is asking the FAA to be 
directed by Congress by whoever needs to direct them to do the 
right thing with what they have. I believe that their brothers 
in NATCA and NAATS are also asking for the same thing: cut back 
on the overhead, cut back in the supervision and the things 
that the FAA was instructed to do according to the Gore 
National Performance Review and they are asking that we 
appropriate funds that were earmarked for training and for 
getting people up to speed.
    Mr. Wolf. We did, we appropriated that this year, but we 
can't go down to the FAA and mandate that they spend it and 
there is not an administrator today on board and you certainly 
can't ask a career person who is a GS-15, who doesn't know what 
he or she should be doing until the political people come in, 
and so you had the 75 million and not a penny was collected, 
but I understand what you are saying.
    Anyway, I appreciate you all coming and thank you very much 
and feel free to submit any additional information. The full 
statement will be in the record.
                              ----------                              

                                        Tuesday, February 25, 1997.

           AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES (AAAE)

    AIRPORTS COUNCIL INTERNATIONAL-NORTH AMERICA (ACI-NORTH AMERICA)

                                WITNESS

CHARLES M. BARCLAY, PRESIDENT, AAAE
    Mr. Wolf. The next group, and I would like to ask the next 
group to please watch the light because we are about 20 minutes 
behind where we thought we would be, but if we could get the 
American Association or Airport Executives, Air Transport 
Association of America, National Business Aircraft Association, 
and the General Aviation Manufacturers Association to come on 
up together and we will start with the American Association of 
Airport Executives. And your full statement will be put in the 
record, and if you could summarize, we would appreciate it very 
much.
    Mr. Barclay. Thanks, Mr. Chairman. I am Charles Barclay of 
AAAE. I would just like to make three brief points in addition 
to what we have put in the record. I suppose it is obvious to 
the committee that airports strongly oppose the cut that has 
been recommended by the administration from $1.46 billion down 
to a billion dollars from AIP. That is a 31.5 percent cut at a 
time when passenger traffic is increasing. As well as there are 
demands for increased spending on safety and security at 
airports and this is simply a poor policy choice.
    As this committee knows, this follows on a pattern of cuts 
where AIP has fallen from $1.9 billion down to now a request 
for a billion dollars. All the while passenger traffic is 
increasing and these are irreconcilable trends to continue.
    Second point and apparently less obvious to the people that 
have put together the budget document for the administration is 
the important distinction between cutting consumption spending 
and cutting investment spending and trying to reach a balanced 
budget. We owe it to future generations, as many people have 
noted, not to leave them with a huge financial debt, but we owe 
them more than that.
    We also owe them the bridges and roads and tunnels and 
airports and air traffic control infrastructures to allow them 
to create wealth and compete in their society.
    If we eliminate the Federal deficit at the expense of 
creating an infrastructure deficit, we haven't done future 
generations any favors. In fact, most economists will tell you 
you have left them with a greater handicap by not leaving them 
with the tools to create wealth during their society.
    My last point is one that the administer of the 
administration's budget document doesn't seem to have learned 
the lesson that the President was trying to make just a couple 
weeks ago in delaying the American Airlines strike. The 
aviation system in the United States is increasingly essential 
and critical to the operation of our economy. And in our case, 
the aviation system is relatively more critical than similar 
systems are for global competitors.
    The second largest economy in the world fits into a land 
mass the size of New England. Japan has options on the surface 
for quickly transporting goods and resources across their 
entire economy. Germany fits into a land mass of the Mid-
Atlantic States and east of the Mississippi. They have options.
    The United States, expanding four time zones, has one 
option for quickly transporting goods and people and resources 
across our economy in order to compete in an accelerating 
global economy. And that is an issue that we have to do a 
better job as an industry of driving home the critical central 
nature of the aviation system to our economy because of the 
characteristics of the United States.
    If you look around the world and you see how other 
countries are investing in airport infrastructure and you 
compare it to us here today, debating a $1 billion investment 
for 3,200 airports nationwide, and you compare that to the 
Government of Malaysia investing $3.8 billion in a single new 
airport at Kuala Lumpur, the Government of Germany investing $6 
billion in Munich, the Government of Hong Kong investing $20 
billion for a single new airport, you get a sense of the 
problem for investing $1 billion for 3,200 airports.
    Mr. Chairman, we appreciate the opportunity to present our 
testimony and ask the committee to restore funding to at least 
this year's level.
    Mr. Wolf. I thank you. Last year, they asked for $1.35 
billion. We came up higher, at $1.46 billion.
    [The prepared statement of Charles Barclay follows:]

[Pages 99 - 116--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

               AIR TRANSPORT ASSOCIATION OF AMERICA (ATA)

                                WITNESS

MICHAEL F. RIOUX, SENIOR VICE PRESIDENT, OPERATIONS AND SAFETY, ATA

    Mr. Wolf. Next, Air Transport Association.
    Mr. Rioux. Mr. Chairman and members of the subcommittee, I 
am Mike Rioux, Senior Vice President, Operations and Safety. 
ATA and its member carriers appreciate the opportunity to 
appear before this subcommittee.
    At the outset, let me express our gratitude to you for 
establishing a smooth working relationship between the industry 
and subcommittee; one that has resulted in serious 
consideration and often generous disposition of our 
recommendations. This gratitude also extends to your efforts to 
protect the Federal Government's investment in airports across 
the country.
    Airport operators and airlines support your strong stance 
that diverting airport revenues for nonairport purposes is not 
an option. On its final report to the President, the White 
House Commission on Aviation Security and Safety recommended 
that the principal focus of industry and government should be 
to reduce the rate of accident and to re-engineer the FAA's 
certification and regulatory program.
    The commission also recommended that the safety and 
efficiency that will come from a modernized system should not 
be delayed. It recommended that the modernization program be 
accelerated to enable full operational capability by the year 
2005.
    To meet these challenges the FAA must change the way it 
does business. Fragmented management and lack of sufficient 
accountability and controls continue to demonstrate that the 
FAA's approach to modernize our air traffic control system is 
ineffective. As cited in the February 10 issue of Aviation 
Week, despite spending nearly $23 billion for components to 
modernize the ATC system, there is no single organization 
within the FAA providing for central guidance and organization 
to the hodgepodge of independent procurement efforts scattered 
over the agency.
    The $23 billion spent to date represents Congress' 
commitment to the effort. The FAA, however, continues to 
demonstrate that it cannot adequately address programs. It is 
imperative that the FAA implement sound systems engineering and 
management practices.
    We suggest that you will evaluate the FAA budget request 
and prioritize FAA spending with these guideposts in mind: One, 
does the proposed spending enhance safety or security? Two, 
does the proposed spending increase capacity? Three, is there a 
lower cost or more efficient way of providing the same level of 
safety, security or increased capacity?
    These three guidelines are closely linked. Regrettably, the 
FAA has not been guided by nor established its priorities 
according to these benchmarks.
    Three examples of great importance underscore the 
shortcomings of the FAA's method of doing business. The 
proposed National Air Space System Architecture offers six 
alternative designs all exceeding projected FAA funding levels. 
No design concept was considered that was within FAA projected 
funding levels. FAA passed up a great opportunity for cost 
savings by failing to take advantage of the national satellite 
test bed for the development of the GPS-wide area augmentation 
system.
    Instead, the WAAS price tag is now rapidly approaching $700 
million. The WAAS program has been placed in further jeopardy 
with the DOD's position regarding the use of the L2 signal. We 
recommend that the subcommittee redirect some fiscal year 1998 
WAAS funding to near-term user benefit programs identified in 
my written testimony, while impartial re-evaluation is 
conducted by an impartial organization such as was conducted by 
GAO. We question the FAA's logic by the so-called HALASKA pre-
flight demonstration project without so much as a plan or a 
concept of operations.
    Modeling and simulation must be completed before embarking 
on such an ambitious project. We believe there is a better way. 
The FAA and industry must reach a consensus as partners in 
identifying and funding FAA programs that meet the threefold 
test I outlined earlier. Government industry partnership 
programs benefit the public in two ways, through the rapid 
implementation of safety and efficiency improvements and 
through the reduction in cost.
    For example, last year an industry FAA consensus was 
reached for a GPS local area augmentation system architecture 
and standards development schedule. The partnership approach is 
just an important element in the regulatory context as well as 
it is for the FAA's operational procurement mission as outlined 
in the FAA's Challenge 2000 report.
    Mr. Chairman, my statement highlights a number of key 
programs which we strongly feel will improve safety and 
efficiency, and for the benefit of time I won't repeat them.
    The last matter I would like to address is the funding for 
the Airport Improvement Program. The President's budget request 
for only $1 billion in funds is unrealistically low. Clearly, 
there is a need for more than $1 billion in AIP funds. In fact, 
the levels of AIP appropriated last year were barely adequate, 
as Mr. Barclay pointed out.
    While we await the recommendations of the National Civil 
Aviation Review Commission and determine the long-term funding 
requirements and mechanisms for our national system of 
airports, the Congress should appropriate no less than the same 
amount as last year.
    Mr. Chairman, that concludes my statement. We would like to 
request the opportunity to submit further information following 
the FAA's presentation of this subcommittee.
    Mr. Wolf. Sure, without objection.
    [The prepared statement of Michael Rioux follows:]

[Pages 119 - 135--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

          NATIONAL BUSINESS AIRCRAFT ASSOCIATION, INC. (NBAA)

                                WITNESS

JOHN W. OLCOTT, PRESIDENT, NBAA

    Mr. Wolf. The National Business Aircraft Association. Mr. 
Olcott.
    Mr. Olcott. Good morning, I am Jack Olcott, President of 
the National Business Association. NBAA represents 4,500 member 
companies that use general aviation aircraft for business 
travel, that segment of our Nation's transportation system we 
call business aviation. I respectfully request that my written 
testimony, which addresses NBAA's detailed response to the 
administration's fiscal year 1998 FAA budget, be entered for 
the record.
    This morning, I would like to focus the committee's 
attention on two areas: One, the introduction of $300 million 
in unspecified user fees; and, secondly, insufficient 
government commitment to our Nation's air transportation 
infrastructure. Granting the FAA administrator authority to 
collect user fees is premature at best, potentially 
counterproductive.
    It is premature since it invades the arena that Congress 
assigned for the National Civil Aviation Review Commission. As 
you, Mr. Chairman, correctly pointed out, the NCARC is the 
appropriate forum for determining the FAA funding needs and 
best way to raise those funds. We wish to add, however, that 
since enacted over 25 years ago, the aviation excise tax system 
has proven itself to be an easy form of generating funds, an 
efficient form of generating funds, and it has proven to be 
fair.
    Preordaining user funds through any form in the budget 
process is premature. User fees are potentially 
counterproductive because they may fall outside congressional 
control and may discourage FAA from seeking to improve its own 
efficiency. Fees for safety services risk rejection of those 
services, which increases the risk of aircraft accidents.
    All forms of general aviation, including business jets. 
Exhibit pronounced price elasticity, as we have documented in 
our written testimony. Fees for units of use, such as $225 for 
life plan, as proposed by President Clinton last fall, could 
reduce utilization as much as one-third within our community.
    Any movement to a user fee system must be carefully 
analyzed for unintended consequences. In particular, the 
movement towards 100 percent funding by the direct user risks 
creating an aviation infrastructure that is undercapitalized 
and underutilized.
    Considering that air transportation contributes over $770 
billion annually in economic activity, which generates for the 
Federal government an estimated $30 billion in Federal tax 
revenues, the administration and Congress should encourage air 
transportation, not risk its underfunding and its 
underdevelopment.
    This position brings me to my second point and to my 
conclusion. The administration's FAA budget failed to place 
sufficient emphasis on technology essential for modernizing our 
Nation's air traffic management and control system. For 
example, funding for data link and enabling technology for free 
flight is simply insufficient. Even cursory examination of the 
1998 budget request shows that DOT fails to appreciate the role 
of air transportation infrastructure and for filling our 
Nation's economic and social objectives as we prepare for the 
21st Century.
    We recommend that this committee reject the 
administration's request for authority to collect user fees and 
we recommend that greater emphasis be placed upon those 
technologies which move our Nation towards ATS modernization. 
Thank you, Mr. Chairman.
    Mr. Wolf. Thank you very much.
    [The prepared statement of John Olcott follows:]

[Pages 138 - 175--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

           GENERAL AVIATION MANUFACTURERS ASSOCIATION (GAMA)

                                WITNESS

ED BOLEN, PRESIDENT, GAMA

    Mr. Wolf. General Aviation Manufacturers Association.
    Mr. Bolen. Thank you, Mr. Chairman. My name is Ed Bolen and 
I am President of the General Aviation Manufacturers 
Association. In your remarks to the previous panel, you talked 
about the President's proposal for $400 million in user fees 
and I think Mr. Olcott has spoken eloquently about his 
concerns, which are really shared by the entire general 
aviation community about that.
    As you know, there was a tremendous debate that went on 
last year about how to fund the FAA and certainly General 
Aviation was part of that debate. We agreed that the National 
Civil Aviation Review Commission was an appropriate forum for 
that and certainly this committee, in funding that commission, 
echoed those sentiments. We would like to see the committee do 
its work before we accept fees.
    I would also specifically like to tailor my remarks today 
about a specific type of user fee that we have seen in Europe 
that I think is particularly damaging towards manufacturers and 
towards innovations in aviation manufacturing markets and that 
is certification fees.
    Since the late 1920s, the FAA and its predecessors have 
certified all aviation products manufactured in the United 
States and they have done so for one reason, and that is to 
protect the public's interest in aviation safety. It has not 
been done to benefit manufacturers. It has been done to protect 
the public's interest in safety. And I don't think it is 
appropriate since its benefit goes to the general public to ask 
manufacturers specifically to bear the burden for that.
    Now manufacturers already do pay for approximately 930 
percent of the cost of the certification process and they do so 
through the process of delegation, which I know you are very 
familiar with. In its review of the certification process Booz, 
Allen, Hamilton in its Challenge 2000 report suggests that the 
manufacturers should increase their delegation authority and 
assume more of the cost for certification and that is something 
that GAMA strongly endorses.
    What we don't want to see happen is a toll booth put 
between the manufacturers and regulators. Anything that is 
taxed is going to decrease that activity, and it put a toll 
booth between regulators and manufacturers which will decrease 
the flow of safety information, and we think that that is 
damaging.
    We are also concerned that in foreign countries where we 
have seen certification fees, we have seen them become subject 
to bureaucratic manipulation. If they charge on a per-person 
basis, we suddenly see four people to do the task of two. If it 
is charged on an hourly basis, we suddenly see projects taking 
4 hours where they took 2. We see them used to lock in the 
current method of operating.
    Innovation is stymied because we do things the old way. 
That is how we will know we make our money. And so for those 
reasons I want to particularly recommend to this committee that 
as you review the user fee proposal that we be skeptical from 
the start because I think it would short-circuit the system 
that we set up through the National Aviation Review System, but 
I want to bring to the committee's attention the concerns that 
we have with certification fees specifically. And I thank you 
for the opportunity to testify.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Edward Bolen follows:]

[Pages 178 - 183--The official Committee record contains additional material here.]


    Mr. Wolf. Mr. Sabo.
    Mr. Sabo. No questions.
    Mr. Wolf. Mr. Tiahrt.
    Mr. Tiahrt. First, I want to thank Mr. Bolen for being in 
my district last Tuesday with members of the Aviation 
Subcommittee on Transportation Infrastructure. It was a very 
successful time.
    Only in Wichita we consider ourselves the air capital of 
the world because of Boeing, Cessna, and Learjet, all who have 
manufacturing facilities there; and I am interested in a 
comment that was made by Mr. Barclay about investing in the 
infrastructure.
    We have a lot of small aviation manufacturing, as well as 
large aircraft that are manufactured in Wichita. What priority 
are you--when you are talking about investing in the 
infrastructure, are you talking about flight safety or runways? 
Give me an idea of what you think the priorities should be.
    Mr. Barclay. It is the overall spending on airports. If you 
go back to 1992 and you don't just look at Federal investment, 
you look at all investments, we were investing $7.4 billion in 
the airport infrastructure for safety capacity, small and large 
communities. Today we are investing about $5.7 billion, yet 
over that period of time traffic has increased over 20 percent.
    Those are not--those are patterns that you just can't 
continue if you are talking about a system that is at the 
fundamental level of our Nation's economy being able to 
operate. So we need to find a mechanism, and it may not be the 
budget--the Federal budget process, the way things are going, 
but we need to find a mechanism that in total we can start 
reinvesting at airports nationwide, in large and small 
communities, enough money to meet both that future demand and 
the safety and capacity of the system.
    Mr. Tiahrt. Well, I am not sure I understand what priority 
we should put that on because we have heard about flight 
safety, particularly from the air traffic controllers. That 
seems to be a paramount problem.
    Infrastructure, to me, means concrete mostly, and small 
airports as well as large airports. But do you think it is just 
that we are not spending enough? How would you prioritize it?
    Mr. Barclay. If I am getting your point, clearly if the FAA 
administrator is keeping the radars running tomorrow and 
tomorrow's aviation safety issues have to be first on your 
plate; and the infrastructure investments that take 10 years to 
complete wind up being put off.
    What we are trying to alert people to is something the 
Chairman knows well. We are getting a Wilson Bridge syndrome 
built into our air traffic control and airport infrastructures 
of, let's keep waiting on this until we can feel the crisis. By 
the time you feel the crisis, it is going to take you 10 years 
to be able to repair the damage.
    The message we are trying to carry as strongly as we canis, 
this isn't just an aviation problem or an airport problem. We are 
talking about limiting the growth of our entire economy because of the 
centrality of aviation to our Nation's economy in a globally 
competitive market.
    Mr. Tiahrt. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. I have a couple of 
brief questions here.
    I was trying, out of the testimony, Mr. Olcott, that you 
gave, to find the reference to the $770 or $777 billion. Can 
you tell me what that was again?
    Mr. Olcott. Yes, sir. The Wilbur Smith Company did a survey 
for the Partnership for Improved Air Travel. They determined 
that the contribution of air transportation to the Nation's 
economy was $771 billion in the year 1993.
    We also have in the testimony, in the additional portions, 
a literature search done for us by Arthur Andersen where it was 
clearly stated that economists feel that transportation 
infrastructure funded strictly by the direct user will be 
undercapitalized and underutilized. They also make the point 
that transportation throughout history has always driven the 
economy.
    I would like to make a point, if I may, and that is we are 
talking about the visible infrastructure when we talk about 
highways and airports and bridges. But aviation required an 
invisible infrastructure. You don't see the satellite signals 
from space. You don't see the radar that goes out and locates 
where the airplanes are.
    I urge this committee to see the invisible infrastructure 
needed for air transportation and provide the emphasis on air 
transportation as an enabling technology for our Nation's 
economic and social objectives as we enter the 21st century.
    Mr. Olver. I would agree that air transportation is 
absolutely critical to a functioning economy. I guess my sense 
is that that kind of a number, $770 billion, represents 
something like one-eighth or one-seventh of our total economy, 
which means that the definition of what a contribution is, a 
contribution of air travel, what are the factors that go into 
that contribution? It must be fairly expansive, and I wonder--
if I don't have it, I wonder if you could make it available to 
me----
    Mr. Olcott. Certainly.
    Mr. Olver [continuing]. So I can see what is being included 
in that.
    Mr. Olcott. Certainly, sir.
    Economists have a wonderful way of having--I believe you 
are going to find that transportation throughout history has 
always driven the economy.
    Mr. Olver. I understand and can see that, but I want to see 
what has been included in the calculation.
    Mr. Olcott and Mr. Bolen, you have both indicated a strong 
objection and asked us to reject user fees and indeed the user 
fee proposal--as least I have heard it characterized as 300, I 
see it characterized it as 300; I think I have heard it worded 
as 400. But whatever it is there, along with a cut in the FAP--
we have 460 million--would mean a swing of close to three-
quarters of a billion dollars or more, in any case.
    What would either of you, or both of you, you and Mr. 
Bolen, what would you suggest is our way of--since each of you, 
in fact, everyone in the panel, has indicated that you would 
like to see additional money in that airport program that--what 
would you do to pay for it?
    Mr. Olcott. I would urge that we take a concerted look at 
what the long-term needs of the FAA are and ask ourselves the 
question, why in the past when they have had huge amounts of 
money for, let's say, the program that Lynn Helms proposed in 
1981-82, why have we not seen greater results?
    I think the problem is management, not money. I urge that 
we take a concerted look at the management structure of the 
FAA.
    For example, we are without an FAA Administrator. Why isn't 
there a greater emphasis on the role of air transportation as 
the Nation's objective? Why are we arguing that problem down in 
the weeds? It should be argued at a higher level with a greater 
purpose.
    First of all, I would take a look at management. Then I 
believe that the NATCA will be an appropriate place to look at 
the funding requirements, what truly is the FAA's funding need, 
given the proper management structure. And, finally, if 
additional funds are required, we would urge using the existing 
system of excise taxes because it has proven itself to be fair 
and extremely efficient, and it is accepted by the people who 
provide the majority of the money into that system.
    I don't feel--we don't hear the people who are paying the 
taxes, the airline passenger or the general aviation community 
paying fuel taxes, complaining about that system. So, sir, I 
would recommend that when it is clearly understood what the 
FAA's needs are under appropriate management structure, any 
additional funds be raised through a modification of the excise 
tax system.
    Mr. Bolen. Just to follow up, I agree with what Mr. Olcott 
has said. I think throughout the FAA funding debate, general 
aviation has been very consistent in talking about the method 
in which we want to contribute and that is through the fuel 
tax.
    We have not talked about the amount, and that may be 
something that we need to come back and revisit at some point, 
but we have been very clear because we have been able to see in 
other countries what user fees have done to general aviation. 
It has been very destructive. We do not want to see that happen 
in the United States.
    We have a fuel tax which we think is very good at 
approximating the use of the system. Heavy users fly more and 
burn more fuel and they pay more. It also has the advantage of 
not discouraging safe practices. In some countries where they 
charge you for weather briefings or filing flight plans or 
talking to towers, people do less that of and the result is a 
less safe system.
    So general aviation, I think, has been very consistent 
about talking about the method by which we pay. If we need to 
go back and revisit that amount--and that is something we need 
to do--we would like, before we do that, however, to make sure 
the FAA has looked for programs that may be streamlined or 
eliminated or outsourced or delegated to make sure that that 
particular organization is operating efficiently.
    In my statement, I reference the Challenge 2000 report. 
With regard to its certification services, the Challenge 2000 
report found that the FAA was--I believe the quote was overly 
burdensome and politicized--urgently needs to be streamlined 
for improvement.
    It is difficult for us to talk about trying to fund a 
system that we see that an independent, outside source hascome 
in and audited and found that to be the case. Nevertheless, if we do 
streamline the operations and have what we think is an efficient FAA, I 
think there would be strong support in the aviation community for 
making sure it is adequately funded.
    Mr. Wolf. I thank you very much. I want to make a comment 
and it directs against the report with regard to certain 
segments of the airline business. Frankly, I think the airline 
industry should have been much more active in stepping up to 
the plate on the ticket tax. The ticket tax is money that is 
all gone, yet everybody who bought a ticket still paid the same 
amount of money and the airlines made a lot of money.
    As a result of that, we lost $4, 5 billion? What do you 
think we lost?
    Mr. Olcott. It was about $450 million a month during the 
time it was not in place; and I agree with you, sir, that the 
average price of a ticket actually went up.
    Mr. Wolf. Yes. The flying public did not get any benefit 
from the ticket tax.
    Now, had the ticket tax gone off and my sister-in-law had 
paid less money, and the kids from college going back to 
college, you would have said, okay. We are getting less but--
the prices, you say they went up; I will at least say they 
stayed the same. I think there were many saying, well, let's 
wait and see who's going to go forward. We will see. Hey, it is 
going okay.
    But now we are at the point, so I think the airline 
industry really has to come together as we make these 
complaints and criticisms and everything else. I think there is 
a culture at the FAA that really needs to be changed. But that 
ticket tax, that is money that is all gone and we will never 
get it back again. During that period of time the consumer lost 
twice. He or she did not get the aviation safety that that 
money would have purchased, and they ended up paying money to 
the airlines and they got nothing for it.
    Anyway, I appreciate your coming. Your full statement will 
appear in the record as submitted, and you are welcome to 
follow up after the FAA testifies to make any comments. Thanks 
again.
                              ----------                              

                                        Tuesday, February 25, 1997.

                       RAILWAY PROGRESS INSTITUTE

                                WITNESS

DENNIS F. SULLIVAN, GENERAL MANAGER--CONTRACTING, PLASSER AMERICAN 
    CORPORATION, CHESAPEAKE, VIRGINIA
    Mr. Wolf. The next panel we will have are the Railway 
Progress Institute, the Council of State Governments' Eastern 
Regional Conference, the National Association of Railroad 
Passengers and the American Passenger Rail Coalition. We will 
start with the Railway Progress Institute.
    Mr. Sullivan.
    Mr. Sullivan. I thank you for having me here to testify. My 
name is Dennis Sullivan. I am General Manager of Contracting 
for Plasser American Corporation in Chesapeake, Virginia, but I 
am here today representing the Railway Progress Institute as 
Chairman of their Passenger Transportation Committee. I have 
asked that my written testimony be included in the record.
    Mr. Wolf. Without objection.
    Mr. Sullivan. The supply industry, to describe it, has 
about $12 to $14 billion in sales annually to the railroads of 
this country. This includes passenger and freight railroads. We 
represent about 900 companies, and there are about 150,000 
employees who work in these companies. We manufacture 
locomotives, freight and passenger cars, signal and grade-
crossing equipment and materials and equipment for the 
maintenance and construction of rail lines and transit lines.
    We estimate that about one-third of the sales support the 
passenger service of this country. Companies, employees, and 
families depend on the funding for the intercity rail and mass 
transit industries. These companies have developed equipment 
and services and created thousands of jobs related to rail 
passenger service in this Nation.
    I want to talk for a minute about Amtrak. The RPI Committee 
on Passenger Transportation supports the creation of a trust 
fund for intercity rail capital to be funded by one-half cent 
of the existing gasoline tax. We believe that without this one-
half cent, Amtrak may be unable to survive in the future, and 
we believe that it is critical.
    We also support Amtrak's fiscal year 1998 appropriations 
request. We also support Amtrak's request for business reforms, 
and I want to make a comment about the supply industry in that 
last year that Congress passed, but legislation was not enacted 
into law.
    Liability caps were included for Amtrak and the freight 
railroads. We ask that any such legislation this year would 
include the supply industry, lest we in the supply industry 
become the lone target of spurious lawsuits. We could become 
the lone deep pocket in this equation, and we ask that you 
consider to include us in that.
    On the transit side, transit is extremely important to this 
Nation. It is a vital component of the national transportation 
system. Billions of people use the transit and commuter rail 
systems each day in this Nation. We at RPI support at least the 
same level of funding in fiscal year 1998 as was provided in 
fiscal year 1997.
    I want to speak for just a minute about Buy America. This 
has been a very successful program. Capital and technology have 
been imported into the United States as a result of the Buy 
America program, and thousands of jobs had been created, as 
well as millions of dollars in foreign investment going into 
this Nation. A few problems still exist, among them, many 
foreign markets remain closed to U.S. suppliers, and we think 
that needs to be addressed.
    Last year Amtrak and Washington State purchased three train 
sets from a foreign supplier, and we believe that was not 
compliant with the provisions of Buy America, even though there 
was a Buy Washington State provision. We would ask this 
committee to take a look at that and try to strengthen the Buy 
America provisions for Amtrak and the States in the future.
    Finally, Operation Lifesaver. We thank this subcommittee 
for its past support of Operation Lifesaver. This, we believe, 
is a very critical program. If there is one safety problem in 
the rail-highway interface in this Nation it is in grade-
crossing accidents. Close to 600 people a year lose their lives 
in grade-crossing accidents in this Nation. And the cost in 
terms of the lives and heartache to the families to those who 
die or are injured in these accidents is immeasurable; and the 
cost, of course, is in the millions and millions of dollars. We 
ask for an additional $600,000 in funding for Operation 
Lifesaver, for the education programs that it provides, 
including the highways and byways video programs that have been 
developed in the last year.
    Additionally, we ask this committee to think about 
sanctions for commercial drivers who drive recklessly in and 
around grade crossings. This is the major problem at grade 
crossings, and it cannot only threaten the lives of the truck 
drivers or the automobile drivers that may be in the vicinity, 
but also the lives of the crews on freight trains or the 
passengers on passenger trains that operate over those same 
grade crossings. We think that some loss of license for 
successive offenses should be considered and passed into law.
    I thank you for the opportunity to testify here and would 
be glad to answer any questions you may have. Thank you.
    Mr. Wolf. Thank very much, Mr. Sullivan.
    [The prepared statement of Dennis Sullivan follows:]

[Pages 190 - 195--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

     THE COUNCIL OF STATE GOVERNMENTS' EASTERN REGIONAL CONFERENCE

                                WITNESS

ALAN V. SOKOLOW, DIRECTOR, EASTERN OFFICE

    Mr. Wolf. Next the Council of State Governments' Eastern 
Regional Conference, Alan Sokolow.
    Mr. Sokolow. My name is Alan Sokolow. I am the Director of 
the Council of State Governments' Eastern Regional Conference. 
I appreciate the opportunity to come before you to testify on 
the Amtrak fiscal year 1998 budget, as proposed by the 
administration. I work for and with senior State officials of 
the 10 northeastern States from Maine to Delaware, as well as 
Puerto Rico and the Virgin Islands.
    Mr. Chairman, the ERC members have asked me to convey their 
very deep concern regarding the administration's proposal for 
the fiscal year 1998 budget for Amtrak. The $423 million for 
capital improvements and $202 million for operating costs are 
significantly below the levels needed by the Nation's only 
national passenger rail system to achieve operating autonomy 
and financial independence for Federal support by 2002.
    The ERC members are also concerned the administration's 
proposal would draw all of Amtrak's Federal support from the 
Highway Trust Fund at the expense of other transportation 
programs and projects that currently benefit and are needed by 
the northeastern States.
    Mr. Chairman, the members of the ERC are no less concerned 
about the potential impact of the administration's funding 
proposal on the northeast region's passenger rail system. Mass 
transit not only links the region's major business centers from 
Washington to Boston, Philadelphia to Pittsburgh, but provides 
a vital transportation service for daily commuters into and out 
of these areas, who would otherwise add to the already 
overcrowded interstate highways and primary roads.
    The planned elimination of the operating subsidies to 
cities over 200,000 will have a disastrous effect on many of 
our large urban areas. The logical funding of a high-speed rail 
system for the Northeast Corridor has been supported by 
Congress for 10 years. The idea still makes sense now and into 
the 21st century. The project is nearing completion and the 
schedule call for its finish in 1998. We are simply too close 
to back down on making this dream a reality for the citizens of 
the northeast. If the administration's proposal is allowed to 
stand, a promise and commitment made by Congress more than 10 
years ago may not be fulfilled.
    Completion of the high-speed rail system is also important 
to ensuring that Amtrak will continue to achieve its financial 
independence by 2002. When complete, the northeast corridor 
high-speed rail system will generate approximately $150 million 
annually, a major source of support for Amtrak's operations 
throughout the Nation.
    Amtrak has made major strides in the last few years to 
improve its operations, and these efforts are beginning to show 
positive results. The railroad was voted the most improved 
transportation customer service by another exchange, made the 
first-ever profit in the Metroliner service between New York 
City and Washington, made high-speed train sets for the 
Northeast Corridor, initiated electrification of New Haven, 
Connecticut, to the Boston segment of the corridor to reduce 
the run to three hours, reduced annual costs by 400 million by 
trimming personnel, increasing productivity, restructuring 
routes and focusing on markets to achieve maximum returns on 
each.
    Amtrak has proposed and ERC supports funding for the $751 
million requested as a portion of the 4.3 cents of the Federal 
gasoline tax currently used to reduce the Federal deficit. 
Amtrak proposed to use the additional funds to purchase more 
efficient intermodal equipment, continue with infrastructure 
improvements and retire the railroad's debt on existing 
equipment investments that will produce a return for Amtrak.
    Amtrak's logic and supporting arguments are compelling. It 
will allow Amtrak to achieve its goals of financially operating 
independently by 2002. Most important, transportation services 
needed by the Northeast region would be funded at levels 
sufficient to ensure that they will continue.
    Thank you very much.
    [The prepared statement of Alan Sokolow follows:]

[Pages 198 - 201--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

              NATIONAL ASSOCIATION OF RAILROAD PASSENGERS

                                WITNESS

ROSS B. CAPON, EXECUTIVE DIRECTOR

    Mr. Wolf. The National Association of Railroad Passengers.
    Mr. Capon. Mr. Chairman, I will hit a few points in my 
written statement, but I need first to correct a word in the 
first full paragraph on page 4 where, on the second line, the 
word ``single'' is intended. It is S-I-N-G-L-E. So what we are 
saying, that railroads, as closed systems, easily lend 
themselves to having their full costs captured on a single 
balance sheet, whereas highway and aviation costs are spread 
across the books of many public and private entities.
    Amtrak's first quarter operating loss was 12 percent less 
than the same period 2 years earlier. This reflects a number of 
changes available to management, including employee reduction 
of about 2,000 retirement of almost all the older cars, 
increased contributions from States, and based on 
correspondence that we get, an increasingly satisfied public. 
We are getting letters--spontaneous letters, from people who 
had great trips. This is something that we didn't see a lot of 
five, ten years ago.
    Recent travel trends on Amtrak have been positive. 
Passenger miles for the business unit with most of the long 
distance trains in all the Chicago-based corridors were up 5 
percent in the first quarter for the October-January quarter, 
up 5 percent from a year earlier and 7 percent in January 
alone.
    Amtrak has intensified its mail and express traffic 
development efforts which we think hold great potential. We are 
also seeing unprecedented joint efforts between Amtrak and bus 
companies increasing the number of destinations rail passengers 
can reach using a single ticket.
    The high-speed project promises a dramatic increase in the 
Amtrak share of the New York-Boston market, boosting rail to 
the level it already enjoys between New York and Washington.
    There also will be further improvements on the New York-
Washington end, modest as to speed, dramatic as to the quality 
of rolling stock. We are encouraged that New Jersey Transit is 
going to pay $125 million on capital investment in the New 
Jersey portion of the Northeast Corridor over the next 5 years 
to be matched by an equal amount from Amtrak.
    We favor the reforms that Danny Sullivan talked about. All 
together we believe that prospects are excellent for further 
major improvements in Amtrak's economic performance. You have 
heard the gory details about the President's request; I won't 
repeat that.
    Our board is appalled by the prospect that Dallas-Fort 
Worth, the Nation's ninth largest metro area and the entire 
States of Arkansas and Wyoming would be losing service on May 
10th. We are encouraged that special express mail and express 
initiatives may permit long-term operation of the Texas Eagle 
and the Pioneer routes and that the State of Texas may permit 
Eagle Service to continue between May 10th and the time when 
significant non-passenger revenue is developed.
    In May 1995, we commissioned an independent market research 
firm to include two Amtrak questions in their weekly telephone 
poll of a thousand U.S. adults nationwide. This poll found 63 
percent favorable responses to questions about earmarking a 
penny of the Federal fuel tax for long term Amtrak improvement 
and whether to let States use part of their Federal trust fund 
money for intercity rail passenger service.
    Last week on a nationwide CBS radio program there was a 
debate about Amtrak. Calls to the show were about three to one 
in favor of Amtrak. In general, Americans have responded 
positively whenever presented with decent rail passenger 
service, even though Amtrak and rail transit and transit agency 
advertising is minuscule when compared with airline and 
automobile company advertising.
    You have a long day ahead of you, so I will just leave it 
at that. Thank you.
    [The prepared statement of Ross Capon follows:]

[Pages 204 - 213--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

                   AMERICAN PASSENGER RAIL COALITION

                                WITNESS

HARRIET PARCELLS, EXECUTIVE DIRECTOR

    Mr. Wolf. The American Passenger Rail Coalition.
    Ms. Parcells. Mr. Chairman, good morning. Thank you for the 
opportunity to appear here before the subcommittee today.
    My name is Harriet Parcells. I am the Executive Director of 
the American Passenger Rail Coalition, a national association 
of rail suppliers and businesses working for an efficient, safe 
and world-class U.S. intercity passenger rail system.
    The U.S. stands at a crucial crossroads in terms of 
defining the future for intercity passenger rail in this 
country. With a Federal commitment to provide Amtrak with a 
secure base for capital investment and the tools to operate a 
more businesslike and efficient fashion, Amtrak can become a 
world-class national railroad and yield the country a strong 
return on its investment.
    States increasingly view rail as a vital component of their 
transportation infrastructure. Over the past 2 years, 16 States 
have entered into partnerships with Amtrak to initiate new rail 
service and preserve service that Amtrak would have otherwise 
been forced to eliminate or reduce for lack of adequate 
funding.
    Citizens from coast to coast have expressed their desire 
for improved intercity rail service, and Amtrak is taking 
strong action to become a more efficient, customer-focused 
railroad. And as you heard from another witness, last year 
Amtrak was named the most improved in customer service among 
American transportation companies in a survey of business 
executives.
    The Federal investment in Amtrak is crucial to the success 
of these exciting developments that are happening and poised to 
happen. When our association appeared before the subcommittee 
last year, we talked about the critical need to provide Amtrak 
with adequate capital funding and urged Congress to establish a 
dedicated source of capital investment for Amtrak funded by 
one-half cent of the Federal gasoline tax.
    Mr. Chairman, APRC remembers and appreciates the statements 
that you and other Members of Congress delivered on the House 
Floor during consideration of the fiscal year 1997 DOT 
appropriations bill about this need for secure funding for 
Amtrak, and yet 1 year later, Amtrak remains without any 
dedicated source of funding. A dedicated source of capital is 
crucial to Amtrak's future economic health and its ability to 
become free of Federal operating subsidies by the year 2002.
    APRC asks the subcommittee to provide Amtrak with 751 
million in capital appropriations in Fiscal Year 1998. This is 
the amount that a half-cent would generate, as requested by 
Amtrak in its budget request. And we urge Members of the 
subcommittee to work with other Members of Congress to ensure 
that this year the Nation puts Amtrak on a secure track to the 
future.
    Congress, as you know, will write and enact legislation to 
reauthorize ISTEA and the surface transportation trust funds. 
This presents the time and the opportunity for Congress to 
dedicate one half-cent gas tax to Amtrak capital investment.
    APRC also asks the subcommittee to support Amtrak's request 
for 245 million for operations and 142 million for railroad 
retirement. Amtrak has been taking the necessary and difficult 
steps to reduce its operating expenses, but cannot get there 
without key actions by Congress.
    The electrification of the Northeast Corridor from New 
Haven to Boston and implementation of high-speed rail service 
in 1999 is crucial to Amtrak's future. It has been called the 
``economic engine of Amtrak'' by FRA Administrator Jolene 
Molitoris, and we totally agree.
    It is crucial that Amtrak receive strong capital funding in 
this fiscal year to ensure that needed investments in the 
northeast corridor and throughout the system are undertaken to 
allow the high-speed investment to continue on schedule. We 
detail many of the benefits that will come to the country in 
our testimony; I won't go into those.
    APRC finally also urges the subcommittee to provide FRA 
with strong funding in fiscal year 1998 to continue its vital 
rail safety work. We support funding for the valuable work of 
Operation Lifesaver to educate the public on railroad safety 
matters, and we urge the subcommittee to fund FRA's high-speed 
rail R&D program and next generation high-speed rail to 
continue important work on positive train separation, advanced 
train control and grade-crossing technologies, development of 
high-speed and electric locomotive and other R&D that is 
critical to the safe operation of passenger rail in the 
country.
    And I will close with that. Thank you very much for the 
opportunity to be here.
    [The prepared statement of Harriet Parcells follows:]

[Pages 216 - 221--The official Committee record contains additional material here.]


    Mr. Wolf. Thank you very much. This is going to be a very 
difficult year for Amtrak, as it will for the others. I have 
been a supporter of Amtrak. I want to tell you though, at the 
end of the Congress they put $22.5 million more in for five 
routes that Amtrak wanted to close down. How many of those 
States are coming forward?
    You have seen me saying that we should ask for supplemental 
to continue for Texas and maybe that someday they will be 
involved, when actually we lost $22.5 million that Amtrak lost 
that they wanted to get and put somewhere else that appears to 
be going down a rat hole. And in addition, they lost something 
like $13.5 million that they have could have gained by taking 
those cars off of those routes and put it on profitable routes. 
And yet we heard not a word. Just lobbying this place to get 
additional money to keep things going for another 2 or 3 more 
months.
    I urge all of you as a strong supporter of Amtrak, as 
somebody in the northeast corridor I believe it in very, very 
deeply. I ride it when I go up to visit family up in 
Philadelphia and New York, but I urge you to lobby the State 
legislatures that have this opportunity now on whether they are 
going to pick up this service, because if they don't pick up 
this service, we will have literally thrown the money down a 
rat hole and have gotten absolutely nothing for it. Because 
this year the operating deficit of Amtrak will be in the 
millions. This wouldn't even make up for the difference.
    So I urge you, if you are interested in continuing this, to 
go and do your work--and there are different States--to see 
that their State legislature picks up, because if they don't, 
we will have literally wasted the money and have missed the 
opportunity to give Amtrak the opportunity to take those cars 
and put them in a more profitable routes to gain more money to 
make those things go.
    So I think you ought to be really talking to those five 
States and to the governors and members of the general assembly 
and all of those people that make those choices like that.
    It is interesting. Every other State has a balanced budget 
amendment. I think 47 do; we are trying to in a bipartisan way 
reach a balanced budget. You put all of these figures together 
and it is hard enough if you do it in a fair way. But when you 
get that money and throw it down a rat hole, it is very, very 
tough to do.
    Mr. Sabo.
    Mr. Sabo. I noticed Mr. Sokolow in particular, and I am not 
sure what the others of you think, where should the half-cent 
gas tax come from? Do you, all of you, think it should come 
from the 4.3 cents for deficit reduction? Do you want to divert 
some of that for Amtrak?
    Mr. Sokolow. I think the original bill last year took a 
half cent from the two-and-a-half cents that switched from 
deficit reduction to the Highway Trust Fund. That ran afoul of 
the transit industry, because they believed that that half-cent 
was going to them and, in fact, it did.
    This year the discussions began with, as you know, a 
campaign by the authorizing committees on the highway side to 
get the 4.3 cents that currently goes into deficit reduction 
into the Highway Trust Fund. I think the position of Amtrak 
advocates was, if that was going to happen, then one-half cent 
of that clearly should go to Amtrak.
    Mr. Sullivan. Mr. Sabo, our position is that it should come 
out of the deficit reduction money.
    Mr. Sabo. And we balance the budget, too.
    Mr. Sullivan. Yes, sir, in addition.
    Mr. Wolf. You agreed, too; and we can put you down as----
    Mr. Sabo. For balancing the budget and taking the money out 
of the deficit reduction account. Thank you.
    Mr. Wolf. I am with you, Marty.
    Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    I want to talk a little bit about some of the 
responsibilities that railroads have in the infrastructure. I 
think Amtrak is kind of different from the rest of the 
railroads, more unique; and I want to leave that for the 
experts. I am not an expert on Amtrak, although they do come to 
Kansas in my district, and my family has traveled on Amtrak 
many times and enjoyed it very much, and we want to see that 
service continue.
    But, Mr. Sullivan, as you were going through your 
testimony, you talked about Operation Lifesaver. I think we 
should have a public commitment to public safety, but I also 
would like the railroads to accept some responsibility like 
reflective sides to railroad cars.
    Within the last month I lost a friend in Derby, Kansas, at 
night trying to cross a railroad track; and for whatever reason 
he drove into the side of a train. In thinking that through, I 
thought perhaps reflective siding, a strip of siding, would 
allow car lights--something the railroads could do for their 
railcars.
    In following that line of thought, that the railroads could 
take some responsibility in the problems--safety problems that 
are created, when in the history of Kansas and when we entice 
the railroads to come in, railroads are given a strip of land a 
mile on either side of the right of way, including mineral 
rights, which probably answers the question as to why the Union 
Pacific is the largest oil producer in the State of Kansas.
    They have also, in the merger between Southern Pacific and 
Union Pacific, created some safety problems in Reno, Nevada, 
and Wichita, Kansas, particularly. It has been kind of a 
negotiation as to who should be responsible for grade 
separations. In the county, Sedgwick County, in which Wichita 
is enclosed in, there are 26 crossings. The trains are getting 
increased to 12 a day. There are two miles of coal trains 
traveling at 10 miles per hour, essentially separating the 
county in half.
    In that negotiations we believe that there should be some 
responsibility on the part of railroads to help us with the 
problem of safety, environment, if it is controlled by whatever 
it does to the air pollution.
    Is it the position of your group--the Railway Progress 
Institute--that railroads should be responsible for some of the 
problems they create? Is this something that is within the 
scope of your organization as far as the statement?
    Mr. Sullivan. No, I cannot speak here for the railroad 
industry. Only speaking for myself, I believe that each party 
that uses the grade crossing has some responsibility to see to 
it that safety is provided. Things have happened in the 
immediate past, I think, that have gone to improve grade 
crossing safety. Things like ditch lights on locomotives 
improve that tremendously.
    There has been some experimentation done with reflective 
striping on the side of locomotives and cars. To my way of 
thinking--I have seen this, and it does improve the 
reflectiveness of the side of the train.
    Grade crossing--the closure of grade crossings I think is 
something very important that has to be considered by the 
States in the communities through which trains operate. We have 
hundreds of thousands of grade crossings in this country, many 
of them are just a few blocks apart, through towns and rural 
areas.
    So I think it is a joint venture on all parties--railroads, 
States, communities--to get together and to work together to 
improve grade crossing safety; and Operation Lifesaver plays a 
critical role in helping bring these parties together and 
educate the public on the importance of grade crossing safety 
and adhering to the existing laws that apply to grade 
crossings.
    Mr. Tiahrt. In other words, railroads have contributed in 
public safety through, as you were saying, ditch lights for 
locomotives--is that what you called them?
    Mr. Sullivan. Yes, ditch lights. They are lights that shine 
to the side so it gives more visibility to the locomotive and 
the train as it comes down the track approaching the grade 
crossing.
    Mr. Tiahrt. Many rural areas do not have lights and beams. 
They really just have the crossbars.
    Mr. Sullivan. Well, continuing funding for grade crossing 
protection, lights, gates, those things remain very critical; 
and the position of my organization is that whatever the 
Federal government can do and the States to increase the grade 
crossing protection safety by putting gates and lights on 
crossings should be pursued vigorously by those governments.
    Mr. Tiahrt. What I would like to see is a contribution on 
the part of the railroads to public safety in experimenting 
with new ideas to prevent--like Doug Knight, the man who I 
referred to earlier who passed away, was not able to see the 
trains in a rural crossing with just those old wooden 
crossbars--perhaps reflective tape. I think the railroads could 
help, and I would like to see that.
    That is all I have to say, Mr. Chairman.
    Mr. Wolf. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. I would just like to 
follow that one just a little bit further.
    This is new to me from the Northeast. We do have grade 
crossings, but I don't know many that are not gated. How many 
grade crossings do we have in this country and how many of them 
are not gated?
    Mr. Sullivan. I can't off the top of my head give you exact 
numbers, but there are hundreds of thousands of grade 
crossings, private as well as public grade crossings. I would 
venture to say 10 to 15 percent are gated.
    Mr. Olver. There is a huge number that are ungated. You 
made the comment that we have 600 people losing their lives. 
That is quite a serious problem.
    Six hundred people losing their lives. I think you said, if 
I understood correctly, that the major portion of that was 
commercial--licensed commercial drivers or does that mean 
people--I mean, I am uncertain as to how that relates. I would 
have thought that--I would have just--intuitively, I thought it 
was going to be more private drivers. You every once in a while 
hear about six people in one car.
    But what did you mean by that, commercial drivers being the 
major portion of that problem?
    Mr. Sullivan. Let me clear it up. Certainly, the 
preponderance of people who lose their lives in grade crossing 
accidents are in private automobiles. But the commercial----
    Mr. Olver. Do you know what percentage of that 600--is it 
private automobiles?
    Mr. Sullivan. No, but we could submit that for the record 
at a later date.
    But I would say, again, the preponderance of it is private 
automobiles. But the threat of a commercial vehicle, a truck, 
gasoline trucks, coal trucks on getting into a collision with a 
passenger train or a freight train poses the threat of not only 
injury or death to the automobile or the truck driver but also 
to the passengers and employees on the trains.
    Mr. Olver. Through a fire or derailment or something like 
that.
    Mr. Sullivan. Through derailment or fire. And certainly 
Amtrak has had much experience with grade crossing accidents 
that have caused injury and death to people on the highway and 
on the trains.
    Mr. Olver. I would like to think more seriously about the 
broad scope of that issue. But let me try to get one other 
quick question in on the Amtrak issue.
    Everyone has commented rather thoroughly on Amtrak; but, 
Mr. Sokolow, you mentioned that the Metroliner is profitable. 
Are all the services running--is the sum total of services 
running within the present Northeast Corridor functioning 
profitably on Amtrak or not?
    Mr. Sokolow. I am only certain about the Metroliner.
    Mr. Olver. The Metroliner has one train--how many up and 
down runs?
    Mr. Sokolow. I would probably say it makes at least 12----
    Mr. Olver. Is that Washington to New York?
    Mr. Sokolow. Right.
    Mr. Olver. That is, one is profitable. Did I understand 
correctly that you think once the Northeast Corridor is fully 
electrified that the net on that Corridor, which I take it 
means Washington to Boston, would be $150 million?
    Mr. Sokolow. That is correct.
    Mr. Olver. That would be enough--well, obviously, it 
wouldn't be enough to deal with a 340--whatever number--$245 
million deficit at the present time, but in the context of 
other moves that that would be the--that would manage to make 
Amtrak a profitable operation in its total?
    Mr. Sokolow. I would say so, and it would allow Amtrak to 
invest in other parts of the country in other parts of the 
system.
    Mr. Olver. This is a little bit--there is an old saying 
about making up the difference between a loss by a higher 
volume. You can put more train--more sets on in other places, 
but if you have inherently nonprofitable lines, I don't know 
how you turn what is already a deficit into a profit by 
investing higher in the equipment on lines which, in turn, are 
unprofitable.
    Mr. Capon. Could I comment? I think the express initiatives 
are regarded as a major way to improve the nationwide systems 
economics as well as the legislative reforms improved----
    Mr. Olver. Obviously, much more complicated than we can 
deal with today.
    Mr. Wolf. It is, and we will have the opportunity for 
Amtrak to come up. And as a supporter of Amtrak--and I have to 
put that out in front--it is a little--I think Mr. Olver's 
question is a very, very good one. We have to be careful the 
answer isn't like----
    There was the story about the guy selling watermelons and 
was losing a lot of money. He was buying watermelons for $4 a 
piece and selling them for $3 apiece. He went to his accountant 
and said, how do I turn this around? He said, you have to sell 
more watermelons.
    That is not it, and the Northeast Corridor is profitable on 
operating but not on capital. And the opportunities, the need 
in the next 20 years for capital is $5.5 billion. So if you add 
in operating and capital, that is the most profitable one. That 
is the one we want to make sure it goes. Because if there is 
going to be profitability, it is much more complicated than 
just it is bringing in as much as if you add in the capital.
    Mr. Olver. Mr. Chairman, I am very grateful for the 
watermelon analogy. I was trying to think of the right analogy.
    Mr. Wolf. Just sell more watermelons.
    I would urge the members to do--I have a district that has 
a lot of rail crossings. We will do a memo on this to every 
member.
    Mr. Sullivan's point about Operation Lifesaver is very 
good. We had the Operation Lifesaver people, the Federal 
Railroad Administration and the Safety Board to our district; 
and we invited all the school districts, all the different law 
enforcement agencies to deal with this issue. I would encourage 
everyone here to put one of these on in your district because I 
think in the process you can really save a lot of lives. 
Operation Lifesaver does really an excellent, excellent job.
    So we will send a memo to everybody on the committee 
telling you about this program and urging you to take advantage 
of it.
    When you look at the number of school buses--we remember 
the Fox River Grove accident, little things like that. That if 
people had thought of, the accident wouldn't have taken place.
    Also, we have a number of crossings in my district that are 
not gated. They are out in the rural areas. Frankly, there is 
just nothing there late at night so----
    Mr. Capon. I just want to say Amtrak had a major derailment 
in Florida last month where a big truck driver was making a U-
turn and the penalties for the driver, who was not injured, I 
believe was $25.
    Mr. Wolf. Anyway, I appreciate that. Mr. Sullivan, I 
noticed your southern accent, coming from Chesapeake, Virginia. 
You managed to maintain and keep that. It is a southern Boston 
accent. I think I could sense a little bit of that.
    But I appreciate you all coming and thank you very much.
    If we could get everybody else up here and attempt to keep 
to the 5-minute--the Texas Department of Transportation, the 
Institute of Transportation Engineers, the American Road and 
Transportation Builders, the American Society of Mechanical 
Engineers, the League of American Bicyclists, the American 
Sleep Disorders Association. We reconvene again at one, so if 
you could kind of keep on schedule with the light, we would 
much appreciate it.
                              ----------                              

                                        Tuesday, February 25, 1997.

                   TEXAS DEPARTMENT OF TRANSPORTATION

                                WITNESS

DAVID LANEY, COMMISSIONER
    Mr. Laney. I am David Laney, Texas Commissioner of 
Transportation. I am pleased to be here to give you a 
perspective on transportation funding for fiscal year 1998 and 
beyond.
    Mr. Wolf. Are you going to be able to continue that service 
that we gave you the additional money for? Will Texas be able 
to pick it up?
    Mr. Laney. In terms of--I believe the speaker referred to 
it briefly. We are currently in the process, I believe----
    Mr. Wolf. Good. I hope you can.
    Mr. Laney [continuing]. Of a funding arrangement for the 
next year.
    Mr. Wolf. Without any more money at the Federal level, you 
will be picking it up at the State level? I hope you can, 
because I think the witness made a good point. But, otherwise, 
that money will just almost be wasted.
    If you could just submit for the record what the ridership 
has been since the money has come in. Is it up or down? You 
don't have to get into it now, but if you could just submit it 
for the record.
    Mr. Laney. That segment of Amtrak is very important to 
Texas. It has our attention, and the ridership is very strong. 
So the profitability issue is not----
    Let me address the Texas perspective on transportation 
briefly, and I will keep my remarks brief. Our transportation 
system in Texas is currently in the process of a steady, 
predictable and accelerating decline. With our current 
resources, we have lost the ability to keep pace with critical 
maintenance and reconstruction needs, and every year we fall 
further behind.
    We are now the second most populous State in the country. 
We are growing faster than any other State. Superimposed on 
that combination, our geographic expanse and the supercharged 
growth of traffic, particularly commercial traffic, stemming 
from NAFTA as well as stemming from a strengthening Mexican 
economy and stronger peso. Mr. Chairman and members, Texas 
needs your attention; and Texas very much needs increased 
Federal funding.
    Let me turn to the highway situation briefly, particularly 
the national highway system needs. ASHTO has determined that, 
based on the most recent USDOT conditions and performance 
report period fiscal years 1998 to 2002, that more than $263 
billion is needed simply to maintain current highway physical 
conditions and capacity performance.
    An additional $93.8 billion is needed to make economically 
justified improvements. The combined cost to meet national 
highway and bridge needs is $357.5 billion from fiscal year 
1998 to 2002. That number, as you all know, as well as I, is 
staggering; but we have got some--at least--suggestions we 
would urge you to consider.
    First of all, we would strongly urge you to resist efforts 
to reduce the annual obligation authority limits.
    Second of all, we would encourage you to restore the 4.3 
cent tax to highway purposes.
    Thirdly, and I think many of you are familiar with this, 
the ISTEA Integrity Restoration Act we think is a workable 
answer to the highway funding dilemma. I don't need to go into 
detail with respect to this act or proposed bill, but I will 
say that we appreciate very much the focus of ISTEA on 
intermodalism and interconnectivity and cooperation that is the 
foundation of ISTEA.
    The law does not address an even more meaningful aspect of 
Federal transportation programs, however, and that is equity 
and funding. Since the creation of the Federal Aid Highway 
Program, Texans have contributed tax dollars to the national 
cause of building a strong, reliable and safe national surface 
transportation system. However, the surface transportation 
needs in Texas now require a growing amount of attention as 
well.
    Right now, combined State and Federal funding for Texas 
covers only about one-third of our transportation 
infrastructure needs. In distributing Federal highway funds to 
Texas, current allocation formulas ignore the tremendous growth 
that we are experiencing in population in Texas as well as in 
trade and we are experiencing it primarily in our highway 
system.
    So we would very much encourage your taking a look at that; 
and that is why step 21, as it has been called, is very 
important to Texas.
    Let me also focus a moment on our vital border 
infrastructure needs. In our current funding situation, we 
can't make needed improvements in the border region 
infrastructure without sacrificing very significantly the 
mobility in other parts of our State as a whole. With continued 
reductions in funding below ISTEA authorized levels, our 
struggle to meet both statewide, urban, rural and border region 
needs gets tougher every year.
    Stating it as directly as possible, we need desperately 
supplemental Federal assistance to keep our border 
transportation infrastructure safe and efficient; and the 
impact in that regard is not simply Texas but the rest of the 
country.
    Let me make a couple of points, if I may, even though I 
have run over my time, about transit system needs. We would 
encourage you to consider matching appropriations to ISTEA 
levels as well as taking a very close look at providing 
additional funding to replace severely deteriorating needs. 
Rural transit systems in our small cities, the ones that are 
below 200,000 which we have 25, are the most severely impacted 
in that regard and need assistance.
    With respect to aviation, let me, again, suggest--I think 
you heard it with a couple of prior speakers--that you consider 
reestablishing the aviation excise tax and restoring the fiscal 
year 1998 corporations for the FAA's airport grant program to 
authorized levels.
    With that and in the interest of time, Mr. Chairman, I will 
just close there and thank you for hearing my comments this 
morning.
    Mr. Wolf. Thank you very much, Mr. Laney.
    [The prepared statement of David Laney follows:]

[Pages 230 - 242--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

                 INSTITUTE OF TRANSPORTATION ENGINEERS

                                WITNESS

JAMES HANKS, PRESIDENT, J.R.H. TRANSPORTATION ENGINEERING EUGENE, 
    OREGON

    Mr. Wolf. Next, Institute of Transportation Engineers, Mr. 
Hanks.
    Mr. Hanks. Mr. Chairman and members of the committee, my 
name is James Hanks and I am president of J.R.H. Transportation 
Engineering of Eugene, Oregon. Today, I am here as 
International President of the Institute of Transportation 
Engineers or ITE. I appreciate the opportunity to submit the 
views of the Institute relating to the fiscal year 1998 
transportation appropriations bill.
    As the association of some 11,500 individual transportation 
professionals through the United States, ITE's recommendations 
relating to the funding of the Nation Surface Transportation 
Programs represent a consensus of public, private and academic 
professionals with broad political and regional backgrounds.
    ITE believes that the critical importance of transportation 
should not be lost as Congress struggles to balance the Federal 
budget. ITE encourages Congress to recognize that money spent 
on our Nation's transportation system is, in fact, an 
investment in the American economy. This investment not only 
directly puts people to work but, through improving the 
efficiency and safety of moving our workers and products, it 
enhances the productivity and competitiveness of America's 
businesses. The resulting economic vitality creates a positive 
return on investment to the Federal Government and its 
citizenry.
    As the committee begins the process of reviewing the 
administration's transportation budget for fiscal year 1998, 
ITE would like to emphasize four points: Education and 
training, planning and research, safety and intermodal/
multimodal funding. The Institute believes that these areas are 
of critical importance to current and future needs of the 
Nation's transportation system.
    ITE's recommendations in these areas are based on the 
belief that the Federal investments should be concentrated 
toward goals and objectives that cannot or will not be met by 
the State or local level or private sector.
    Federal investments are critical in the area of education 
and training. The Federal government must lead the way to 
ensure and enhance the knowledge, skills and abilities of the 
transportation community.
    Gone are the days when a region could increase its 
transportation capacity exclusively by building a new road or 
highway. Environmental, social and economic considerations now 
force transportation professionals to find creative ways to 
solve capacity and demand problems often within the confines of 
their current transportation system.
    ITE recommends that the committee fund education and 
training programs at levels consistent with those that were 
authorized in ISTEA, including technology transfer centers, 
university transportation centers and the Eisenhower fellowship 
programs.
    A coordinated national transportation research and 
development program will continue to be the basis for future 
transportation progress at the national level. Adequate and 
continuing research in transportation cannot be accomplished 
solely at the State and local level or at the private sector. 
The Federal Government must play a strong leadership role in 
the coordination and pooling of resources for research and 
development that cuts across systems and modes.
    ITE recommends that the committee support transportation 
planning and research programs included throughout the 
transportation budget.
    In recent years, annual funding levels for research 
programs below the amount authorized in ISTEA have had an 
adverse effect. ITE recommends that the committee fund 
transportation planning and research activities at least to 
those levels authorized for programs in ISTEA.
    The Federal Government has recognized that injuries related 
to motor vehicle accidents are major public health problems. 
The challenge of increasing traffic safety is an issue too 
complex and too costly for States to accomplish on their own. 
The Federal Government is the only entity that can develop and 
manage a partnership between the health care industry, 
businesses and States that will reduce traffic accidents and 
their accompanying cost to society. The institute recommends 
that funding of the transportation safety and fiscal year 1998 
should be set at levels sufficient to permit the Nation's 
transportation agencies to continue to reduce traffic crash 
rates.
    In closing, transportation investment decisions this year 
will have a far-reaching effect on the Nation's economy and on 
our industry's ability to efficiently compete in the 
international arena. ITE's funding recommendations are designed 
to ensure the efficiency and success of the Nation's 
transportation system. I hope the committee endorses ITE's 
recommendations by making education and training planning and 
research safety and intermodal, multimodal funding a priority 
in fiscal year 1998.
    In behalf of the Institute of Transportation Engineers, I 
appreciate the opportunity to testify and will be willing to 
answer any questions.
    Mr. Wolf. Thank you very much. We appreciate it.
    [The prepared statement of James Hanks follows:]

[Pages 245 - 250--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

     AMERICAN ROAD AND TRANSPORTATION BUILDERS ASSOCIATION (ARTBA)

                                WITNESS

MAX R. SPROLES, ARTBA CHAIRMAN-ELECT, VICE PRESIDENT, FREDERIC R. 
    HARRIS, INC.

    Mr. Wolf. American Road and Transportation Builders 
Association.
    Mr. Sproles. Good morning Mr. Chairman, Mr. Sabo and other 
members of the subcommittee. My name is Max Sproles. I am Vice 
President with Frederic R. Harris, Inc., and I am here today as 
Chairman-elect of the American Road and Transportation Builders 
Association.
    I am also a long-term resident of Northern Virginia, and we 
appreciate being able to testify before you, Mr. Chairman. In 
the interest of time, I will summarize ARTBA's recommendation.
    Number one, devolution is not the answer. ARTBA believes a 
strong Federal role in transportation infrastructure 
development is essential to our national economy. Devolving 
responsibility to the States would result in a fragmented 
uncoordinated approach that would disrupt the flow of commerce.
    We believe Congress should build on the start made in ISTEA 
and most of all there must be increased investment to meet 
capital needs identified in the Department of Transportation 
and the States, I might add, solving the program funding 
allocation dilemma. The allocation of Federal highway user fee 
revenue among the States is expected to be one of the most 
contentious issues in the ISTEA reauthorization debate. The 
irony is that the allocation debate, along with the divisive 
disputes over which State gets more funding, can be effectively 
eliminated out at the outset. Swift action on three fronts is 
needed.
    First, the redirection of the 1993 4.3-cent Federal motor 
fuel tax revenue to the Highway Trust Fund; second, the removal 
of the four transportation trust funds from the unified Federal 
budget; and third, prompt distribution of all trust fund 
balances and receipts to their intended purpose, transportation 
investment.
    This subcommittee should insist in the strongest terms that 
the Budget Committee provide you with the flexibility to 
respond to an improving economy and declining deficit by giving 
transportation increased budget authority over the next 6 
years. These three actions will provide those responsible for 
crafting the multiyear balanced budget agreement with tools 
necessary to complete the job of meeting the Nation's 
transportation needs while getting the Nation's fiscal house in 
order.
    The President's budget proposal calls for static funding 
for transportation over the next 6 years. ARTBA's analysis of 
the proposal shows highway program spending would be slashed by 
12.6 billion in real dollar terms over the next 6 years when 
the imposed outlays are adjusted for inflation. To put this in 
perspective, $12 billion is the cost equivalent of resurfacing 
120,000 lane miles of the interstate highway system.
    The analysis also shows that maintaining the current level 
of highway investment in real dollar terms would require an 
additional $3.8 billion in fiscal year 2002 or a total outlay 
of 22.9 billion. The President's budget proposal means a 
further rise in the unspent balance of the Highway Trust Fund. 
By the end of fiscal year 2002, that fund would skyrocket to 
$43.4 billion under the President's proposal.
    The proposed budget also would, for the first time, provide 
Federal support for Amtrak capital and operating expenses and 
mass transit operating expenses out of the Highway Trust Fund, 
a position that ARTBA strongly opposes. Next biggest point is 
the inflation factor. And since ISTEA was enacted at the end of 
1991, Congress has provided for a significant increase in the 
Highway Program.
    From just over 15.5 billion in fiscal year 1992 to almost 
20 billion in fiscal year 1996, an increase of more than 27 
percent.
    During the ISTEA time frame, the cost of building or 
repairing a highway rose almost as fast. We urge the 
subcommittee to appropriate transportation funding at a minimum 
to the amount of revenue collected by the Highway Trust Fund 
yearly. USTO officials have recently stated that the highway 
account could support a 25 to 26-billion-dollar program in 
fiscal year 1998. If Congress approves transferring the 4.3 
cents, the Highway Trust Fund could fund a program at $32 
billion.
    If we as a Nation are going to adequately maintain the 
current state of our transportation investment needs, funding 
at these levels is a minimum requirement. I would be pleased to 
answer any questions. Thank you.
    Mr. Wolf. Thank you very much, Mr. Sproles. I appreciate 
it.
    [The prepared statement of Max Sproles follows:]

[Pages 253 - 270--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

     AMERICAN SOCIETY OF MECHANICAL ENGINEERS, (ASME INTERNATIONAL)

                                WITNESS

THOMAS GUINS, COUNSEL ON ENGINEERING, ASME INTERNATIONAL

    Mr. Wolf. American Society of Mechanical Engineers.
    Mr. Guins. Mr. Chairman, members of the subcommittee, I 
thank you for the opportunity to testify before you today. My 
name is Tom Guins, and I am pleased to present the views of the 
Dynamic Systems and Control Division of the Council of 
Engineering of the American Society of Mechanical Engineers.
    The 125,000-member ASME is a worldwide engineering society 
focused on technical, educational, and research issues. It 
conducts one of the world's largest technical publishing 
operations, holds some 30 technical conferences on 200 
professional development each year and sets many industrial and 
manufacturing standards. This testimony represents the 
considered judgment of the Dynamic Systems and Control 
Division.
    The statement I present today is in support of the 
Department of Transportation budget request for research and 
development in general and the Intelligent Transportation 
Systems Program in particular.
    Transportation as a whole is heavily dependent on a well-
designed and well-functioning technology of many different 
kinds, yet the surface transportation system has traditionally 
been relatively slow to adopt the latest technology, in large 
part because of the magnitude of its capital investment and 
infrastructure.
    This trend is starting to change with the recent adventof 
intelligent transportation systems technology, which was encouraged by 
the original ISTEA Act. Critical to these technologies is the research 
and development provided by the Department of Transportation, which 
plays a vital role in all transportation R&D for the entire country and 
particularly the ITS focus on long-range research is helping to 
recapture the technology lead for the United States in many areas of 
advanced automotive technology and travel management.
    The ITS encompasses a wide range of applications of modern 
computer communications sensing and software technologies to 
improve the operation of our surface transportation system. ITS 
includes 30 user services that aim to improve safety, 
operational efficiency, energy efficiency and environmental 
impacts of our road transportation system. Safety has been a 
major goal of ITS and its crash avoidance systems are helping 
to meet that goal.
    The national ITS program has strengthened the support base 
for focused research into why collisions occur and how the 
development of intelligent systems will prevent them. The 
program holds great promise to improve transportation, but it 
faces important challenges because its success depends on 
coordinated decision-making among organizations in both the 
public and private sectors.
    For maximum effectiveness, the vehicle technology developed 
and purchased in the private sector must work together with 
technologies developed and installed on the roadway. These 
technologies are typically specified, purchased, operated and 
maintained by public sector organizations. Therefore, ITS 
requires a significant continuing Federal role to encourage an 
integrated implementation.
    As ITS matures, its direction is naturally shifting from a 
concentration on R&D issues towards encouragement of deployment 
and operations. However, the need for a strong continuing ITS 
R&D effort still exists. Considerable research is necessary for 
determining how users can best apply ITS and how they will 
respond to the new information that these services make 
available to them. Similarly, research and operational tests 
are needed to gather data regarding the effectiveness of ITS so 
that future deployment decisions can be made successfully.
    The automated highway system is funded under the ITS 
category and offers the most dramatic long-term potential to 
improve highway safety, productivity, comfort, and convenience. 
While the program is early in the development stage, it is a 
model for collaborative research. AHS combines various ITS 
technologies to provide a closer coordination between vehicles 
and highway operations so that they can be optimized on a 
system-wide basis.
    Because the emphasis of AHS is potentially very large, but 
also long-term, particularly strong Federal support is needed. 
This Federal need is essentially to encourage the other needed 
participants in State and local public agencies, automotive, 
electronic industries, infrastructure developers and the R&D 
community in general to align their efforts so that the AHS can 
become a reality within the next decade.
    If its efforts succeeds, AHS will have a profound effect on 
the Nation's surface transportation for the next century as an 
important component of the R&D budget.
    I guess in conclusion, the Intelligent Transportation 
Program is important to the direction of transportation R&D. In 
fact, ITS makes up 25 percent of the total R&D budget of the 
DOT. The advantage of the ITS program, as briefly outlined 
here, provide us the example to encourage support for the 
requested $250 million to continue this work that has proved 
and will continue to prove essentially meeting our 
transportation needs into the 21st Century.
    Thank you.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Thomas Guins follows:]

[Pages 273 - 279--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

                     LEAGUE OF AMERICAN BICYCLISTS

                                WITNESS

ALLEN GREENBERG, GOVERNMENT RELATIONS DIRECTOR

    Mr. Wolf. Mr. Greenberg.
    Mr. Greenberg. Mr. Chairman, Mr. Sabo, members of the 
subcommittee, I represent the League of American Bicyclists and 
also our International Police Mountain Bike Association 
Division. Additionally, we work closely with the youth bicycle 
education network, which shares at-risk, inner-city use.
    Last year, I came before you to describe the national 
problem of bicycle crashes and the resultant injuries and 
fatalities. This year I will provide an update on Federal 
activities relating to this and will very briefly address a new 
area and that is the potential for the bicycle to play a vital 
role in welfare-to-work transportation. Annually, bicycle 
crashes are responsible for 800 fatalities and 600,000 
emergency room visits in the U.S..
    This is more than 600 railroad grade-crossing fatalities 
referred to earlier, and far more than 30 or so children that 
have died because of air bags. It is more than aviation, 
railroad and maritime fatalities, to which the Clinton 
administration proposes, respectively, to dedicate $839 
million, $57 million and $804 million in the next fiscal year.
    These greater efforts are necessary to ensure that people 
are trained to be safe bicyclists. This made sense since 
NHTSA's own data shows that 82 percent of bicyclists under the 
age of 15 who were killed during that year, and this was in 
1994, were at least partially responsible for their fatal 
crashes. So what has happened since then?
    Unfortunately, without new resources, very little. 
Washington is a town of rhetoric, but in truth talk is cheap 
and we must follow the dollars to discern our true value. Are 
the 30 kids who have died from air bags more important than 
over 10 times that number who die each year in bicycle crashes? 
If this subcommittee approves the administration's fiscal year 
1998 budget as proposed, which provides $2 million for 
education on the air bag issue, but peanuts for education and 
bicycling, unfortunately your answer will be, yes.
    We need to put resources into developing a system to enable 
every child to receive comprehensive bike safety education. 
NHTSA told the subcommittee last year that it didn't have the 
data to demonstrate that this approach would work. But there is 
a double standard in play here and our children are paying the 
price. No one has provided data to show that either the 800,000 
a year in the Stay Out of the No Zone truck safety campaign to 
stay out of the blind spots of truckers or the 900,000 this 
subcommittee approved last year for Operation Lifesaver works. 
And where is the administration's data to show the $2 million 
it is seeking to educate parents about air bag safety will 
work?
    In each case, education is designed to close a knowledge 
gap and encourage people to think about things they are not now 
thinking about. That is why we need bike safety education and 
particularly on-road training. Training serves to improve 
bicycle handling skills and overall knowledge, encourages 
conformity to the rules of the road and traffic laws and more 
experienced and formally trained bicyclists are much more 
likely to wear helmets and wear them properly.
    As I testified last year, no other transportation safety 
investment that this committee would make would be near as 
cost-effective as this one in saving lives and reducing 
injuries.
    Very briefly, if I could address the welfare-to-work issue. 
We commend the Clinton administration and this Congress for its 
increased attention to this issue and specifically the Clinton 
administration's proposed request for a $100 million for fiscal 
year 1998. We believe, however, that insufficient attention has 
been paid to the essential role the bicycle can play in 
providing such transportation.
    We are seeking funding for an initiative to provide 
bicycles, training, and commuter support seeking job 
opportunities that are not transit accessible. And the details 
of that are in the remainder of the testimony and I thank you 
for this opportunity to testify.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Allen Greenberg follows:]

[Pages 282 - 289--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

                  AMERICAN SLEEP DISORDERS ASSOCIATION

                                WITNESS

DR. BARBARA PHILLIPS, CHAIRPERSON, GOVERNMENT AFFAIRS AND PUBLIC POLICY 
    COMMITTEE

    Mr. Wolf. Dr. Barbara Phillips, American Sleep Disorders 
Association.
    Ms. Phillips. Good afternoon. I am Barbara Phillips. I am a 
pulmonary physician and I am here on behalf of the American 
Sleep Disorders Association today. And I have two questions for 
you, I guess. The first one is, how do you tell if an 
automobile accident is because of a driver's sleepiness? And 
the second question is, once you do that, what are you going to 
do about it?
    This subcommittee actually has already begun efforts which 
we thank you for by allocating a million dollars in each of the 
past 2 years for NHTSA to work in collaboration with the 
National Center on Sleep Disorders Research to begin to answer 
those questions. And thanks to your help, we have made some 
progress. We have learned through some research and 
investigation many things about how you tell if an accident is 
caused by sleepiness. But we still have a long way to go.
    I know that all of you are concerned about this accident 
very near to here, this weekend in which a healthy woman in her 
mid fifties, who apparently was not abusing any substance at 
all, ran off the road and killed another person, including 
herself. We don't know why that happened. We have the 
technology to know whether it was drugs or alcohol or equipment 
failure, but we are only beginning to understand how one 
determines whether or not it was due to sleepiness or 
inattention.
    Based on the fact that over 30 percent of fatal crashes did 
not involve any efforts by the driver to brake or take evasive 
action and 20 percent of all crashes in general do not involve 
evasive action by the driver, we are guessing that a 
significant number of fatal accidents and crashes in general 
result from drivers' sleepiness, and we need more research to 
find out how one determines this.
    So, Chairman Wolf, when you go to the accident scene this 
afternoon and you want to employ state-of-the-art technology to 
try to understand whether this resulted from sleepiness, the 
best I can tell you is look for skid marks. If they weren't 
there, the chances are good that they fell asleep. We will 
never know that.
    Once we begin to understand that sleepiness does play a 
role in accidents then I think we have a responsibility. And 
the National Center on Sleep Disorder Research actually has a 
mandate to educate the public about these risks. Technology is 
important and it is always going to be an essential part of any 
safety program, but public education is probably even more 
critical.
    The drastic decline in deaths because people are now 
wearing seat belts and the drastic decline in deaths because 
people no longer drive drunk resulted primarily because of 
education, not because of technology. So I would encourage this 
subcommittee to continue its support of the National Center on 
Sleep Disorders Research, which is housed, as you know, in HLBI 
and encourage a more portion of NHTSA's budget to the tune of 
$3 to $5,000,000 for further collaboration with the national 
center for more research about why these accidents happen and 
how we can make them stop. Thank you very much for your 
attention.
    [The prepared statement of Barbara Phillips follows:]

[Pages 292 - 302--The official Committee record contains additional material here.]


    Mr. Wolf. Thank you very much for your testimony, all of 
you. I appreciate it very much. And that accident is 
particularly disturbing. There have been five deaths on the 
road in the last year. In fact, we are having a press 
conference, Congressman Moran and I, today. We met yesterday 
with the Park Service and Highway Department to get them to do 
some interim barriers on the parkway going north and south.
    I did speak to the policeman yesterday. They do believe 
perhaps, that she fell asleep at the wheel. They are not sure. 
They weren't able to tell me. But I think you make a very valid 
point. That is why the committee has attempted to fund it to do 
that. And I think human factors like that probably cause more 
accidents than perhaps anything else.
    So all of you, I appreciate it. With regard to the Step 21, 
I know there will be differences probably in this committee. I 
certainly support the bill. My state is one that we will 
operate on 1980 census data and it is 1997. And so although we 
don't want to discriminate against the smaller States, but it 
is time now that there has got to be a better balance. So all 
of your testimony is very, very good. I appreciate it very, 
very much. Feel free as the different agencies come up to 
testify if there are any other comments you would like to put 
in, we would be glad to get them. Again, thank you very much.
    Mr. Sabo, I apologize, Mr. Sabo and Mr. Olver.
    Mr. Sabo. Thank you, Mr. Chairman. I have a statement and 
then a question. Mr. Laney, and several others of you, I 
understand that you believe the 4.3 cents per gallon tax should 
be shifted into the Highway Trust Fund from the general fund, 
and we should do this to restore the original intent of these 
funds to be used for highway and transit purposes.
    I was a floor manager of the reconciliation bill in 1993 
and voted for it. I voted for the 4.3 cents gas tax to reduce 
the deficit. That is why it was in the bill. It wasn't there to 
be spent for other purposes.
    If you can generate the political support to undo the 
deficit reduction, and that is the position of the state 
governments and other groups, fine. But it was there for one 
purpose in 1993, and that was as part of a $500 billion deficit 
reduction package. That package has worked, and we have made 
substantial progress. We aren't going to keep making 
substantial progress with the budget deficit if we begin 
undoing that. So let's be very clear on that.
    I am amazed when I talk with transportation people, whether 
it is national or local. I think I finally have my local people 
understanding there is no Santa Claus. There is no Santa Claus 
in taking money from deficit reduction and putting it into the 
Highway Trust Fund. There is no Santa Claus in taking 
transportation trust funds off budget; no money magically 
appears. An essential part of the 1990 budget agreement and the 
1993 budget agreement was setting discretionary spending gaps. 
Transportation funding comes out of that.
    The caps are there, whether transportation trust funds are 
on or off budget. If transportation funding goes up, something 
else comes down. So it comes to arguing priorities and trade-
offs. There is no magical money that can appear from someplace 
and not have impact in a significant fashion on other areas of 
the federal budget. So choices have to be made.
    I really think you do a disservice to your people when they 
get the sense that there is this big pot of money, and if we 
just make some changes, money appears as manna from heaven for 
transportation. The only way we are going to have more funds 
for appropriations this year is if our Chairman convinces the 
Chairman of the full committee to have a 602(b) allocation that 
is higher in discretionary spending for this committee than 
recommended by the President. That is what we are facing.
    To give you a different example; Mr. Laney, I voted against 
the crime bill in 1994. I was for the assault weapon ban, but I 
still voted against it. One of the major reasons was I thought 
it made absolutely no sense for the Federal Government to get 
involved in prison construction at a time when we weren't 
meeting our historical Federal obligations. To start something 
new like that made no sense to me.
    So I guess my question, to you is would you recommend to 
Mr. Livingston that we eliminate prison construction funds and 
transfer that outlay and budget authority into this committee 
so we could further fund historic Federal transportation 
obligations?
    Mr. Laney. May I respond?
    Mr. Sabo. Yes.
    Mr. Laney. My point, I think, is, and I absolutely agree 
with you, and we see it at various levels of the State 
government, that there is no Santa Claus. And, yes, in fact, we 
are understanding, I think, very clearly the policy 
prioritization here. And I think the point we make one way or 
the other, whether it is in some cases some States' devolution, 
some States Step 21, some States the 4.3 cent restoration, 
transportation in Texas and transportation in this country is 
under nourished. It is a critical component of economic 
opportunity and economic development.
    I think our position, in however it is cast, whatever the 
source of the funding, is that a disservice is being done to 
transportation in this country, and I will speak for Texas and 
particularly in Texas, because of the prioritization. Now, 
whether it is prisons or whether it is something else, I am in 
no position to make any kind of choice. I don't know the 
smorgasbord of opportunities for recasting funding priorities.
    But I do speak on behalf, I believe, of transportation 
interests generally and that is most of this country, I 
believe, and I do think it is undernourished from a funding 
standpoint. In terms of how it is funded, I think you are in 
much more position than I to make that call.
    Mr. Sabo. Well, I have no quarrel with that. Over the years 
I supported gas taxes specifically for that purpose. Ninety-
three, one, was not for that purpose. It was there for a very 
different purpose. But we have to be willing to make those 
choices and particularly when folks come from State government 
we have to know what some of those choices are.
    I, frankly, thought it was a serious mistake to venture off 
into prison construction where States are bonding potential to 
do it. I am not an enthusiast of the President's new proposal 
of getting into building schools when we underfund historic 
educational programs. But those are trade-offs we are going to 
have to make. And our only option if we are going to increase 
it for next year is to increase our 602(b). It is not going to 
come by taking money out of deficit reduction and the caps are 
there on discretionary spending or taking things off budget. 
None of that produces magical new numbers. And I expect our 
Chairman would like some suggestions on how he can make a case 
to the full committee that we should have a higher 602(b).
    But this general theory that somehow 4.3 isn't being used 
today for what it was intended I find particularly irksome 
because it is being used for what it was intended in 1993.
    Mr. Wolf. Before I recognize Mr. Olver, I share Mr. Sabo's 
comments. I don't blame any of you for coming in and asking for 
it. The difficulty that I have is that what he says is accurate 
and the 4.3, I feel the number one issue that I have is the 
balanced budget.
    I have five kids and we are ready to have a grandchild and 
I looked at the pie chart the other day and Mr. Sabo knows 
these numbers better than I do because he has been on the 
Budget Committee and I haven't. But I think if I recall $248 
billion this year, about 15 percent or 16 percent, of the 
budget would go for interest on the debt. That is money we 
don't get anything for. We don't get any education, 
transportation, whatever the case may be.
    I went to a school the other day and I asked how many of 
the young people there believe that the social security system 
was sound and that they would get their social security, and 
out of a class, a group of about 115, 120, two kids raised 
their hand. Then I went on and we talked about other issues, 
and I said how many of you saw the movie ``Independence Day?'' 
And we chatted. And I asked how many believe in UFOs? About a 
quarter of the class believe in UFOs. When you put them both 
together, that meant that 25percent of those kids believed in 
UFOs and zero or two kids believed in this.
    And I think Mr. Sabo's point is well-taken and they are all 
good in the transportation. But I don't know that the 4.3 will 
really make the difference, and although I know the strong 
argument for taking it off budget, Mr. Sabo is right there. If 
you take it off budget, you then get to the next thing and then 
I don't know how many trust funds there are.
    I think we are going to work together to get the amount up 
as high as we possibly can. And this committee both in airports 
and in the Highway Trust Fund, we have always come in high to 
try to get it up, but it is really a tough issue, particularly 
when you have to then balance it with what he said on this 
whole issue of doing what most people believe should be the 
number one issue, whether you favor the balanced budget 
amendment or not, that is to get to the balanced budget. So I 
am glad he raised it. I didn't, but I think he makes a valid 
point.
    Mr. Aderholt.
    Mr. Aderholt. I don't have anything at this time.
    Mr. Wolf. Okay. Mr. Olver.
    Mr. Olver. I am going to be very brief here. Just to add to 
what you said, Mr. Chairman, when we get finished balancing the 
budget, we will still have that $248 billion interest payment 
that will have to be paid because it is the debt on which they 
are paying the interest, and by balancing the budget we are 
just holding the debt from continuing to rise.
    I think that all I would comment is that I suspect we could 
have a panel of the six most learned persons in criminal 
justice or in education or whatever it might happen to be and 
each of them would say that their area is starved for funds. So 
somewhere along the way we have to deal with the pie and the 
size of the pie as the size of the pie is.
    And your comment about what you--about shows of hands in 
the education system is perhaps proof of how much need there is 
in the education system for something additional. Whether it is 
money that is going to do it I am not entirely certain.
    Mr. Wolf. Thank you very much. Well, thank you again for 
coming and feel free to submit any other statements as 
different administrators testify. And we appreciate it very 
much. We will reconvene at 1 o'clock.
                              ----------                              

                                        Tuesday, February 25, 1997.

                     WESTSIDE-HILLSBORO LIGHT RAIL

                               WITNESSES

HON. ELIZABETH FURSE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
GORDON FABER, MAYOR, HILLSBORO, OREGON
    Mr. Wolf. I have to leave at 2:45 or 3:00 to go a meeting 
to with regards to a problem in my district on the George 
Washington Parkway, so if you could attempt to keep your 
testimony within 5 minutes, we would appreciate it.
    Secondly, for everyone listening, you are welcome to submit 
other statements for the record after the administration or 
whoever testifies and your full statement will appear in the 
record. I welcome first Westside-Hillsboro Light Rail, 
Congresswoman Furse and Mayor Gordon Faber.
    Ms. Furse. Mr. Chairman, I want to thank you for allowing 
us to testify. I am not going to speak to my testimony. I will 
submit it for the record.
    What I would like to touch on is a couple of points. One, I 
want to remind you, Mr. Chairman, that Westside Light Rail has 
incredibly high support from the public. We have had two 
initiatives, both of which have supported Westside Light Rail, 
and in fact voted themselves to pay a little bit more so that 
we could have it.
    Secondly, the project is on time, it is on budget. All of 
the money that was appropriated for it has been spent on time. 
And we are now 2 years from the completion of the project. We 
would love to get all the funding this year and be sure that we 
are done by next year. It is the first such project to have low 
floor cars. We meet all ADA requirements, and it is a project 
fully supported by the people of the area.
    I am not going to talk more, Mr. Chairman. I am going to 
introduce my testimony to you which goes through the whole 
issue of where the money goes and how it is done.
    I would like to introduce to you Mayor Gordon Faber of the 
city of Hillsboro, which is the final point of the Westside 
Light Rail project. So if I may do that, and if I may also ask 
unanimous consent to introduce testimony from Mr. Thomas Wash, 
who is the general manager.
    Mr. Wolf. Without objection.
    [The prepared statement of Hon. Elizabeth Furse follows:]

[Pages 308 - 309--The official Committee record contains additional material here.]


    Mr. Faber. Thank you, Mr. Wolf.
    Mr. Chairman, thank you very much for allowing me to be 
here to testify today. I will keep it very brief since I sat on 
the other side of this table very often during public hearings.
    I just want to point out something that Elizabeth has 
brought out. I think it is very important to Hillsboro and to 
the region in general. Our business community at the outset was 
somewhat suspicious of light rail, frankly. Our industrial 
community, which is a burgeoning high-tech area known as 
Silicone Forest, was behind it soundly. Now they remain solidly 
behind light rail, and the business community has suddenly 
become very enthusiastic as they realize the impact on the 
retail business within the community. The man in the street has 
become enthused and excited at the prospect.
    The project is going on, as I am sure you are aware, with 
some dislocation to streets and streets being shut off and what 
not, and yet the population of the region has received that in 
good nature. And there is a great deal of new excitement and 
new local improvement district that has been developed in 
downtown Hillsboro to improve the looks of an old downtown area 
to tie in with the things that Tri-Met is doing in the station 
areas.
    The enthusiasm for this project is incredible and growing. 
We urge your support of that funding for the completion of the 
Westside Light Rail, and I would like to point out that light 
rail doesn't end in Hillsboro; it begins in Hillsboro, as a 
point.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Packard.
    Mr. Packard. I certainly have no questions because I just 
arrived.
    Mr. Wolf. I appreciate you taking the time, and we will do 
a very, very fair look, and feel free as we go on to submit any 
other testimony. Thank you very much.
    Ms. Furse. Thank you so much for your time, Mr. Chairman.
    [The prepared statements of Mayor Faber and Tom Walsh 
follows:]

[Pages 311 - 314--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

         METROPOLITAN TRANSIT AUTHORITY OF HARRIS COUNTY, TEXAS

                               WITNESSES

O. HOLCOMBE CROSSWELL, CHAIRMAN, BOARD OF DIRECTORS, HOUSTON METRO
BOB McCLENNAN, GENERAL MANAGER

    Mr. Wolf. Mr. Ford is not here. Cincinnati Northeast/
Northern Kentucky Corridor. Tren Urbano Project. Metropolitan 
Transit Authority of Harris County.
    Mr. Crosswell. I feel pretty good this afternoon. If this 
keeps up, we are here and ready to take it. At this rate, you 
are going to make your 2:45 pretty quick.
    Mr. Wolf. I am sure we will be here. Your full statement 
will be in the record, and if you could for the court reporter 
as you begin give your full name for the record.
    Mr. Crosswell. I will. My name is Holcombe Crosswell and I 
am Chairman of the Board of the Metropolitan Transit Authority 
of Harris County, Texas, which is primarily Houston. On my left 
here is the general manager, Mr. Bob McClennan.
    We appreciate the opportunity to share these 5 minutes with 
you. I am pleased to report that the funds that you have 
appropriated for Metro's transit projects have been expended on 
transit system improvements which have been constructed on 
schedule, within budget, and are contributing to increased 
transit system utilization and reduced traffic congestion in 
the Houston region.
    Starting in the early 1980s, this Committee has supported 
Houston Metro's efforts to create a mass transportation network 
within the Houston area that is uniquely responsive to the 
geographic and demographic realities of the Houston region. 
Houston is geographically very large. Our metro area 
encompasses more than 1,280 square miles and Houston has a 
relatively low population density and numerous large and widely 
disbursed employment and activity centers. These 
characteristics dictated a somewhat different approach to 
reducing single vehicle trips and, correspondingly, reducing 
traffic congestion and air pollution through the use of mass 
transportation.
    The Houston area's solution to this problem was the 
Regional Bus Plan, a comprehensive mass transit program 
comprised of approximately 25 individual projects, whose 
independent utility provides for incremental improvements in 
facilities and services as projects are completed and 
immediately come on line. The Regional Bus Plan incorporates 
prior federally funded transit improvements and adds additional 
and extends existing HOV lanes, provides HOV lane 
interconnections for improved access, adds transit centers and 
park and ride lots, has added a bus maintenance facility, and 
has extended the bus fleet from 1,200 to 1,600 buses. The 
Regional Bus Plan also includes extensive transit-related 
improvements to the central business district and midtown 
streets, a regional traffic and transit control center, and 
state-of-the-art traffic signaling improvements with bus 
prioritization of features. Many intelligent transportation 
system features are included in the plan.
    The Regional Bus Plan is designed to provide the efficiency 
and reliability of a rail system while retaining the 
flexibility afforded by bus-based system and constructed at a 
fraction of the cost of a comparable fixed guideway system.
    The results of your previous appropriations are already 
apparent. Daily passenger trips on the HOV lanes has risen 24 
percent. Less congestion has allowed speeds to increase and 
travel time to decrease.
    During peak hours, the HOV lanes are each carrying up to 
the equivalent of 2\1/2\ main traffic lanes. Since the HOV 
lanes are reversible, this saves the community the cost of 
building five more main lanes on each of those freeways.
    Access by carpools and vanpools encourages greater 
utilization while imposing no additional operating costs for 
Metro. Houston Metro's total transit ridership is greater than 
the combined bus and rail ridership of Atlanta or Miami or San 
Diego, cities with comparable characteristics but withrail 
systems which cost many times more than the $7 to $10 million per mile 
of Metro's HOV lanes. The Regional Bus Plan has proven to be the right 
transit solution for Houston.
    Congress has appropriated $327 million of the $500 million 
full funding agreement for the Regional Bus Plan through fiscal 
year 1997. My first of two requests today, Mr. Wolf, is to ask 
for an appropriation of $70 million of the remaining amount for 
the Regional Bus Plan for fiscal year 1998.
    As effective as the Regional Bus Plan has proven to be, it 
was designed to serve the community's needs through about 2010. 
Metro is now planning for the year 2020. Accordingly, Metro has 
developed the Advanced Regional Bus Plan which builds on the 
original bus plan as the Regional Bus Plan built on its 
predecessor.
    The Advanced Regional Bus Plan is intended to serve a 
community that is projected to grow in population from 3 to 3.8 
million in 2020 and with employment projected to go from a 
million and a half million to two and a half million, that is, 
a million new jobs. And households are expected to increase 
from one million to a million and a half.
    While existing major employment centers are projected to 
show modest growth, the suburban areas are projected to show 
substantial growth, most in multiples of their current level. 
These projections pose challenges to mass transit but they also 
afford an opportunity to demonstrate the flexibility of Metro's 
bus system.
    The Advanced Regional Bus Plan, like the Regional Bus Plan, 
consists of a program of projects, each with independent 
utility and immediate application. In addition to providing 
increased transit capacity, it will add new dimensions to 
transit service to meet new needs such as bidirectional service 
in some travel corridors to accommodate inner city to suburb 
trips to serve the increasing work destinations in the suburbs. 
Metro will also need to provide for an increasing number of 
suburb-to-suburb trips, provide for circulation within multiple 
activity centers and expand nontraditional services.
    My other request today, sir, is to appropriate for fiscal 
year 1998 funding to initiate part of the Advanced Regional Bus 
program. We are requesting $1 million for 1998 to take us to 
the year 2020 for the initial planning stages while we finish 
out the original plan.
    I am convinced this investment you make in funding Metro's 
regional transit plans will achieve the same successful results 
we have achieved in the past with your support. This is a 
worthwhile investment of Federal and local funds to meet the 
transportation needs of Houston well into the 21st century.
    Mr. Wolf. I thank you very much. I have no questions. I 
have seen the system and I know the job you have done. I 
appreciate you taking the time.
    Mr. Packard.
    Mr. Packard. No questions.
    Mr. Crosswell. We thank you very much. Appreciate your 
time.
    Mr. Wolf. Thank you.
    [The prepared statement of O. Holcombe Crosswell follows:]

[Pages 318 - 322--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

                            OREGON PROJECTS

                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON

    Mr. Wolf. Congressman Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman. I apologize for 
the delay and appreciate your courtesy.
    I am here today to make a brief presentation not so much on 
behalf of a particular project but instead I would like to urge 
strong priority be given to projects that clearly meet the 
national policy objectives outlined in ISTEA, particularly the 
public involvement and planning components of that act. 
Portland's light rail system is an example of such a project, 
and I would like to join my colleague, Ms. Furse, in her 
support of the Westside project just a few minutes ago. 
However, many other communities are working just as hard on 
many similar projects, and I would like to share with you some 
of the work that I have been doing around the country dealing 
with transportation.
    Many communities are, in fact, looking for ways to preserve 
livability and turning to transportation as a way to build in 
that broader sense. They have stopped trying to pave their way 
out of congestion. Such an approach has not worked in the past 
and won't work any better in the future.
    The Congress has given the people some powerful tools to 
impact transportation decisions. ISTEA's emphasis on public 
involvement and its requirement that metropolitan planning 
organizations participate in the decision-making process has 
increased not just participation in but awareness of 
transportation planning efforts around the country. As a result 
of that participation, there has been a shift in transportation 
priorities to more balanced solutions. The demand for funding 
alternative modes of transportation, particularly light rail 
has increased dramatically.
    Here in Washington, D.C., last fall, well over 675 people 
from 43 States, 118 communities around the country and, indeed, 
representatives of half a dozen foreign countries discussing 
the ways that light rail and land use planning are ways to be 
integrated to improve the livability of the communities. Cities 
like Seattle, Los Angeles, Aspen, Colorado, Salt Lake City, and 
St. Louis are just a few that have arrived at rail as the best 
solution to problems of increasing congestion, air pollution, 
and sprawl and decreasing mobility and livability.
    They arrived at that decision in a cooperative fashion, 
adhering to the letter and the spirit of ISTEA, and I would 
suggest that we in Congress ought to find a way to reward that 
work. By rewarding cost effective transportation solutions, 
this is the single most effective step this Congress can take 
to improve transportation efficiency and get more value for tax 
dollars.
    Local communities lead the way in developing creative 
solutions because transportation problems impact communities 
first. Congestion and the resulting spill-over into 
neighborhoods and the degraded air quality impact their 
everyday quality of life. The solutions that solve these local 
problems are better met on the local level. Experience has 
shown that these projects are more effective, cheaper, and they 
are flexible enough to carry communities into the 21st century.
    I appreciate the opportunity to share some of my 
observations with you and look forward to supporting anything 
that this subcommittee does to reward that type of behavior.
    Mr. Wolf. Good. Well, thank you very much. I appreciate you 
taking time to come before the committee.
    Mr. Packard.
    Mr. Packard. No questions.
    [The prepared statement of Hon. Earl Blumenauer follows:]

[Pages 325 - 326--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

            CINCINNATI NORTHEAST/NORTHERN KENTUCKY CORRIDOR

                               WITNESSES

HON. JIM BUNNING, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    KENTUCKY
HON. ROB PORTMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
ROXANNE QUALLS, MAYOR, CINCINNATI, OHIO

    Mr. Wolf. Congressman Bunning, Congressman Portman, and 
Mayor Qualls of Cincinnati.
    Mr. Bunning. I would like to thank the Chairman and Members 
of the Subcommittee for giving us the time today to testify in 
support of our request for $500,000 to complete the work on the 
environmental impact study and preliminary engineering phase on 
the I-71 corridor project between southern Ohio and northern 
Kentucky.
    We have been here 3 years, I guess 4 years. Because time is 
limited, the mayor of Cincinnati, the Honorable Roxanne Qualls, 
will be making a more detailed presentation to you so I won't 
say much today. However, I do want members of the Subcommittee 
to know how important this project is.
    The I-71 corridor which connects southern Ohio and northern 
Kentucky is going to become a devastating bottleneck. We need 
to continue the work on this project so we can prevent that 
from happening. This is certainly my top priority, and I hope 
the Subcommittee will give us favorable consideration of our 
request.
    It is now my pleasure to present the mayor of Cincinnati, 
Ms. Roxanne Qualls.
    [The prepared statement of Hon. Jim Bunning follows:]

[Pages 328 - 329--The official Committee record contains additional material here.]


    Mr. Wolf. Rob, do you want to make a statement?
    Mr. Portman. Just quickly, Mr. Chairman.
    I thank Mr. Bunning for all his work on this. He has been a 
tireless advocate for this project and knows it inside and out.
    I am here to introduce Mayor Qualls--I do represent part of 
the city of Cincinnati that she so well leads--and to say, as 
in the past, Mr. Chairman, this is going to be a 50-50 match, 
which it was not initially. The local community has really 
stepped up to the plate to provide a true partnership with the 
Federal Government on this project. It is only a half million 
dollars, which I guess when you start adding them up, a half 
million starts to add up to a lot, but I think it is a 
reasonable request, particularly given that it is a 50-50 
proposition and this should complete the environmental impact 
and the preliminary engineering to be able to move forward to 
the next construction.
    So with that, let me introduce the mayor of Cincinnati, 
Roxanne Qualls.
    Ms. Qualls. Mr. Chairman, Members of the Subcommittee, on 
behalf of the city of Cincinnati, the Greater Cincinnati 
metropolitan area, and the Ohio-Kentucky-Indiana Regional 
Council of Governments, I want to thank you for this 
opportunity to ask for your support of $500,000 from the 
Federal Transit Administration Section 3 program in the fiscal 
year 1998 Department of Transportation Appropriations Act to 
study additional transit options in northern Kentucky on the 
heavily traveled Northeast Cincinnati/Northern Kentucky I-71 
Corridor.
    I want to thank the Subcommittee for its past support. 
Funds were appropriated in the fiscal year 1994 and 1995 
Department of Transportation Appropriations Acts for a major 
investment analysis and in the fiscal year 1996 and 1997 
Department of Transportation Appropriations Acts for draft 
environmental impact statement and preliminary engineering. We 
have obligated the fiscal years 1994, 1995, and 1996 
appropriations and are currently in the process of preparing 
and filing the formal grant application for the fiscal year 
1997. We are also seeking authorization of the project as part 
of the reauthorization of the Intermodal Surface Transportation 
Efficiency Act, and our goal is to identify the best 
transportation options for this rapidly growing corridor in 
northern Kentucky and Greater Cincinnati.
    The Ohio-Kentucky-Indiana Regional Council of Governments, 
of which I am the immediate past president, has moved quickly 
to implement the project. We are currently nearing completion 
of the analysis, with three of the phases already completed and 
selection of the locally preferred alternative scheduled for 
reconsideration of several technologies in northern Kentucky. 
We are committed to an aggressive community involvement effort 
which has attracted hundreds of citizens who have provided 
their opinions on the various alternatives.
    The project is advancing because of broad support among 
government officials and private sector leadership. This 
support is evidenced by 99 percent of the municipalities in the 
corridor financially contributing to the local match for the 
major investment study.
    The leadership of the cities and counties of northern 
Kentucky and the State of Kentucky strongly support the project 
as a priority of northern Kentucky's economic development 
future. The city of Cincinnati, southwestern Ohio counties, 
State of Ohio and Commonwealth of Kentucky also strongly 
support this project because of its impact.
    This corridor is among the most heavily traveled and 
congested in the metropolitan area. These problems are 
particularly severe in downtown Cincinnati and the University 
of Cincinnati Medical Center area. Potential ridership, 
availability of rights-of-way in the corridor, projected 
capital costs, and other factors justified the selection of the 
corridor and the need for the major investment analysis.
    The corridor serves the city of Cincinnati, Ohio, and is 
anchored on each end by major travel generators. On the Ohio 
northern end is Paramount's Kings Island amusement complex 
which attracts over 3 million visitors a year and employs a 
number of people from the Cincinnati area.
    On the Kentucky southern end is the Cincinnati/Northern 
Kentucky International Airport, which is the fastest growing 
hub in the country because of Delta Airlines hub expansion, 
which means we will be going from 5 million enplanements in 
1991 to a projected 14 million after the year 2000; as well as 
another major factor is the major downtown and riverfront 
developments which are under way in the city of Cincinnati 
itself.
    The city is planning major downtown and riverfront 
development which will bring more traffic into the area. The 
region's adopted long range transportation plan gave this 
corridor the highest priority for study. And we hope, Mr. 
Chairman and members of the subcommittee, that on behalf of the 
city of Cincinnati and communities of our three-State region 
that you will look favorably upon our request for assistance as 
we move forward with our plans for the corridor. Thank you.
    Mr. Wolf. Well, thank you very much, Mayor, for coming, and 
Jim and Rob.
    And I am, particularly speaking for myself, very impressed 
with the fact that both Mr. Bunning and Mr. Portman, talked 
about the 50-50, match. If every locality did 50-50, we would 
have more money to do other things. So I appreciate that very 
much and I appreciate both of you coming before the Committee. 
Thank you very much. Mr. Sabo?
    Mr. Sabo. No.
    Mr. Wolf. Mr. Packard.
    Mr. Packard. No.
    Mr. Wolf. Mr. Olver.
    [The prepared statement of Mayor Qualls follows:]

[Pages 332 - 336--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

                 MEMPHIS AREA TRANSIT AUTHORITY (MATA)

                               WITNESSES

HON. HAROLD E. FORD, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF TENNESSEE
WILLIAM HUDSON, JR., PRESIDENT/GENERAL MANAGER, MATA

    Mr. Wolf. Congressman Ford and Memphis Area Transit 
Authority.
    Mr. Ford. Thank you, Mr. Chairman, and to Ranking Member 
Sabo and Members of the Subcommittee. I appreciate the 
opportunity to appear before you today to express my strong 
support for the continued funding of the Memphis Area Transit 
Authority's light rail projects.
    Accompanying me today is Mr. Will Hudson, Jr.--I like 
juniors--President and General Manager of the Memphis Area 
Transit Authority. So please feel free to address any specific 
questions that you may have about MATA's plan and the direction 
we are going to Mr. Hudson.
    We in Memphis appreciate the support that Memphis has 
received from your committee in recent years, Mr. Wolf. This 
support along with local financial commitments has resulted in 
full funding for three important transit projects, the Central 
Station Intermodal Terminal, the North End Terminal, and the 
Riverfront Loop Rail Extension. All three projects are under 
construction. Central Station is especially noteworthy because 
of a public partnership between MATA and a private developer. 
Another downtown project that has previously received support 
from your subcommittee is the Medical Center Rail Extension. We 
appreciate the reception this project has received to date.
    With earmarks in fiscal years 1996 and 1997 totaling $4.3 
million, engineering design and a portion of construction is 
funded. In fiscal year 1998, we are requesting $5.3 million to 
fund construction activities that is scheduled to occur in 
1998. We will be back next year to request the remaining 
funding for the project of the total cost not to exceed $25 
million in Federal funds, and we intend to increase the 
previous 80 percent, Federal 20 percent.
    Memphis is also prepared to begin the process of 
implementing a regional rail system. The recently completed 
regional rail study includes recommendations for light rail in 
three corridors, extending to Millington and Collierville in 
Tennessee and Southaven in Mississippi. The Medical Center 
Extension is in parts of the corridor extending to Collierville 
and other fast growing suburbs in Eastern Shelby County. We 
have submitted a request to the Surface Transportation 
Subcommittee to authorize the three corridors as a program of 
projects and reauthorization of ISTEA.
    Recognizing the austerity brought about by reduced funding 
for transit and the committee's view regarding funding of 
investment studies, MATA plans to use local funds for the 
necessary preliminary studies. The proposed Federal split for 
the regional rail plan will be 50 percent Federal and 50 
percent local. This increased level of local financial 
commitment results from a growing recognition among elected 
officials of the importance of a modern, efficient public 
transportation system in meeting mobility and economic 
development needs for the 21st century.
    Memphis is a rapidly growing area, Mr. Chairman, with high 
expectations for the future. From an economic growth 
perspective, few initiatives are as important to my 
congressional district as a comprehensive regional rail system. 
With the Medical Center Extension we take a small step toward 
this goal by connecting our city's two largest employment 
centers. In addition to providing reliable and efficient 
alternatives to automobiles for many lower income Memphians, 
light rail can bring about a transformation which enhances 
economic growth, revitalizes the downtown and improves the 
quality of the air we breath.
    Thank you for the opportunity to speak before you today, 
Mr. Chairman. I am eager to work with each of you to assist 
your efforts to provide safer, reliable, and efficient 
transportation systems. I look forward to your favorable action 
on our requests and welcome any questions that you have.
    Mr. Wolf. I thank you.
    Mr. Hudson, do you have any testimony you would like to 
give?
    Mr. Hudson. None other than I do appreciate the opportunity 
to come before you again and ask for your support on our 
projects in Memphis. I feel like we have gone a long way and 
with your help we can continue to move forward in our 
community. So I am asking for your help to fund our system in 
the future.
    Mr. Wolf. Thank you.
    Mr. Sabo. Mr. Packard.
    Mr. Packard. No.
    Mr. Wolf. Mr. Olver.
    Thank you very much for both taking the time.
    [The prepared statements of Hon. Harold E. Ford, Jr. 
follow:]

[Pages 339 - 347--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

               AMERICAN PUBLIC TRANSIT ASSOCIATION (APTA)

                                WITNESS

CHRISTOPHER P. BOYLAN, VICE PRESIDENT OF GOVERNMENT AFFAIRS, APTA; AND 
    DEPUTY EXECUTIVE DIRECTOR, CORPORATE AFFAIRS AND COMMUNICATIONS, 
    METROPOLITAN TRANSPORTATION AUTHORITY, NEW YORK, NEW YORK

    Mr. Wolf. American Public Transit Association.
    Mr. Boylan. My name is Chris Boylan. I am the Vice 
President of Government Affairs for the American Public Transit 
Association and Deputy Executive Director of the New York 
Metropolitan Transportation Authority in New York.
    We thank you for your support of our program in the last 
year. The level of $4.38 billion that you appropriated last 
year was an 8 percent increase above the previous year's level, 
and it was an important year for us when funding for all 
Federal programs was tight. We feel that this committee has 
treated us very fairly and we appreciate that.
    Some 6 to 7 million riders use transit every day. Almost 
half of those come from New York. That is about 8 billion rides 
a year. In my own New York region, we have about 84 percent of 
the peek transportation market in the morning and afternoon, so 
this is an essential area of transportation funding for not 
only the New York region but for many areas throughout the 
country.
    With the monies that this Committee has made available in 
fiscal year 1995, which is the most recent year we have 
available in terms of statistics, we have purchased 50 rail 
cars and locomotives, 5,000 buses, 3,700 vans, all with your 
help. All of this is helpful not only to our transit systems 
but also to the national and regional economies where these 
things are manufactured.
    Let me just outline APTA's top appropriations priorities 
for fiscal year 1998. APTA asks that you preserve the funding 
under the ISTEA's overall program structure. We know that you 
will be doing a lot of this work prior to the ISTEA bill and 
debate.
    We clearly opposed devolution because we do believe that 
the Federal Government should continue to have a say in shaping 
the major investments that need to be made in our transit and 
transportation systems. Clearly, we seek increased funding for 
investment and transportation generally and specifically. We 
are very supportive of continued flexible funding programs 
permitted under ISTEA because we believe that we have used 
those dollars wisely.
    In terms of need, Federal DOT itself estimates capital 
funding needs for the transit industry are about $13 billion a 
year. New York alone needs $40 billion over the next 15 to 20 
years to just reach a state of good repair. So we probably 
could eat up most of those dollars. We know that that is not 
going to be the case, but we would like to think that there is 
sufficient need to continue a strong Federal program.
    We ask that you retain operating assistance at current 
levels. Nonetheless, we understand the difficulty that the 
annual debate causes for you and we would like to work with the 
Subcommittee to figure out a solution that works for both the 
small and large operators.
    We ask for your support for changes that would more broadly 
expand the definition of allowable capital expenditures to 
include the maintenance of capital assets and that would 
continue to level the playing field between the FTA programs 
and the FHWA programs.
    We believe that this proposal does not increase the 
disparity between the outlay rates of the FTA programs and FHWA 
programs on the macro level, not individual category by 
category.
    We request that you maintain a traditional balance between 
and among the Federal transit programs, the ratios between the 
New Start, Fixed Guideway Modernization, and Bus and Bus 
Facility components on a 40-40-20 basis, which the committee 
has done, and the ratio of $1.36 in formula funds for every 
dollar in discretionary funding.
    We do not support efforts that would disrupt the 
discretionary program. We obviously have some extraordinary 
capital investment needs and this committee, we believe, has 
made very wise choices in terms of those investments and, 
therefore, discretionary funds is still a continued need for 
the transit system in general.
    While we are pleased with the administration's proposal on 
welfare reform work, something that I think the committee will 
probably be discussing, we believe that any program to address 
this need should be funded separately from perhaps the $2 
billion in HHS monies that are spent on transportation each 
year.
    There is a lot more in my written testimony and I won't 
carry on here, but if you have any questions, I would be glad 
to address them.
    Mr. Wolf. Thank you very much. Your full statement, too, 
will appear in the record.
    Mr. Sabo.
    Mr. Sabo. I guess I didn't understand your position on the 
issue. Clearly, you would like to expand what capital funds can 
be used for. Is that a dollar for dollar trade-off the 
administration is suggesting on operating subsidies? Are they 
replaced in the same fashion?
    Mr. Boylan. I think there are going to be some issues 
associated with the outlay rates, if that is what is behind 
your question.
    Mr. Sabo. Yes.
    Mr. Boylan. I know that they would like to liberalize the 
capital maintenance dollars available to large systems, but I 
think what you would end up running into is the same thing that 
you end up running into in straight operating systems in terms 
of how it pays out each year. Obviously, that is something we 
would like to discuss with the subcommittee, how that would 
work. Because, clearly, it would not be on a one to one day 
basis. It wouldn't really make a difference to the committee 
whether it was a capital maintenance dollar or operating 
dollar, it is just something different. So we would like to 
work to figure out how it would work best for you and for us.
    Mr. Sabo. What did the administration assume on outlays?
    Mr. Boylan. They assumed that the definition of capital 
maintenance would be expanded for even properties over 
$200,000.
    Mr. Sabo. Yes, but what was their outlay assumption on 
that?
    Mr. Boylan. I don't know what the specific outlays are, but 
I know that----
    Mr. Sabo. My understanding is they were assuming only less 
than 10 percent outlays on that change and----
    Mr. Boylan. They probably assumed that larger properties 
like New York would not opt in to the full amount that they 
would be entitled to under the increased definition. We could 
probably eat up most of the current operating assistance budget 
currently in New York alone in terms of the outlays if all our 
capital maintenance dollars were eligible for funding.
    Mr. Sabo. Of maintenance.
    Mr. Boylan. Right. We spend about $1.1 billion a year in 
the New York MTA alone on capital maintenance.
    Mr. Wolf. Mr. Packard.
    Mr. Packard. Thank you, Mr. Chairman.
    Quickly, what is the trend on fare box recovery, say, the 
last 5 years?
    Mr. Boylan. It varies across-the-board. Some properties 
have low fare----
    Mr. Packard. It is all of mass transit for the entire 
country?
    Mr. Boylan. It ranges anywhere up to 88 percent. In New 
York, we are in a fare box recovery ratio now of 88 percent on 
the subways, about 40 to 60 percent on our computer railroads. 
Some systems have significantly lower ratios so they range from 
maybe 20 percent all the way up to 80 percent.
    Mr. Packard.  Nationwide, do you have a figure?
    Mr. Boylan. I don't have an average figure, unless one of 
my colleagues do. Average about 40 percent but very wide range.
    Mr. Packard. Is that up nationwide from the last 5 years?
    Mr. Boylan. It is. And I know in New York it is 
dramatically up. We went from about 68 percent about 3 or 4 
years ago to about 88 percent in the last 2 years.
    Mr. Wolf. Mr. Olver.
    Why did you go up in New York?
    Mr. Boylan. We did a couple of things. We increased our 
fare. We went from $1.25 to $1.50. We also took a significant 
amount of expenses out. Over our 5-year financial plan, from 
1995 to 1999, we were taking out $3 billion worth of expenses. 
We have an annual budget of about $5\1/2\ billion, and we have 
really tried to cut things as wisely as we can without 
affecting service, marginal impact on our service. We are 
working a little smarter.
    Mr. Wolf. Thank you very much. We appreciate your 
testimony.
    Mr. Boylan. Thank you.
    [The prepared statement of Christopher Boylan follows:]

[Pages 351 - 360--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

                          TREN URBANO PROJECT

                               WITNESSES

HON. CARLOS ROMERO-BARCELO, A REPRESENTATIVE IN CONGRESS FROM PUERTO 
    RICO
CARLOS I. PESQUERA, SECRETARY, DEPARTMENT OF TRANSPORTATION AND PUBLIC 
    WORKS, PUERTO RICO

    Mr. Wolf. Tren Urbano Project. Congressman Barcelo, welcome 
to the Committee.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman.
    I am here to introduce today our Secretary of Public Works 
and Transportation, Carlos Pesquera, and to underscore also my 
interest that this project be continued in Puerto Rico, the 
Tren Urbano rapid transit system. I know you are familiar with 
the project, and this committee has been very supportive in the 
past and we want to make sure that----
    Mr. Wolf. We have been. We wish we could get your Senators 
to be more supportive.
    Mr. Romero-Barcelo. So do I, very much so.
    Mr. Wolf. Because we always come out of the House with a 
higher figure and your Senators don't do very well.
    Mr. Romero-Barcelo. Right. I wish I could also vote for it. 
I hope that will be remedied soon.
    Mr. Wolf. I want to make the comment that the problem ends 
up in the Senate, so you want to be there testifying. We come 
out of here and I think it is a relatively good project and 
then there is nobody there to speak out.
    Mr. Romero-Barcelo. We will be working on that, Mr. 
Chairman.
    I just want to introduce the Secretary of Public Works, who 
also has been here to testify before. I just want to underscore 
the fact that I was mayor of San Juan. I was Governor of Puerto 
Rico. I am now in Congress and I have never seen a public 
official so dedicated to one project, to making it work, to 
making it a success than I have seen with Carlos Pesquera. So 
it also gives me great pleasure for that reason to be here to 
introduce him today.
    Mr. Pesquera. Thank you. I am Carlos Pesquera. Good 
afternoon, Mr. Chairman and members of the committee. I am 
Carlos I. Pesquera, Secretary of Transportation and Public 
Works for the Government of Puerto Rico. I am honored to appear 
before you today to report on the progress of the transit 
system that we call Tren Urbano.
    Since my last formal report to this committee, we have 
entered a critically important and exciting phase of this 
project. Tren Urbano is under construction. While the ground 
breaking ceremony on August 2, 1996, symbolized the launch of 
the construction phase, the awarding of major construction 
contracts has made the project a reality. To date, $720.8 
million in contracts have been awarded for the first four 
packages. The remaining $529.5 million in contracts will be 
awarded by June of this year for the final three segments.
    We have established an aggressive schedule for final design 
and construction. System testing is scheduled for the year 
2000, and we plan for the system opening for the year 2001.
    The Urbano is evidence of our commitment to build a world-
class transportation system. That commitment has also motivated 
our dramatically increased investments in highway construction, 
rehabilitation, and maintenance over the past 4 years. By the 
end of 1996, the Government of Puerto Rico had invested $1.1 
billion in transportation infrastructure compared to $815 
million during the previous 4-year period, an increase of 32 
percent.
    The Federal Government has been our indispensable partner 
in our efforts to build a world-class transportation system. 
Back in 1993, the Federal Transit Administration chose Tren 
Urbano as one of our four turnkey demonstration projects in the 
Nation, and the only new start project among them. Aside from 
the technical merits of our project, the FTA has highlighted 
Tren Urbano's cost effectiveness, which it estimated as 0.67 
per net new rider.
    The innovations in project management, financing, and 
procurement strategy developed for the Urbano are being closely 
followed and widely praised by the transportation industry. I 
believe our vigorous and highly effective community 
participation program, the extraordinary measures we have taken 
to assure top-quality system design, and our search for ways to 
couple the project with urban redevelopment will one day 
represent an instructive case study for transit planners, not 
only here in the mainland U.S. but around the world.
    In October of last year, we cooperated with the Federal 
Transit Administration in hosting an international conference 
on turnkey transit systems and joint development. Over 150 
representatives from 16 countries gathered to discuss trends 
and recent experience. We used the occasion to highlight the 
innovative turnkey procurement process we have devised for Tren 
Urbano.
    Congress has recognized the importance of Tren Urbano to 
maintaining economic growth in Puerto Rico. The FTA and Puerto 
Rico Highway and Transportation Authority have entered into a 
full funding grant agreement providing for FTA capital program 
funds totaling $307.34 million.
    Congress approved an initial earmark of $5 million for 
1996. FTA has approved a grant application for fiscal year 
1996. In addition, Congress has approved a $4.75 million 
earmark for fiscal 1997. This earmark has been supplemented by 
an additional $1.3 million of discretionary moneys awarded by 
the FTA.
    In addition, we have made small but significant enhancement 
projects that will help to assure its success. As a result, in 
the current financial plan for the funds provided by FTA amount 
to one-fourth of the dollar cost the project, that is $37.5 
million of the total cost.
    I am pleased to announce that the Governor of the Puerto 
Rico project, the Puerto Rico Highway and Transportation 
Authority would increase by $120 million starting the next 
fiscal year. This rewarding assignment will allow the authority 
to implement a much-needed $3.08 billion capital improvement 
program for the next 5 years. We believe that this commitment 
of resources should provide excellent leverage for the one-
third we are seeking in the ISTEA authorization for Tren 
Urbano.
    We are here today to request that the Members of this 
subcommittee continue to support the Tren Urbano project by 
granting in fiscal year 1998 appropriations of $45 million. 
These funds will help pay for new construction.
    I look forward to keeping Members of Congress apprised of 
our progress on Tren Urbano.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Sabo.
    We have no questions. Thank you very much for taking the 
time. We appreciate it very much.
    [The prepared statement of Carlos Pesquera follows:]

[Pages 364 - 367--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

                      NATIONAL EASTER SEAL SOCIETY

                                WITNESS

BEVERLY JONES, 1997 NATIONAL EASTER SEAL ADULT REPRESENTATIVE

    Mr. Wolf. The National Easter Seal Society, Beverly Jones.
    Ms. Jones. Good afternoon, Mr. Chairman, Mr. Sabo, and 
staff. I don't mean to overlook you; I know you are a very 
important part to this subcommittee.
    Mr. Wolf. They certainly are.
    Ms. Jones. And the court reporter here, too. That is what I 
do for a living, and you are fortunate that I am not going to 
speak as fast as these other people.
    My name is Beverly Jones and with me today is Nancy Smith, 
Director of Project Action. I am here on behalf of the National 
Easter Seal Society as their Adult Representative for 1997, and 
in that capacity, I travel across the United States on behalf 
of corporations and entities to promote public awareness about 
people with disabilities and their needs.
    I am here also representing, as I am sure you are aware, 43 
million Americans with disabilities of which 25 million of 
those Americans are dependent upon public transportation. I am 
sure you are aware of what Project Action is, and you have 
probably heard from many other predecessors before me that 
could explain to you what their goals were as far as Project 
Action is concerned. And I am here today on behalf of the 25 
million Americans with disabilities that are dependent on 
public transportation accessibility, as well as a citizen of 
the United States that happens to have a disability.
    I am not as--I was reviewing the agenda, and I noticed some 
of the people that are before you are a lot--they had titles 
such as Managers and CEOs and Presidents and that kind of 
thing, and if you will bear with me, like I said, I am just--I 
am not saying that her job is not important; it is important--
but that is what I do for a living, and I am not used to being 
before committees of that importance.
    Mr. Wolf. You are doing a great job. You can testify in 
front of me any time.
    Ms. Jones. Project Action is an activity within the Easter 
Seal Society, and before Project Action, there were no answers 
to the questions that people with disabilities had about public 
transportation. Project Action created those answers.
    If I were a Member of this subcommittee, there would be 
questions that I would want to know, and we will be submitting 
a videotape to you that I would encourage you all to look at 
and listen to. And in that there are testimonials from people 
that have been involved in the demonstration products in the 
past years. And if I might quote from that video some of the 
things, the question that I would want to know as a Member of 
this subcommittee would be, what are you doing as a 
subcommittee to help these people with disabilities?
    And if I might just name a few of those things that I 
learned from watching that video, as a Member of this 
subcommittee, you will be helping--in support of Project 
Action, you will be helping people with disabilities in going 
forward--and, again, these are quotes from that video--you will 
be helping people with disabilities have the same shot as other 
people. And by that I mean, being able to find a job, being 
able to contribute to the function of society, and being able 
to pay their taxes and be part of the mainstream.
    In support of Project Action, you will be able to 
contribute to the growing independence of people with 
disabilities and their sense of dignity. You will be able to 
promote accessibility to people with disabilities and enable 
them to go any place they want to go. We are not--saying these 
quotes--if I might mention to us, I have an understanding of 
the other side because I lived for 20 years without a 
disability, so I understand some of the questions that may come 
from people who have never lived with a disability, and I can 
see both sides of that. So that is why I would want to know 
what questions you would ask. And I think, in saying that, none 
of us here would take $2 million for the rest of our life and 
have any of these things taken away from us, where it deals 
with transportation. With that point, I am trying to stress the 
importance of public transportation to the disabled community.
    You are giving them one step of independence they did not 
have before, and you are being able to boost their self-esteem.
    Project Action's progress in the past is one of the reasons 
why we have seen society move toward the trend of a positive 
stereotype instead of a negative stereotype. In the past, we 
were used to people with disabilities being portrayed in a 
negative stereotype; and today the trend, because of forces 
like the subcommittee here, people with disabilities are being 
portrayed as forceful, powerful and positive and very 
influential. And, in turn, that is creating independence, 
equality and dignity for the disabled community.
    The impact of the decisions made by this committee alone 
are very prevalent in today's society, and for that I 
personally thank you. And when I was talking earlier about 
Project Action, how there were no answers to the questions that 
we had, and in talking about reviewing the tape, we are here 
today to ask you for $2 million to continue the work of Project 
Action as a result of the demonstration projects.
    In those demonstration projects, which will be explained in 
that video, we are at a point now where we have to move forward 
beyond the demonstration projects. And that is why we are here 
today to ask you that, and also to thank you for the support 
that you have given us in the past and to let you know that the 
impact of the decisions from this committee has had a great 
influence on the Nation, and we hope it will continue to do so. 
And Ms. Nancy Smith is here with me to entertain any questions 
you might have.
    Mr. Wolf. Thank you very much, Beverly. We appreciate your 
testimony very much.
    Mr. Sabo.
    Mr. Sabo. No. Thank you.
    Mr. Wolf. Mr. Torres.
    Mr. Torres. No questions, Mr. Chairman.
    Mr. Wolf. Mr. Olver.
    Thank you. We look forward to getting the video. Thank you 
very much.
    [The prepared statement of Beverly Jones follows:]

[Pages 371 - 399--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

        SOUTH BEND, INDIANA, INTERMODAL TRANSPORTATION FACILITY

                               WITNESSES

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
GEORGE NICHOLAS, CHAIRMAN OF THE BOARD

    Mr. Wolf. Congressman Roemer and the Mayor of South Bend. 
Welcome, gentlemen.
    Mr. Roemer. I would like to ask that my entire statement be 
entered in the record. Thank you.
    I would first of all like to start off with good news and 
bad news. The good news is that this will probably be the last 
time that you will have to see me testify on this particular 
project because you have been so supportive of our requests in 
the past. You won't have my face or anybody else from South 
Bend bugging you for more appropriations.
    We are very grateful for your past support. Three times we 
have been before this committee, and you have supported those 
three requests. We are now here for the final request for $4 
million to complete this very important project.
    With me, a number of significant and very important people 
from South Bend. The Mayor could not be here today due to a 
scheduling problem, but George Nicholas, the Chairman of the 
Board of Transport, is here in the audience. We also have the 
General Manager, Mary McLean, and John Ladinski, a Board 
Member.
    Mr. Chairman, Mr. Sabo, Members of the committee, as you 
know, we initially came to you 4 years ago and had a request, 
and you said that if you could shave more money off this 
request, you would have more ability to get the funding. We 
shaved $4 million from the initial request.
    You also asked us to have more of a local and State match. 
We have come up with a 70 percent local and State match. We 
have done everything you have asked in terms of those requests. 
Furthermore, I think what is highly significant about this 
project is, when we started 4 years ago, this was an area of 
South Bend, my hometown, which was dangerous, which did not 
have many small businesses and where the prospects for 
development were bleak at best. Today we have a host of new 
businesses being attracted into the area because of the TRANSPO 
project. We have two new construction projects under way, and a 
third, a new ivy tech facility, on the drawing blueprints; and 
we are delighted to say that the generosity of this committee 
has contributed toward bringing back one of the toughest parts 
of South Bend.
    And, again, we are here for the last time, hopefully, if we 
are granted the 4 million request. This will complete the job, 
and I therefore introduce George Nicholas to make his 
presentation as well.
    Mr. Nicholas. All I have to say, sir, is the fact that we 
have come back each time and we have never asked for more than 
what we started out with. We have not inflated anything. We 
have kept to our guns from Day One. The thing is moving along 
great. The trailers are sitting on the site, the materials have 
been ordered, some ground has been broken, and we are ready to 
go and really take off when the good weather comes.
    But they are getting into it, and I guess we feel that if 
it was a good project 3 or 4 years ago, it is a fantastic 
project now, and all we want to do is finish is off. And it 
will be something to really serve the community well. We thank 
you for all your past----
    Mr. Wolf. Mr. Roemer has been a very effective advocate. I 
guess we could give you $1 million and keep coming back----
    Mr. Nicholas. If you want to get rid of us, you have to go 
deeper.
    Mr. Wolf. Mr. Roemer has made a very persuasive case. We 
appreciate it. I have no questions.
    Mr. Roemer. Thank you, Mr. Chairman.
    Thank you, Mr. Sabo.
    Mr. Wolf. Thank you very much. If you want to submit a 
statement, we will put it in the record as read.
    Mr. Nicholas. I will tell them I was almost mayor.
    Mr. Wolf. Thanks again.
    [The prepared statement of Hon. Tim Roemer follows:]

[Pages 402 - 419--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

           REGIONAL TRANSPORTATION DISTRICT, DENVER, COLORADO

                                WITNESS

HON. DIANA DeGETTE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO

    Mr. Wolf. Congresswoman DeGette and the Regional 
Transportation District. Welcome to the Committee.
    Ms. DeGette. Good afternoon, Mr. Chairman and Mr. Sabo. I 
am looking forward to this being the first of, I hope, many 
productive sessions with this committee.
    I am here today to talk with you for a few minutes about 
the next leg of the light rail system of the Regional 
Transportation District that basically covers the Front Range 
in Colorado. Part of this new project, the Southwest Corridor, 
is in my district; part of it is in Congressman Dan Schaffer's 
district.
    Mr. Chairman, the Southwest Corridor expansion enjoys 
broad-based support from community groups, local businesses, 
and the residents of the Southwest Rapid Transit Corridor. A 
recent public opinion survey that was taken shows overwhelming 
support for this extension, and I may say, Mr. Chairman, that 
the current construction that we have on the light rail, the 
first leg of which has been built, also has been extremely 
successful.
    I have provided the committee with maps, and I hope you 
have all received the maps of the Southwest Corridor expansion 
which is proposed. You can see that this is quite a lengthy 
expansion, and it will cover a number of areas where businesses 
expect to expand because of the light rail. Let me just 
highlight a couple of them.
    Miller Development Company is redeveloping a 53-acre 
regional shopping center right off of the light rail expansion, 
based on the concept that the line will be expanded. U.S. West 
Telecommunications located a 4,000-employee facility right next 
to where the Southwest Light Rail expansion will be located.
    Other businesses, such as Arapahoe County Community 
College, are going to locate facilities near this expansion. 
And finally I would say, in terms of pollution issues that we 
have been facing in the Front Range--along Denver's Front Range 
and up to Fort Collins, down to the Springs, the light rail is 
helping substantially in reducing the pollution.
    The $41.5 million request that we are making here is simply 
funding the project that has already been approved 
congressionally, and we really need this money to move forward 
with this construction. I will also say, from my perspective, I 
believe that the Regional Transportation District board is 
working closely together to make sure that all of the projects 
are adequately planned for and funded.
    I don't think I will go on. You have my prepared remarks. I 
would just like to make one brief point on some testimony you 
are going to be hearing in a moment.
    I would like to thank the Chairman's request for 
accommodating Mayor Wellington Webb's request that his chief of 
staff, Stephanie Foote, come today and testify about Denver's 
request for--our perennial request for our sixth runway. As you 
know, the Mayor is at home recovering from successful cancer 
surgery and could not be with us today. I would hope that you 
would give Ms. Foote all due consideration.
    I know this has been an issue in front of this committee 
before, particularly with respect to the noise issues. I will 
say, as a new Member of Congress from Denver, I am very 
concerned about the noise issues as well. I have met with the 
city and talked with them about the need to deal with the 
issues, and I think there is some interesting data coming out 
which should help this committee feel secure that the city is 
beginning to realize that they need to deal with these noise 
issues.
    I hope you will give Stephanie Foote all due consideration, 
and with that, I will submit my remarks.
    Mr. Wolf. Mr. Sabo.
    Mr. Torres.
    Mr. Torres. No questions.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Hon. Diana DeGette:]

[Pages 422 - 425--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

   LOS ANGELES COUNTY METROPOLITAN TRANSPORTATION AUTHORITY (LACMTA)

                               WITNESSES

HON. JULIAN DIXON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
LINDA BOHLINGER, INTERIM CEO, LACMTA

    Mr. Wolf. Mr. Dixon.
    Mr. Dixon. Thank you very much, Mr. Chairman and Members. I 
will be very brief.
    My appearance here this afternoon is basically to support 
the $100 million request for the next fiscal year and the $10 
million for the advanced technology bus, and to introduce to 
you Linda Bohlinger, who is the interim CEO of the Metropolitan 
Transit Authority. She comes with 20 years experience and has 
served as the deputy CEO for the past 2 years.
    Linda.
    Ms. Bohlinger. Thank you.
    I would like to highlight three areas of my testimony, and 
I would like to submit this to the record. You have copies.
    I want to highlight that MTA is moving on, and I want to 
outline our four key areas and close with why you should invest 
in L.A.
    Let me highlight two areas that shows the MTA board and 
agencies moving on. First, we adopted a rail recovery plan in 
January that sets up new expectations in a solid financial 
foundation for our rail program.
    Secondly, as interim CEO, appointed effective February 1, 
ISTEA is one of my goals for moving this agency forward in the 
next 6 months to a year. So Federal participation is very 
important in our program. Let me outline the four key areas 
that are in my testimony. First is Metro Red Line; second, the 
Advanced Technology Transit Bus; third is formula funds; and 
fourth is regulatory relief.
    Three reasons why Red Line should receive an earmark. We 
are requesting $100 million. First, we have lowered 
expectations. We had $180 million in our full funding grant 
agreement. We are now requesting $100 million, consistent with 
our rail recovery program. We are recognizing also tight 
Federal dollars.
    MTA's rail recovery plan was adopted in January, as I 
mentioned. Also, this is submitted with the President's budget.
    My second area is ATTB, the Advanced Technology Transit 
Bus. This is a key defense reinvestment project which uses 
lightweight materials as used in the B2 stealth bomber. It 
also, as a national project, has a coalition in many areas 
around the Nation. This is a $10 million request and continues 
the Federal investment in this project.
    The formula grant program: We are asking for the highest 
amount available. This is a request that reflects our regional 
county-wide role where we fund 16 other municipal operators, 
including the MTA.
    Finally, regulatory relief. We would like to lower the cost 
of urban transportation and urban transit costs and regulatory 
relief is one way we can do that.
    Why invest in L.A.? We are the largest public works project 
in the Nation, and we are an economic engine. Last year alone, 
we generated 15,000 jobs in our metrorail project construction, 
and we also transport 1.1 million passengers a day on our bus 
system and rail program.
    Finally, investment in L.A. Transit makes social and 
economic sense, and I urge you to support our request for 
funding this year.
    Thank you.
    [The prepared statements of Hon Julian Dixon and Linda 
Bohlinger follow:]

[Pages 428 - 458--The official Committee record contains additional material here.]


    Mr. Wolf. I thank you very much. I appreciate your taking 
the time. We will give it careful consideration.
    It has been obviously a controversial subject both here and 
out there. I don't know the area well, and I don't have any 
right to tell you what you ought to be doing, but I just wonder 
if, looking at maybe more of what Houston has done with regard 
to the busway, wouldn't it be more productive, particularly 
when you look at the cost delays and the overruns?
    But again, that is not for me to say, because I don't live 
there and I don't have any right to tell you what you ought to 
do. But I think you have a serious transportation problem, and 
Mr. Dixon and I have talked about it and tried to be as 
sympathetic as possible.
    Clearly, in L.A., you have congestion problems; we do here; 
and I think mass transit is very helpful. But I wonder if 
somebody hasn't looked at doing what Houston has done on the 
busway and doing some of these things which I think get you 
perhaps much more support at the national level and has a 
greater impact for all economic levels and areas. Just a 
thought. I don't know if they have the right answer or not, but 
I throw that out.
    Ms. Bohlinger. Let me respond. We are looking at transit 
ways and plan to build over 400 miles of what we are calling 
HOV lanes around the county. We are looking beyond the projects 
we have in our construction for subways. Our next extensions, 
we are looking at both subway and at grade as well as busway 
options. We are really looking from scratch and trying to come 
out of the ground as soon as possible and look at the high-
occupancy-vehicle lane alternative as well.
    Mr. Wolf. Thank you.
    Mr. Sabo.
    Mr. Sabo. Nothing.
    Mr. Wolf. Mr. Torres.
    Mr. Torres. Yes, Mr. Chairman. Thank you.
    Good afternoon, Ms. Bohlinger. It is good to have you here 
with us. I am pleased you could join with us and give us an 
idea of why we should invest in L.A.
    As you know, Mr. Chairman, and you pointed this out, the 
L.A. County Metropolitan Transit Authority--the MTA--is 
responsible for developing and coordinating the transportation 
systems throughout the entire county.
    Since most of my congressional district lies within the 
boundaries of Los Angeles County, I have a special interest in 
your request. As you have already mentioned, I would like to 
express my strong support for the MTA Stealth Bus Program. This 
program is a national model for dual-use military technology 
which I believe should be implemented throughoutthe country.
    I do, however, want to say I have serious concerns about 
the direction the MTA is headed with its rail program. The 
chairman kind of alluded to this.
    I don't want to take up the committee's time with this 
issue. Simply, I would like to submit written questions to Ms. 
Bohlinger for the record, and I would say that unless these 
issues that I am concerned about are resolved, I would be 
forced to oppose the MTA's rail program or request.
    With the Chairman's indulgence, I would also ask that I 
might submit for the record additional questions for Ms. 
Bohlinger that have been requested of me on behalf of my 
colleague, Mr. Becerra, who represents the part of the county 
that is affected by MTA. And that would be the end of my 
statement, Mr. Chairman.
    Mr. Wolf. Without objection. But I appreciate your taking 
the time.
    Mr. Olver.
    Mr. Dixon. Mr. Chairman, if I could be heard briefly on the 
issue that Mr. Torres addressed, as you are probably well 
aware, Mr. Torres and I work very closely together on a great 
deal of issues, and it is true that Ms. Bohlinger not only 
talked about the $100 million request, but went further and 
talked about ISTEA.
    I have not read the Washington Post story, but I am very 
familiar with the issue that Los Angeles has played out well in 
the paper. The good news is that it seemed to be that the MTA 
board was enthusiastically supporting who would get what as 
related to rail.
    The issue, put very succinctly, is that one segment of our 
county, which is characterized as the Valley, has one idea as 
to what the priorities are and the East Side has another idea 
as to what the priorities are. I am very hopeful that Mr. 
Torres and I can work that out.
    But, Mr. Torres, the fact of the matter is that the $100 
million that you are talking about goes to the first segment of 
what you ultimately want to get to, and I am told that, of the 
$100 million, $38 million would go for the first segment of the 
East Side extension. The total amount for 1997 is $120 million.
    So I would hope that you would not oppose building and 
providing Federal funds for this first segment, for without 
that, we can never get to the second segment and ever resolve 
the issue that you are talking about. But I pledge to work with 
you to try to bring some sanity to what appears to be some 
chaos at the moment.
    Mr. Torres. If the Chairman would indulge me, I appreciate 
my colleague's comments and his willingness to work together 
with me to that degree. I shall do that on behalf of the 
greater good for L.A. County and the MTA.
    Thank you.
    Mr. Dixon. Thank you.
    Mr. Wolf. Thank you very much. We appreciate your 
testimony.
    [Questions from Hon. Esteban Torres and LAMTC responses 
follow:]

[Pages 461 - 488--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

                       DALLAS AREA RAPID TRANSIT

                                WITNESS

HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF TEXAS

    Mr. Wolf. Congresswoman Johnson, your full statement will 
be in the record, as read.
    Ms. Eddie Bernice Johnson of Texas. To Chairman Wolf and 
Mr. Sabo and other distinguished Members of the Committee, we 
are going to be submitting testimony of the Chairman of the 
Dallas DART board.
    The Dallas Area Rapid Transit, DART in short, is requesting 
an appropriation of $28 million to continue delivering on the 
promise to improve the mobility of the Dallas region.
    Of course, in past months DART rewrote the local 
transportation history by opening the first 11.2 miles of the 
20-mile light rail system, the Starter System, on June 14, 
1996, and this was followed by the 6-mile North Central Light 
Transit Line to Park Lane on January 10. The third historical 
footnote came December 30 when the first commuter rail system 
service, the Trinity Railway Express, opened between Dallas and 
Irving.
    The citizens really have responded very well--as a matter 
of fact, very positively. We are averaging 30,000 riders per 
weekday, which closely matches the projection of 31,100 after 1 
year, and it has been much less than that.
    Equally important is the heightened business interest in 
developing near the DART rail lines and services, and the Light 
Rail Starter System is really a great start. We plan for the 
next two light rail transit extensions to be constructed 
simultaneously, giving the North Central Light Rail Transit 
Corridor, the North Dallas, running through Dallas with Federal 
funds and Northeast Corridor extends from Dallas to Garland, 
which is 100 percent DART funds.
    These lines, in combination with the future Pleasant Grove 
and Stemmons Rail Line, make up DART's program of rail projects 
for inclusion in the reauthorization of ISTEA.
    The program of rail projects continues to substantially 
overmatch the Federal funds initiated on the South Oak Cliff 
portion of the Starter System, and overall, a modest 35 
percent, $312 million, Federal participation is being requested 
for authorization.
    DART is providing the $580 million local match of the 
combined amount of $892 million cost of the program of rail 
projects.
    The fiscal year 1998 appropriation request is $28 million 
and will be used for light rail vehicles, construction, and 
real estate. We can submit a more detailed statement.
    I thank you very much for this time, Mr. Chairman and 
Members.
    Mr. Wolf. Thank you very much.
    Mr. Sabo.
    Mr. Foglietta.
    Mr. Torres.
    Mr. Olver.
    Mr. Torres. No questions.
    Mr. Wolf. Thank you very much for taking the time.
    [The prepared statement of Hon. Eddie Bernice Johnson 
follows:]

[Pages 491 - 514--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

       SOUTHEASTERN PENNSYLVANIA TRANSPORTATION AUTHORITY (SEPTA)

                               WITNESSES

JOHN K. LEARY, JR., GENERAL MANAGER, SEPTA
TOM HAYWARD, CHAIRMAN OF THE BOARD, SEPTA

    Mr. Wolf. Southeastern Pennsylvania Transportation 
Authority, SEPTA, in the great City of Brotherly Love. Mr. 
Foglietta would like to introduce you. Welcome.
    Mr. Foglietta. I look at the lineup of Members, and I would 
like to call a vote on something.
    Mr. Torres. How about your confirmation?
    Mr. Foglietta. I am happy to have the opportunity, Mr. 
Chairman, today to introduce a man who is quite familiar to the 
subcommittee here, although sometimes on a different coast. 
Jack Leary is the man who is filling the tremendously large 
shoes left behind by his predecessor, our friend Lou Gambacini, 
at the helm of SEPTA. As we all know, Lou Gambacini was one of 
the most respected members of the people who advocate mass 
transportation in the entire United States and was well 
respected by the members of this committee. Lou recently 
retired, but Lou will always be remembered in this committee 
and in Washington as one of the leading and most eloquent 
advocates of mass transportation.
    Also with him is Tom Hayward, who is the chairman of the 
SEPTA's board. We welcome the two of them here today.
    Jack formerly was at the helm, as we all know, of the Bi-
State Development Agency in St. Louis, where he was successful 
in developing a transit system that was known for being well 
run and fiscally sound. I know he will be able to build on 
Lou's successes at SEPTA, and we hope very sincerely that you 
can do that, and we will support you in that.
    I look forward to working with you, Jack, and to help you 
secure those resources we need from this subcommittee and also 
on the reauthorization process. I look forward to hearing your 
views today.
    What I am very interested in is, Something that puts me 
sort on the horns of a dilemma. I am probably one of the 
strongest supporters of administration policies. However, in 
the administration's budget request for mass transportation, 
there is a proposal to eliminate mass transit operating 
assistance from the large transit systems like SEPTA.
    That puts me in a difficult position: Being an advocate of 
mass transportation, being a strong supporter of SEPTA; on the 
other hand, wanting to go along with what the administration is 
trying to do as far as balancing the budget is concerned and 
cutting back on programs that the administration believes we 
can do without.
    So in your position, as the expert in this field, I would 
like to hear your opinion as to how you are going to manage 
working SEPTA with the proposed cutbacks in the mass 
transportation operating assistance. A tough question, but I 
know you will have a good answer.
    Mr. Wolf. I want to welcome you to the Committee.
    Mr. Foglietta. I agree 100 percent, and I want you to know 
that the Chairman is a former resident of southwest 
Philadelphia, whose father was my brother's partner on the 
Philadelphia force. The one thing he learned to do before 
moving down to Virginia to become the Representative from 
Virginia was that he was able to learn to read a newspaper 
standing on the subway.
    Mr. Wolf. I agree with what Mr. Foglietta had to say. He is 
a good advocate for mass transit, not only on behalf of SEPTA 
but, frankly, around the country. But welcome to the committee.
    Mr. Leary. Thank you, Mr. Chairman. I know I have very big 
shoes to fill in Philadelphia. It is a great city, and I am 
looking forward to it. Thank you for those very, very nice 
comments, and members of the subcommittee.
    We were told that the longer we speak the less help we can 
expect from this committee, so I want to assure you I will be 
very, very brief. I have submitted a more detailed statement 
and in just a few minutes will highlight key issues.
    With that, I am accompanied by board chairman, Tom Hayward, 
who has tirelessly served our transportation region since 1983. 
So I would like to ask Tom if he would begin our presentation.
    Mr. Hayward. Thank you, Mr. Chairman, for the opportunity 
to appear here today with Mr. Leary.
    I simply want to impress upon this subcommittee the 
critical importance of Federal support not just of SEPTA but to 
the entire greater Philadelphia region and the Commonwealth of 
Pennsylvania. Our million customers a day depend on SEPTA to 
get to work and other daily activities. Our region is only as 
strong as our transit system.
    The SEPTA board, whose members represent every community in 
the greater Philadelphia area as well as the interest of the 
Commonwealth, see SEPTA's service as a key to our region's 
economic vitality. The SEPTA board is working closely with 
Governor Tom Ridge, one of the first governors to openly 
endorse ISTEA reauthorization and the entire Pennsylvania 
congressional delegation to ensure that SEPTA remains viable 
and continues to provide the economic development adrenaline so 
vital to the general welfare of the southeastern Pennsylvania 
region.
    Your diligence and support is greatly appreciated as you go 
about the business of molding the 1998 transportation 
appropriations bill. I would like to give special thanks to our 
Congressman from Philadelphia, Tom Foglietta, for his past 
support, particularly under the section 3 discretionary 
business program.
    I thank you again for the opportunity to appear here today; 
and now Mr. Leary, our General Manager, will provide more 
detail on SEPTA's position on the Federal transportation.
    Mr. Foglietta. I thank you for the kind remarks.
    What is the status of the proposed gasoline tax in 
Pennsylvania and what is the probability or possibility that 
part of that will go to mass transit?
    Mr. Hayward. I think because the prohibition--
constitutionality prohibition against the use of the gas tax 
for mass transportation sort of makes that unlikely to happen, 
but----
    Mr. Foglietta. Is there a way around that?
    Mr. Hayward. There are ways that we are working with the 
current administration. Mr. Leary has been directly involved 
with that process, and hopefully it is moving in the right 
direction.
    Mr. Foglietta. Thank you.
    Mr. Leary. Thank you, Mr. Chairman. As I indicated, I have 
submitted a more detailed testimony to you and just this 
afternoon would like to highlight a few key policy issues that 
impact us.
    We in Philadelphia like the ISTEA legislation. ISTEA works 
for the citizens of our region. We hope there will be no 
dramatic wholesale changes in ISTEA's goals, philosophy or 
structure. We believe strongly in ISTEA's purpose of providing 
flexibility and having transportation decisions made locally.
    The administration's fiscal year 1998 transit budget 
recommendations are problematic for properties such as SEPTA. 
The administration recommends eliminating the bus tier from the 
section 3 discretionary capital program. SEPTA received $13 
million in support of this program last year to help us meet 
our requirements under the Clean Air Act, the Americans with 
Disabilities Act; and we want you to know we do favor the 
retention of the bus program in section 3.
    The administration would also merge rail modernization into 
the capital formula program, leaving only the new starts 
program as a discretionary program. The administration budget 
calls for cuts in both programs from $760 million to $634 
million. SEPTA supports retain the current section 3.4 minimum 
funding level with the 40 percent, 40 percent, 20 percent split 
among new starts, rail modernization and bus-related programs.
    And as Congressman--as you indicated, the administration 
also proposes again to eliminate operating assistance from all 
the smallest transit companies, with coinciding changes in the 
definition of capital expenditures. We do not favor those cuts 
in operating assistance as they would cost us $12.5 million in 
a year. This would add a tremendous strain on an already 
troubled and old transit property that many, many people every 
day depend upon.
    If reductions are made, we would urge that the formula 
program itself not be reduced. Because if that happens we lose 
both in the operating and the capital assistance.
    The ISTEA renewal year should be a year for a bold new 
vision and bold plans to meet present and future needs. The 
administration budget is a hold-the-line proposition and cannot 
meet the emerging needs and meet Federal mandates with a hold-
the-line budget. Deferring much-needed rehabilitation and 
maintenance will eventually cost more than meeting needs as 
they emerge.
    With that, Mr. Chairman and members, I would like to thank 
you for the opportunity to present our views. We will make 
ourselves available for any additional information you might 
need.
    Mr. Wolf. I thank you very much.
    [The prepared statement of John Leary follows:]

[Pages 518 - 520--The official Committee record contains additional material here.]


    Mr. Wolf. Mr. Foglietta, any questions?
    Mr. Foglietta. The same question I asked before. What is 
the possibility that something can be worked out to achieve the 
passage of the gasoline tax. By the way, there was a meeting 
with Governor Ridge today, and I couldn't make the meeting 
because I was going to be at this meeting. But what is the 
possibility that there is some way that we can circumvent the 
prohibition so we can get money for mass transportation in the 
event such a tax is passed?
    Mr. Leary. What they have done is combined a sales tax 
proposal with a gasoline tax proposal for the highway 
construction and highway programs, and it is looking right 
now--the administration has proposed a multimodal 
transportation package. They will be submitting it to the 
general assembly in the next couple of weeks.
    They have advised us that they are going to pursue it very 
aggressively. The environment looks very positive at the 
moment, and we are very hopeful and are working very hard to 
support both the gasoline tax for highway programs and the 
sales tax for the transit programs.
    Again, we are very much encouraged.
    Mr. Foglietta. As I understand it, as you said, the smaller 
cities would have the authority to transfer capital funds for 
operating expense.
    Mr. Leary. I believe the administration is proposing it for 
all transit properties as a way of mitigating the impact of any 
loss in Federal operating assistance. We have not seen the 
details so I am not in a position to indicate whether or not 
that will work, but we are hopeful.
    Mr. Foglietta. The information we have is only for a 
200,000 population.
    Mr. Leary. I am disappointed to hear that. That is very 
troubling.
    Mr. Foglietta. We support an amendment.
    Mr. Leary. It be expanded to all transit systems. Yes, I 
think that is very important.
    Mr. Foglietta. Thank you very much.
    Mr. Wolf. Mr. Sabo?
    We have no further questions. Thank you for taking the time 
to appear before the committee.
                              ----------                              

                                        Tuesday, February 25, 1997.

                       CITY AND COUNTY OF DENVER

                               WITNESSES

STEPHANIE FOOTE, CHIEF OF STAFF, OFFICE OF MAYOR WELLINGTON E. WEBB
RAYMOND L. FRIEDLOB, COUNSEL
    Mr. Wolf. The last witness is Stephanie Foote, Chief of 
Staff, City and County of Denver.
    Ms. Foote. Good afternoon, Mr. Chairman and members of the 
Committee. I am Stephanie Foote. I am Chief of Staff to Mayor 
Wellington Webb of Denver, Colorado.
    This is counsel to the city Ray Friedlob of Friedlob, 
Sanderson and Raskin.
    Mr. Chairman, I would like to begin today by saying that we 
have submitted to you written testimony which I think I will 
have distributed to you which has a lot of detail in it.
    Mr. Wolf. Your full testimony will be in the record.
    Ms. Foote. Thank you very much.
    I would like to tell you a little bit about myself. I have 
been Chief of Staff to the Mayor of Denver for the past 4 
years. Prior to that, I was on the Denver City Council for 10 
years and was intimately involved with this airport, Denver 
International Airport, from the beginning. The funding is very 
important to Denver, to the State of Colorado, to our economy, 
as is the airport in your district, Dulles.
    I would like to say further that I really appreciate the 
opportunity to be here today and to speak before the committee 
and specifically to you. I want to say that I am here not 
asking for money, and I want everyone to know that. Clearly, 
what I am asking for is that Denver International Airport have 
the prohibition lifted from the legislation that has been 
passed for the last number of years which prohibits us from 
applying for any funding from the FAA for any improvements and 
an additional runway at Denver International Airport.
    We are not asking for any special preference. We are asking 
to be treated as every other airport in the United States. We 
have already invested nearly $15 million in the preliminary 
design, engineering and the grading work of this runway; and we 
are at a point if we are again prohibited from applying for 
funds, the costs will start to increase.
    I understand that there have been concerns about alleged 
wrongdoing in the construction of this airport, and I would 
like to read a quote to you from our local Denver paper over 
the weekend.
    As you may be aware, this Friday, February 28th, is the 2-
year anniversary of the operation of Denver International 
Airport; and the quote is: Perhaps the most astounding 
denouement of wrongdoing in the construction of DIA. Two years 
after the opening wraps up, the insurance broker who was 
accused of issuing a fake insurance policy for a 
subcontractor--it is beginning to appear Denver built a $5 
million public works project without anyone ripping off the 
city. End quote.
    Mr. Chairman, we would like to work with you and this 
subcommittee on this issue. Further, I would like to extend the 
Mayor's invitation to you personally at this hearing to please 
come out and tour our airport, see the airport, ask questions 
of all of our airport personnel and really begin to feel what 
we feel about this airport and how important it is to us, the 
citizens of the County and City of Denver and State of 
Colorado.
    Finally, I would like to respectfully request that in this 
legislative year that the prohibition language be lifted. Thank 
you.
    Mr. Wolf. I appreciate your coming.
    Mr. Sabo.
    Mr. Sabo. No questions.
    Mr. Wolf. Mr. Foglietta?
    Thank you very much for coming. I appreciate it.
    [The prepared statement of Stephanie Foote follows:]

[Pages 524 - 531--The official Committee record contains additional material here.]


                                        Tuesday, February 25, 1997.

                           NEW JERSEY ISSUES

                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY

    Mr. Sabo. The more you say, the more negative we are going 
to get.
    Mr. Pallone. Don't worry. I will say very little.
    Thank you. I have a statement that I would submit for the 
record.
    Mr. Wolf. It will appear as read.
    Mr. Pallone. I will summarize.
    Mr. Chairman and Mr. Sabo, I want to thank you for the 
opportunity--Mr. Foglietta.
    Two things, basically. One is with regard to the Belford 
Ferry Project in my district, which establishes a ferry service 
in the Belford section of Middletown in order to provide 
additional ferry service to Manhattan. I think it is a waste of 
taxpayers' money. We already have one that exists in Atlantic 
Highlands, which is not more than three miles east of the 
proposed ferry project. It is unnecessary and destroys 
wetlands. It would be a safety hazard to the commercial 
fishermen in the area.
    Last year you put in some language that basically 
prohibited the appropriation of any Federal funds for the 
permanent design and construction of this new ferry. I would 
again submit that we prohibit the use of any Department of 
Transportation funds, including Federal Highway Administration 
ISTEA funds in particular, for any activities, including road 
work relating to the permanent design, construction and 
operation of a ferry terminal.
    You probably don't get too many requests to prohibit 
funding, but this is one that is very important to me, and I 
think it makes sense in light of scarce resources.
    The other thing I want to talk about is pipeline safety. 
The Chairman, in particular, has been very helpful in 
understanding about the need to provide adequate funding for 
pipeline safety.
    You know, my district had the explosion a few years ago 
where, thankfully, only one person was killed; but there could 
have been a lot more. This year I understand that the President 
has requested $32 million for ongoing existing programs. That 
is a little better than last year.
    I fully support that; and I hope that this subcommittee 
will also support it, particularly now that we have this new 
demonstration program, which I did not support, with this new 
risk assessment procedure. I am concerned that there is even 
more of a need to adequately fund OPS to make sure that things 
go properly.
    You also included $1 million last year for grants, 
specifically for the one-call program which I think is real 
crucial. I am asking that you do that again this year because 
that has been very helpful to various States in establishing 
one-call programs. I believe if we had the one-call program and 
it had worked, we wouldn't have had the explosion. That is why 
I keep pushing for that.
    Mr. Wolf. Also the one in my district would not have taken 
place. Appreciate that very much.
    Mr. Sabo.
    Mr. Foglietta?
    Thank you very much.
    [The prepared statement of Hon. Frank Pallone follows:]

[Pages 534 - 536--The official Committee record contains additional material here.]


    Mr. Wolf. The hearing is adjourned. We will meet tomorrow 
at 9:30.


                                      Wednesday, February 26, 1997.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              


                  FORT WORTH TRANSPORTATION AUTHORITY

                               WITNESSES

HON. MARTIN FROST, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
HON. KAY GRANGER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
JOHN P. BARTOSIEWICZ, GENERAL MANAGER, FORT WORTH TRANSPORTATION 
    AUTHORITY

                            Opening Remarks

    Mr. Wolf [presiding]. Good morning. We will begin. Do you 
want to wait for Mrs. Granger?
    Mr. Bartosiewicz. She says she's on her way, Mr. Wolf.
    Mr. Wolf. Well, let's see if there's anybody else here to 
testify. Mr. Mica is not here with Volusia County. Central 
Florida, they're not here either. Sonoma County?
    Mr. Kelley. Yes, I'm here.
    Mr. Wolf. But would you like to wait for Congresswoman 
Woolsey?
    Mr. Kelley. Yes.
    Mr. Wolf. Okay. Foothills? Pennsylvania Turnpike 
Commission? The rest have members here. We'll just wait another 
minute here.
    Mr. Wolf. When Ms. Granger comes in, we will then put her 
on, and even if we have to break in. Welcome to the Committee. 
If you can limit your statement to five minutes, your full 
statement will appear in the record as if read, and then after 
the administration or other witnesses testify, you're welcome 
to submit any other document. You can begin.
    Mr. Bartosiewicz. Thank you, Mr. Chairman.
    My name is John Bartosiewicz. I'm the general manager of 
the Ft. Worth Transportation Authority, and a full copy of the 
testimony is submitted in writing for the record. I'll try to 
summarize very briefly.
    I appreciate this chance to testify again before the 
committee regarding appropriation requests for two projects for 
the Ft. Worth Transportation Authority for fiscal year 1998. 
The first is a project you've been very supportive of in the 
past, and it's called the Railtran Intermodal Transportation 
Center Project. This project would construct a commuter 
railroad linking Ft. Worth and Dallas, including an intermodal 
transportation center in downtown Ft. Worth. This year our 
request for section 5309 funds is $17.9 million. This will 
fully finance the project. If we're allowed this funding this 
year, this will take this project off your list of projects to 
be funded and meet one of the committee's requirements of 
trying to get some of the projects that are small enough and 
have strong local commitment funded and off the list.
    Last year the Committee appropriated $15.1 million for this 
project, and it is encumbered and being spent. We are working 
hard to minimize the need for section 5309 funds. Since last 
year, since I testified last year, we've acquired an additional 
$19 million in congestion mitigation air quality funds at the 
local level, so that our request for 5309 funds only makes up 
32 percent of the total project budget. This is a good project, 
and as I said earlier, has received your support and past 
funding. We would suggest that it merits future further 
consideration.
    The final design is underway. Rolling stock is acquired. 
Construction will begin at the end of this year. The project is 
ready to go for a 1999 service initiation. In fact, the first 
phase of service linking Dallas to South Irving, a suburb in 
northwest Dallas County, began operation in December of this 
year with a private operator.
    Our cost per added rider remains at $8, and we still have 
the locally-dedicated transit sales tax in place to fund the 
full capital side with an overmatch, and also to fully fund the 
operating costs of the service.
    The second project we could ask, respectfully ask, you to 
consider for appropriations this year is a bus and power 
transit vehicle project. Over the next five years, we will be 
requesting a total of $8.5 million for this program. The Fiscal 
Year 1998 request is $2.1 million. Through it, we will acquire 
74 replacement and expansion vehicles to replace an aging 
fixed-route bus fleet and to expand and replace our power 
transit fleet.
    This project's been developed with a number of key 
attributes which we hope will make it attractive for committee 
funding. First, it has a 40 percent local match. Second, all 
the vehicles to be purchased will be alternatively-fueled, 
helping push that technology, that clean-burning technology. 
Thirdly, we will be using private enterprise extensively to 
operate service with these vehicles. The service to be 
operated, in fact, will be innovative in that it will be 
flexible and customer-responsive, using smaller vehicles in a 
very responsive mode, which we hope will also be occurring at 
lower cost. Finally, the project will help us meet our ADA 
power transit requirements.
    Again, Mr. Chairman, we thank you for this consideration. A 
full copy of the testimony is in the file, and I apologize we 
did this backwards, but Ms. Granger?
    Ms. Granger. Thank you. First of all, I apologize for being 
late.
    Mr. Wolf. Oh, that's okay. I know the traffic's been bad 
and everything else.
    Ms. Granger. Yes.
    Mr. Wolf. So we understand.
    Ms. Granger. Let me just add my support. This is an 
extremely important project. I've been involved with Railtran 
as mayor of Ft. Worth for five years before I ran for Congress. 
It's a very, very important project linking Ft. Worth and 
Dallas, both cities, to DFW Airport. It's a wonderful project, 
not only the transportation project, but also the renovation of 
the T&P Building, which is an historic building in the city of 
Ft. Worth, and the existing opportunities, business 
opportunities, there.
    The ``T,'' which we call the Transit Authority, is well-
run. John Bartosiewicz is one of the very best that we can work 
with, and I would certainly urge our support of this in 
Congress.
    Mr. Wolf. Well, I appreciate your both taking the time to 
come, and as I said, later on you're welcome to submit other 
statements after the administration testifies. Thank you very 
much.
    Mr. Bartosiewicz. Thank you for your consideration, Mr. 
Chairman.
    Mr. Wolf. Mr. Sabo? Excuse me, I forgot. Mr. Packard? Mr. 
Tiahrt? I apologize.
    Mr. Tiahrt. Mr. Chairman, I want to ask one brief question. 
Does the ``T'' run to Love Field?
    Mr. Bartosiewicz. No. Love Field is in Dallas County and is 
served by the Dallas Area Rapid Transit. We run the DFW 
International, but not to Love Field.
    Mr. Tiahrt. Okay, thank you.
    [The prepared statements of Hon. Martin Frost and John 
Bartosiewicz follow:]

[Pages 542 - 546--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

LYNX, CENTRAL FLORIDA REGIONAL TRANSPORTATION AUTHORITY, VOLUSIA COUNTY 
                        TRANSPORTATION AUTHORITY

                               WITNESSES

HON. JOHN L. MICA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
PAUL P. SKOUTELAS, EXECUTIVE DIRECTOR, LYNX, CENTRAL FLORIDA REGIONAL 
    TRANSPORTATION AUTHORITY
KENNETH R. FISCHER, DIRECTOR, VOLUSIA COUNTY TRANSPORTATION AUTHORITY

    Mr. Wolf. Mr. Mica?
    Mr. Mica. Yes.
    Mr. Wolf. Do you want to bring both of your witnesses up 
here, Mr. Mica?
    Mr. Mica. Would you like to come up, please?
    Mr. Wolf. Welcome to the Committee.
    Mr. Mica. Mr. Chairman, thank you, and I know your time is 
limited and you have many, many requests. First, I'd be remiss 
if I didn't congratulate you on the tremendous job you do. I 
see the pressure you're under. So many people have the same 
problems around the country with funding transportation. I 
appreciate your fairness to all of us, and particularly 
recognizing some of the problems we've had in central Florida. 
And we're back again, really in a continuum of requests for 
ongoing projects that you have so graciously supported in the 
past.
    And I just want to say one thing and then introduce these 
folks. We still have an incredible transportation problem. In 
the past, south Florida has gotten a great deal of attention, 
back in the eighties and even in the nineties. We need to 
continue that effort because we, as a Nation and a State, have 
made a great investment in that transportation infrastructure.
    But central Florida, as you know, is awakening. It's a huge 
metropolitan area. People who come in to visit from all over 
the country also have their No. 1 tourist destination in 
central Florida. We still have one interstate. We haven't 
completed our bypass. We will, thanks to some of your 
assistance. We're trying to deal, and our local folks have made 
tremendous contributions, including funding totally without 
Federal tax revenue, a bypass around Orlando which will soon be 
complete with part of the Federal interchange participation.
    But today I have with me two of the heroes of the local 
level who are working, one in the greater Orlando area and one 
from the area to the north, the Daytona Beach, Volusia County 
area. And I'd like to introduce and have them make very brief 
presentations: First, Paul Skoutelas, and Paul is the director 
of Lynx, and that's run by the Central Florida Regional 
Transportation Authority in its three counties: Orange, 
Seminole, and Oseola.
    Paul?
    Mr. Skoutelas. Mr. Chairman, good morning. Members of the 
committee, thank you for the opportunity to appear before you. 
I will be very, very brief.
    We appreciate the opportunity to come before you again. 
We've been here several times in prior years to talk about our 
priority project. It is still our top priority, and that is to 
construct a light rail system within the urban Orlando 
metropolitan area.
    Congressman Mica has articulated to you many times before, 
and I think we have as well, about the growing nature of our 
area. We have 1.4 million people. We serve a three-county 
population base. It is one of the rapidly-growing areas in the 
country. I think, as you know, it's also the No. 1 tourist 
destination, not only in the country, but the world. Forty 
million visitors come to central Florida each year to go to a 
number of attractions that we have. So we are trying to do what 
we can to play catch-up on infrastructure investment to provide 
alternatives not only for our resident base, but also for our 
tourists. And, of course, I think as you recognize, tourism is 
critical to the economy of central Florida, but also to the 
country. We showcase central Florida and America to 40 million 
visitors who are coming here, many of them, from overseas who 
are making their first impression of the United States and what 
we have to offer.
    What is unique about our project proposal are three things. 
No. 1, it has been led, the planning efforts have been led, by 
the State Department of Transportation. So oftentimes, as you 
well know, that is not the case; the transit agency is pushing 
the project and presenting it. In our case, the State DOT has 
been leading that planning effort.
    No. 2, they have funded all the planning and environmental 
work to this point 100 percent through the State. Secondly, 
they've already committed to the light rail effort 25 percent 
of the project cost, not to exceed a $400 million cap, and we 
think that's very significant in terms of, again, getting the 
State DOT to come to the table with not only a project they 
support, but one that they're willing to provide dollars for.
    And, thirdly, we have a very strong private sector interest 
and involvement in the project. As you well know, there are a 
number of larger entities in central Florida that are 
particularly interested in this kind of a project, Universal 
Studies being one, Sea World being another, and the tourist 
corridor and district in and of itself. We believe that as 
these negotiations continue over these next number of months 
that we're going to see a private sector contribution to this 
project of somewhere between 10 to 20 percent.
    So we believe that those three aspects somewhat make us 
unique as compared to other projects around the country. It's a 
good project. It's a project that we envision the first 25 
miles or so to be constructed would cost $800 million. We don't 
believe that we can do that all at one time, but we do believe 
that we need to start with a first segment that can be 
successful. We are right now in the draft environmental impact 
stage, and we will be completing that this calendar year. We 
then hope to move, with your support and others, into the final 
environmental impactanalysis and the engineering work. And we 
believe that we could be under construction by early 1999 with this 
first phase of the system.
    So, Mr. Chairman, it's those three aspects that we think 
are most noteworthy. We've got a very good project supported by 
the State and by the local officials in every respect, strong 
business involvement and participation, and we'd like to ask 
for your support, if you would, to help us move this project 
forward. We believe that it would be an excellent project for 
all parties concerned to point to as a very successful one. 
Again, it happens to be in a rapidly-growing area that can 
certainly use the transportation infrastructure investment that 
we so sorely lack.
    With that, I will conclude and thank you, and take any 
questions, if you have any.
    Mr. Wolf. Thank you very much.
    Mr. Mica. Mr. Chairman, now I'd like to recognize Ken 
Fischer, and Ken Fischer is the executive director of VOTRAN, 
Volusia County Transit.
    Mr. Fischer. Good morning, Mr. Chairman. I appreciate the 
opportunity to appear before you and also appreciate the 
efforts on our behalf previously that this committee has 
provided.
    Congressman Mica and Mr. Skoutelas have outlined the needs 
of central Florida very well and the impact of it being a 
worldwide destination. So I won't go into that, and be very 
brief.
    Daytona Beach--in Volusia County you have two urban areas, 
two distinct urban areas, one being the east side where the 
beaches are located and the southwest Volusia County area, 
which has become a bedroom community to Orlando. So we are 
impacted by the Lynx operations and what they're doing in the 
Orlando urban area.
    What we're seeking is your support to replace, continue the 
replacement of our bus fleet. We expanded services three years 
ago, and in doing so, we've stretched our bus fleet to the 
limit. And our buses are basically 14 years old and have 
600,000 miles on them. We managed to expand the service, but 
we've stretched the life of our buses. So we are requesting 18 
replacement buses, and that will bring our fleet up to date. It 
also will bring us into compliance with the ADA, and then our 
fleet will be 100 percent accessible, when we receive those 
buses.
    The Volusia County area is a little more rural than the 
Orlando area, so we've integrated our paratransit operations 
with our regular bus operations, and in doing so, we're trying 
to improve the communications between the vehicles. And so 
we're looking to implement an integrated fleet operations 
system and electronics system to help us with scheduling the 
services and the connections between our services, between the 
paratransit operations and the regular bus service. So we're 
asking for assistance to implement that project as well.
    One other comment I would offer the committee is, in 
looking at the buses, we're looking to create connections with 
the Lynx system, so some of the buses we're looking to replace 
will also help us create a commuter bus service from southwest 
Volusia into downtown Orlando, which will help alleviate some 
of the congestion on Interstate 4 as it continues to deal with 
the expanded traffic congestion due to the growth in the area.
    I appreciate appearing before you. Thank you.
    Mr. Wolf. Thank you very much.
    Is the private money a taxing district? Is that the way 
you're doing it?
    Mr. Skoutelas. Part of it is, but they're looking to 
contribute beyond the taxing district revenues toward the 
capital, and also the operations of the system.
    Mr. Wolf. Mr. Sabo? Mr. Packard?
    Mr. Packard. No questions, Mr. Chairman.
    Mr. Wolf. Mr. Tiahrt?
    Mr. Tiahrt. No, Mr. Chairman.
    Mr. Wolf. Mr. Pastor?
    Mr. Pastor. No, Mr. Chairman.
    Mr. Wolf. Thank you very much. We appreciate your all 
coming.
    Mr. Skoutelas. We thank you, Mr. Chairman.
    Mr. Mica. Thank you again.
    Mr. Fischer. Thank you.
    Mr. Mica. Thank you for the good job, too, you're doing on 
your problem on the parkway.
    Mr. Wolf. Thank you.
    Mr. Mica. We had a similar problem and lost lives, and I 
think what you're doing is very good.
    Mr. Wolf. Mr. Packard?
    Mr. Packard. You're going into the California segment, and 
I've got a hearing of my own starting in a few minutes. So if I 
leave during the California group, I want them to know that I'm 
not leaving because I don't want to hear them. [Laughter.]
    Mr. Wolf. I understand. Thank you, Ron.
    [The prepared statement of Paul Skoutelas follows:]

[Pages 551 - 563--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

                       SONOMA COUNTY, CALIFORNIA

                               WITNESSES

HON. LYNN C. WOOLSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
PAUL KELLEY, SONOMA COUNTY BOARD OF SUPERVISORS

    Mr. Wolf. Our next witness will be Sonoma County, 
Congresswoman Woolsey and Mr. Kelley. Welcome. Welcome to the 
Committee. Your full statement will appear in the record.
    Ms. Woolsey. Yes. Thank you, Mr. Chairman, and your 
committee. It's always an honor to be here, and I appreciate 
the opportunity to speak before the committee.
    I'm here today to express my support for Sonoma County's 
request for $12 million in Federal funds for five intermodal 
transportation facilities. A little bit later on, Supervisor 
Paul Kelley will go into the detail about it, and I'll 
introduce him to you before we leave the table.
    As you know, I represent Marin and Sonoma Counties, and 
these are the two counties directly north of San Francisco, 
across the Golden Gate Bridge. Much of our traffic problem is 
associated with commutes along U.S. Highway 101, within Marin 
and Sonoma Counties, between the two counties and across the 
Golden Gate Bridge into San Francisco. There's no single 
solution to this traffic problem, and it's a huge problem that 
plagues Highway 101. That's why I support a comprehensive 
solution, a solution that includes widening the highways, 
particularly in the most congested areas, retaining the option 
for future rail service, planning to prevent unwanted growth, 
and improving public transportation.
    I'm here today to express my strong, strong support for 
Sonoma County's intermodal transit project proposal because it 
is a step in the right direction for the long-term, 
comprehensive solution to our transportation problems in our 
area. Let me highlight the proposal.
    Five intermodal facilities will be centrally located in 
both my district, the 6th congressional district, and the first 
congressional district, represented by Frank Riggs. There will 
be two in my district, two in his, and one in a city that we 
share together, Santa Rosa.
    It is truly intermodal. The intermodal facilities will 
serve cars, public transit, bicycles, pedestrians, and make 
available future commuter rail. The facilities will promote 
ride-sharing, will promote the use of public transportation, 
and, consequently, will result in greater use of HOV lanes and 
the future use of the rail right-of-way.
    It's cost-effective. The initial $12 million in Federal 
investment will result in an overall economic benefit of nearly 
$8 million a year, so that it makes cost sense to all of us.
    So, in closing, this project is very important to the 
people of California's sixth and California's first 
congressional districts, and it enjoys the support of the 
community and both the Representatives in those communities.
    So now I would like to introduce to you Supervisor Paul 
Kelley, and I'd like him to be permitted to elaborate on the 
merits of this intermodal transportation project.
    Mr. Kelley. Well, thank you very much, and thanks, Mr. 
Chairman and members of the subcommittee, for allowing us to 
testify. It is a great honor to be here with Congresswoman Lynn 
Woolsey and have the support of Congressman Riggs.
    I have the opportunity to be the only supervisor in our 
county that also has the two congressional districts within his 
seat, and we do appreciate the help that these fine Members do 
give us in response to needs of Sonoma County.
    As you are aware, Sonoma County is located along the 
Pacific Coast 60 miles north of the Golden Gate Bridge. U.S. 
Highway 101 is running all the way through the county. It also 
is considered many times the main street of Sonoma County. We 
are in the heart of the wine country, attracting many people to 
live, work, and retire in our community. This does put great 
stress on our transportation infrastructure and causes us many 
problems with the Highway 101 corridor.
    The highway was built in the sixties by rural standards. 
Our population was 150,000 people then, now 425,000. Many times 
in the congested and urbanized areas it has a level of service 
of ``F'' at peak periods. Public polls and sentiment all 
designate transportation as our No. 1 problem.
    We are embarking on a major transportation plan to improve 
the corridor. This does include a multimodal approach and scope 
of adding HOV lanes, as well as reliever routes, integrating 
bus and rail transit network. The recent acquisition of the 
Northwestern Pacific Railroad has allowed us great opportunity 
to enhance our bus and rail transit potentials. Current land 
use studies have indicated that the multimodal or intermodal 
approach is the best way to go, and we are concentrating on all 
the modes instead of just one.
    Mr. Chairman, we are here to ask for your assistance in 
developing the first of our intermodal facilities in our 
county. It is a phased approach, starting in Petaluma and 
working our way up from the sixth congressional district up 
into the Santa Rosa area, as well as Healdsberg and Windsor. 
These intermodal transportation facilities will also function 
as car pool and van pool staging areas, giving us great 
opportunity to use the HOV lanes that we look to build in 
Sonoma County, but also HOV lanes that are in our neighbor 
county to the south, in Marin County. Now these also will give 
us an opportunity to use the Northwestern Pacific Rail right-
of-way as a potential for anticipated commuter passenger rail 
service.
    The intermodal transportation facilities would be centrally 
located, provide easy access to commuters, using existing 
transit routes, interfacing with automobiles, public transit, 
and bicycles. We will have other amenities as well as using the 
shelters, lighting, landscaping, and bicycle racks. It also 
will be used by many different transit operators.
    Mr. Chairman, we are here to ask this subcommittee to 
appropriate $3 million in the Fiscal Year 1998 budget, section 
3, bus capital. Over the next five years, we propose a phased 
program. I refer you to the chart that's in my written 
testimony, highlighted by No. 1 being in Petaluma, $23 million 
worth of projects over a five-year phasing period from 1998 to 
the year 2002. All these funds are used for construction since 
lands exist as part of the Northwestern Pacific Railway, as 
well as local. We have a lot of local support, and I do 
request, as you have offered previously, to submit some of the 
letters from our local entities.
    Mr. Chairman, we are very excited by the potential of these 
intermodal stations and facilities, and we count on Federal 
participation. That concludes my brief testimony, and if you 
have any questions, I would look forward to answering them.
    Mr. Wolf. Thank you very much.
    Are the HOVs HOV-2 or -3?
    Mr. Kelley. Two.
    Mr. Wolf. Are the bus lanes or HOV lanes reversible?
    Mr. Kelley. Well, we will have HOV lanes on each direction.
    Mr. Wolf. So they are not reversible, in during the morning 
and out in the afternoon?
    Ms. Woolsey. Mr. Chairman, in Marin County we are going to 
be asking for funding for a reversible lane, and this feeds 
right into it. I mean, it's all part of the overall program.
    Mr. Kelley. Yes, in Sonoma County they'll be each lane 
direction, but they will feed into Marin County's.
    Mr. Wolf. Mr. Sabo? Mr. Tiahrt? Mr. Torres?
    Thank you very much. We appreciate your taking the time to 
come.
    Ms. Woolsey. Thank you very much.
    Mr. Kelley. Thank you, Mr. Chairman.
    [The prepared statement of Paul Kelley follows:]

[Pages 567 - 571--The official Committee record contains additional material here.]


                                       Wednesday February 26, 1997.

                            FOOTHILL TRANSIT

                               WITNESSES

HON. DAVID DREIER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
JULIE M. AUSTIN, EXECUTIVE DIRECTOR, FOOTHILL TRANSIT
HON. MATHEW MARTINEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. JAY KIM, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Wolf. Mr. Torres.
    Mr. Torres. Mr. Chairman, I would like to introduce to the 
subcommittee my colleague from the greater San Gabriel Valley, 
Mr. Dreier, who is here with a representative from Foothill 
Transit, if they'll just come forward.
    Mr. Chairman, Mr. Dreier and Mr. Kim, Mr. Martinez, and I 
share a set of contiguous congressional districts in what is 
known as the foothill communities of the greater San Gabriel 
Valley. It's really a beautiful area. It's often said that 
using Foothill Transit is not just a bus ride; it's really a 
riding pleasure, and this morning, to talk to us about Foothill 
Transit is its executive director, Julie Austin.
    Julie, welcome to the Subcommittee.
    Ms. Austin. Thank you.
    Mr. Wolf. Thank you very much. Welcome to the committee, 
and we're familiar with the project. As you know, the 
Committee's been supportive of it over the years, but we 
welcome your testimony, both of you. The full statement will 
appear in the record as if read. Mr. Dreier.
    Mr. Dreier. Well, thank you very much, Mr. Chairman, and 
let me be the first--well, the second, along with Mr. Torres--
to officially welcome Julie Austin here, who is doing a 
terrific job.
    I should also, Mr. Chairman, express my appreciation to you 
for allowing me to now have an office on your hallway in the 
Cannon Building. I consider that to be a great honor. 
[Laughter.]
    And, also, I have to say that we appreciate the fact that 
over the years you have recognized the importance of Foothill 
Transit, and the fact that it has been clearly an award-winning 
operation. For two years in a row, it was named the outstanding 
transit system of America, and it could not have happened, had 
it not been for the very generous support of this subcommittee 
and the Congress.
    We have seen a wide range of very positive developments 
because of the support of this subcommittee, primarily going 
from a leased facility to a facility that they now own, and 
seeing a tremendous increase in ridership, while they have 
stayed right on budget. And I simply want to thank you for the 
support that you have provided in the past, and to thank you 
again for the support that I am hoping very much will move to 
the future.
    And I would like to, with that, welcome my colleague, Ms. 
Austin.
    Mr. Wolf. Welcome.
    Ms. Austin. Thank you. Good morning, Mr. Chairman and 
members of the subcommittee. Thank you for the opportunity to 
testify before you today. I will be brief. I have submitted 
detailed written testimony on Foothill's request for an 
appropriation of $11 million in section 3 bus capital 
discretionary funding to complete our second bus facility. This 
facility is to be located on the western end of our 327-square-
mile service area in the San Gabriel Valley.
    My written testimony details the unique public/private 
partnership that we have put into practice in the San Gabriel 
Valley. I believe that Foothills management's concept sets a 
national example of how the private sector entrepreneurial 
spirit can provide cost-effective public transit.
    Foothill has 21 member cities, 259 buses in the eastern 
portion of LA County known as the San Gabriel and Pomona 
Valleys. With the $14.4 million in section 3 funding provided 
over the past two years, we were able to complete our Pomona 
facilities, as Mr. Dreier stated, on time and on budget--our 
Pomona facility, excuse me. In fact, FTA's administrator for 
our region, region 9, Leslie Rogers, spoke at the January 31st 
dedication and commented that he had initially been skeptical 
that we could meet our projected construction schedule. 
However, he said that--and I quote--``Foothill is true to their 
word.''
    The Federal funds appropriated were used to build the 
facility within the fast-track nine-month construction schedule 
on time and on budget. My written testimony also details the 
reasons for our request to replace the leased facility 
currently located in El Monte. The savings by constructing and 
owning our bus facilities is estimated to be $80 million over 
the life of the two facilities, and this will allow Foothill to 
further increase and enhance bus service for San Gabriel and 
Pomona Valley residents.
    We've identified a site. We have hired an architect and a 
construction manager, and with approval of this funding 
request, we'll be able to maintain our commitment to efficiency 
in the provision of public transit and expeditiously implement 
our capital program.
    That completes my statement, Mr. Chairman. I thank you, Mr. 
Torres, and the other members of the committee, for allowing me 
the opportunity to testify, and I'd be happy to answer any 
questions.
    Mr. Wolf. Well, thank you very much.
    I know you use no Federal operating assistance, which is a 
rarity in the Nation. Secondly, the Committee, through the good 
work of Mr. Torres, Mr. Martinez, Mr. Dreier and Mr. Kim, I 
think last year the Committee provided $9 or $9.5 million. I 
think the problem was in the Senate. So I would urge you to 
take--when you're here next time or when they have hearings--
for you to appear before the Senate committee, because this 
side has been very, very supportive and the members have been 
very, very supportive of it.
    But thank you very much for coming. I appreciate it.
    Ms. Austin. Okay. Thank you.
    Mr. Dreier. Thank you.
    Mr. Sabo. I've had to appear before Mr. Dreier regularly--
--
    Mr. Wolf. Give it to him.
    Mr. Sabo [continuing]. Be subject to all his questions.
    Mr. Dreier. Well, go right ahead, Marty. I mean, I'm raring 
to go. [Laughter.]
    Mr. Sabo. It's good to see you.
    Mr. Dreier. Thank you. It's nice to see you, Marty. Thank 
you very much, and thanks again to Mr. Torres.
    Mr. Wolf. Mr. Torres.
    Mr. Torres. Thank you, Mr. Chairman. I would just like to 
note for the record, as my colleague, Mr. Dreier, said, that 
you may recall that two years ago this committee recognized the 
Foothill project as a national model for efficient delivery of 
transit service, and they should, indeed, be proud of their 
record of cost-effectiveness and timeliness, and I look forward 
to the completion of your project.
    Thank you very much.
    Mr. Wolf. By voting for this, we will deal with MFN for 
China; we will marry the tuition. [Laughter.]
    Ms. Austin. We are honored by that recognition. Thank you.
    [The prepared statements of Hon. David Dreier, Hon. Matthew 
Martinez, the Hon. Jay Kim, and Julie Austin follow:]

[Pages 575 - 590--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

                 SAN DIEGO AND ARIZONA EASTERN RAILROAD

                                WITNESS

HON. DUNCAN HUNTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Wolf. Duncan Hunter, my constituent. Welcome to the 
committee.
    Mr. Hunter. Thank you, Mr. Chairman. I'm here on a limited 
issue here, but it's the issue we addressed last year of the 
so-called NAFTA train. I call it at times the illegal alien 
express, but it's a train that is the proposed link between San 
Diego's port and points east, traveling down into Mexico at 
Tiajuana, coming back into the United States at Tecate, and 
ultimately moving on the established train line east into 
Arizona and points east from there. And the issue is whether or 
not the section 511 Federal loan guarantee is authorized on 
this train.
    It goes largely through my district. I have most of the--
starting from the bedroom communities in east San Diego County 
east to Arizona, but it--really my concern about this train--
and I'm kind of a lone voice at this point, I think. I think 
the boys in Panama hats have whipped most of the various and 
sundry organizations into a frenzy in support of the so-called 
NAFTA train, but I think our responsibility extends beyond 
their recommendations because, in my estimation, this train is 
potentially a source of large-scale criminal activity, and the 
reason I say that is because I'd like you just to take--I've 
submitted a statement for the record. I'd ask that to be 
offered in the record.
    But this is a headline in The San Diego Union. They now 
support the train very much, and I think the guy that wrote 
this has now been assigned to his new station in Antarctica, 
but he wrote this column, this article--you also saw it in The 
Boston Globe and LA Times--entitled, ``Robbers Ride the 
Rails.'' And this was a commentary on the border train that 
exists in New Mexico, and the border train that exists in New 
Mexico, the Southern Pacific train, was robbed 600 times last 
year, and a lot of violence occurred. Criminal gangs, 
basically, were built up simply to support this robbery/alien-
smuggling operation.
    At times, as you know, when a train is operating--the 
reason a train is able to operate effectively is because it 
only has a couple of people on it, a conductor and maybe one or 
two other people, and that allows them to operate fairly 
economically. Because of that, these gangs would jump on the 
train. They'd throw--if you read this article, ``Robbers Ride 
the Rails'', and these 600 robberies that occurred last year 
just on the Southern Pacific train that goes near the border in 
New Mexico, you can see that it was fairly easy for them to 
stop the train, to decouple cars, and to rob it.
    You know, this is an area, Mr. Chairman, the Californian-
Mexican border is an area in which about 300,000 pounds of 
cocaine and marijuana were seized last year, and a lot more of 
it got through. We still have a border that's out of control. 
We've just--our intelligence tells us now, in the wake of some 
revelations and recent tragedies with respect to leadership of 
Mexico being involved in the drug trade, we are told now that 
the drug cartels are focusing now on the Mexican/California 
border. That means they're moving cocaine across in backpacks, 
which we're trying to stop with our fencing that we're doing in 
East County, San Diego County, with the triple fence that we 
put--we're putting on the first 14 miles of smugglers' 
corridor, and also with the increases in border patrol. And we 
even think it's so important that we now have a joint task 
force six, a military task force which assigns National 
Guardsmen and Army reservists to help strengthen the border.
    And, Mr. Chairman, sometimes we Americans have developed 
cross-purposes, and here we've developed, in my estimation, 
somewhat of a cross-purpose. The border's out of control. We 
have massive cocaine and marijuana coming across. We still have 
massive smuggling of illegal aliens, and if you read one other 
thing here that I would offer to all members, that's a 
statement of Mr. Rizzo, the INS inspector--he's from the INS 
Office of Congressional Relations--regarding the establishment 
of the railroad. Because they've had these problems in New 
Mexico, he knows what to expect, and he says in point four, 
``Operations in these areas are very dangerous for both 
enforcement officers and undocumented aliens. We've also seen 
horrendous treatment of undocumented aliens by smugglers who 
lock them in the railroad cars during the summer, resulting in 
severe injury and death.''
    He points out a number of problems that they're going to 
have in enforcing the border with respect to this train. So at 
the same time that we in the San Diego area are saying we want 
to cut down on the cocaine smuggling that's getting into our 
children's veins, we want to cut down on alien smuggling--we're 
very concerned about it--we've got the boys in the alligator 
shoes and Panama hats who are whipping people up into a frenzy 
over having a border train that goes to points east.
    And the last point I would make, Mr. Chairman, is this: 
there already is a train that links San Diego's port with the 
East. It's the northern route. So you already have an 
established route that goes from San Diego up through the Los 
Angeles interchange and then curves southeast, then crosses the 
border close to Yuma, Arizona. And what this would do is this 
would provide a second rail line that, instead of going north, 
curves south into Mexico, comes back up in Tecate, and then 
joins up at the same track ultimately that the northern route 
takes. So you already have an established rail line with points 
east from the Port of San Diego. This would be a southern route 
instead of a northern route, and interestingly, at least, 
according to the would-be train operator, you're not going to 
get there any faster--that is, to Arizona--because you're 
taking--you're zigzagging up and down mountain passes in 
Mexico. So while the route is a little bit shorter, you're 
going much slower, 20 miles an hour at many points, and because 
of that, the train that's going 60 and 70 and at higher speeds, 
going on flat land but going a little further, gets to Arizona 
at about the same time. So what this would offer us, I think, 
is a marginal increase in transportation east.
    And, lastly, the idea that somehow NAFTA is now going to 
blossom for the United States, if we just had this railroad, I 
think is--I think it's basically reasoning that emanates from 
the same great minds that told us that NAFTA would give us a 
major trade surplus over Mexico. We had a $3 billion trade 
surplus when we implemented NAFTA; we now are enjoying a $15 
billion trade loss each year with Mexico since the 
implementation of NAFTA.
    So put me down as not being undecided on this one, Mr. 
Chairman, and I would ask--I think you ought to get a response 
from INS. I think you ought to check with INS and Customs and 
be very careful about authorizing this loan guarantee.
    Mr. Wolf. Okay, thank you very much, Mr. Hunter.
    Mr. Sabo.
    Mr. Sabo. No questions, Mr. Chairman.
    Mr. Wolf. Mr. Torres.
    Mr. Torres. No questions.
    Mr. Wolf. Mr. Pastor.
    Mr. Pastor. In one of the comments that I have read here by 
Mr. Rizzo, it talks about, ``all railroads leading away from 
the border and in some locations along the border have proven 
to be prone to theft by border bandits as well as egress 
transportation for aliens traveling to the interior of the 
U.S.''
    We have a train that goes through Nogales, up to Tucson, 
that carries both into Mexico and out of--out of Mexico we 
carry cars, and into Mexico we carry the materials to build 
those cars. And to the best of my knowledge, that railroad line 
in terms of carrying undocumented people from Mexico into the 
United States has not been a charge to that railroad or has it 
been prone to carry any narcotics. So I would tell you that, in 
that particular paragraph, I would take exception to it because 
I think that particular train does not fall into that general 
category.
    Mr. Hunter. Sure. Well, I would say to my friend, you know, 
I'm not familiar with your train, and you're more familiar with 
your rail operations than I am, but I can tell you this: the 
existing train that just goes down into Tijuana, doesn't go 
through any of this rough back country or these canyons where 
you really--where the law enforcement is not leveraged; it just 
goes to Tijuana from San Diego. I've talked to the Customs 
agents there, and we have--they report that you have dozens of 
illegal aliens holding onto the train and dragging themselves 
along into the United States, and that they do have problems 
with the existing train in San Diego that just goes right down 
to Tijuana. It doesn't travel this 40, 30 or 40, miles of track 
in the interior. So our existing train does have problems, and 
if your existing train doesn't, maybe we shouldn't advertise 
that; it may soon.
    Mr. Wolf. Thank you very much.
    Mr. Hunter. Okay, thank you, Mr. Chairman. I appreciate it.
    [The prepared statement of the Hon. Duncan Hunter follows:]

[Pages 594 - 607--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

   MID-COAST LIGHT RAIL TRANSIT MISSION VALLEY EAST CORRIDOR PROJECT

                               WITNESSES

HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. BRIAN P. BILBRAY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Wolf. Mr. Filner and Mr. Bilbray. Welcome to the 
Committee.
    Mr. Filner. Thank you, Mr. Chairman, and we thank you for 
this time. With me, besides the two of us from California, this 
is Ms. Christine Kehoe, who's a member of the San Diego City 
Council and the city's representative to our regional 
government, SANDAG, San Diego Association of Governments, and 
Ms. Kehoe is here for any questions you may have.
    Just to put this in context, Mr. Hunter, who just 
testified, myself, and Mr. Bilbray represent the total 
California/Mexico border. The infrastructure projects that we 
have submitted a full written statement on are designed to 
address the infrastructures that we have at the U.S./Mexico 
border.
    The presence of Mr. Bilbray and I together, obviously a 
bipartisan delegation, is designed to stress the unity of San 
Diego County for these projects. With one exception, which you 
just heard Mr. Hunter talk about, the San Diego delegation, 
congressional delegation, is united behind all our 
infrastructure projects, and with no exception, every 
government and business entity in San Diego County supports the 
priorities that we have submitted today. I'm talking about the 
city of San Diego, the county of San Diego, the port of San 
Diego, the Greater Chamber of Commerce, the San Diego 
Association of Governments. All in a bipartisan way support 
these projects.
    Let me just give you a couple of examples, and then I'll 
turn it over to Mr. Bilbray, of the problems that we are 
confronting and trying to deal with. Three thousand trucks a 
day cross the border between U.S and Mexico, roughly half of 
the commerce now between our two countries. They go through 
what is called the Otay Mesa Border Crossing. There is no 
interstate highway that carries those trucks to the interstate 
highway system. There was a two-and now a four-lane city 
street. It is incredibly dangerous. It is not efficient. It 
hampers the growth of trade between our two nations.
    Our top priority as a county is what we call State Route 
905. Basically, it will be a link between the border crossing 
and our interstate highway system that will allow trade to 
pursue. This is not--most of that traffic, 85, 90 percent, does 
not go to San Diego; it's going through San Diego, but we don't 
have the infrastructure to allow it to pass through.
    There are various other projects like that in our request. 
Without getting into a real debate with Mr. Hunter, Mr. 
Chairman, you are fully informed of that debate. Let me just 
say everybody in San Diego--Republican, Democrat, business, and 
government--disagrees with Mr. Hunter'sassessment. And let me 
just say this is a private sector venture--a private sector venture. 
What we are asking for is a loan guarantee for what the private sector 
will do. The private sector, in my opinion, would not get into a risky 
venture that Mr. Hunter outlined, if it were not in the interest of 
their own business.
    The train itself, which will allow direct links between San 
Diego and the east, will transform the economy of southern 
California and will allow far more efficient, far more trade 
between the nations of Mexico and the United States. While Mr. 
Hunter does see this as an obstacle, the fact that this train 
goes through both our nations, and we have problems there and 
he's been in the lead to address those problems, and we are 
addressing those problems, I see this as a great opportunity. 
If the U.S. and Mexico can agree on this train link, which is 
financially doable, technically doable, it will show that the 
relationship--that a good relationship between our two nations 
will provide jobs on both sides of the border. I think it's 
critical; everybody agrees.
    My staff will be passing out to the members of the 
committee some other material which has a different view than 
the material you just received from the earlier testimony. With 
that, I'll turn it over to my colleague, Mr. Bilbray, who 
represents, again, part of the California, Mexico border, and 
the projects that he has been dealing with in his district and 
we all support in our congressional delegation, as he is 
supporting ours. And, again, with that one exception, we are 
totally united behind the packet that we have submitted to you 
today.
    Mr. Wolf. Mr. Bilbray.
    Mr. Bilbray. Mr. Chairman, thank you very much for allowing 
us to be here today. Let me just sort of restate the fact that 
we are trying to work cooperatively across the border. I think 
you know there's not too many members who are more committed or 
more outspoken about the uncontrolled situation at our 
frontier, Duncan Hunter probably being the only person who can 
claim the mantel a little more than I do, but the fact is that 
I think there are two schools of thought about our entire 
frontier issue. One is that the problems need to be addressed; 
we need to focus on those problems and address those problems. 
The other side is we have to focus on commerce, the 
opportunities, and the economic prosperity that that frontier 
has.
    The problem is usually those agendas are separated. This is 
a good example of where those agendas should be consolidated. 
The issue of the east link train is not one that is separate 
from the border region problem, but where I differ with my 
colleague, Mr. Hunter, really is the fact that commerce along 
the border is going to be the carrot to finally get both 
federal governments to address these problems that occur in his 
district. The fact is there's no stimulus right now 
economically to be able to take care of the crime problems--for 
a lot of reasons.
    But to get back to this issue, this is not just an issue of 
transporting goods from the eastern part of the mountains over 
into the western part of the mountains of the Sierra Nevadas. 
This is an issue of linkage with Mexico in a cooperative 
effort, and I leave this--I want to make a point to you. I was 
approached on this issue many years ago in Mexico City, about 
the fact that Mexico is looking for opportunities to export 
through the West Coast. The fact is their own facilities in 
Mexico are substandard, and the opportunity for them to be able 
to export through San Diego, utilizing American resources, 
American workers, American stevedores, is something that has 
totally been underestimated. And San Diego's port happens to be 
located between the two largest cities in the world, Mexico 
City and Tokyo, and this opportunity is going to be able to 
hook into the Mexican international railway system and be able 
to use one of the most perfectly designed by the creator 
harbors in the world for commercial traffic.
    So I think that this is one of those minimum things that we 
ought to do as a gesture to the fact that, while we're taking 
care of the problems along the border, we're also initiating 
the opportunities. And I would say to you, as I have said to my 
colleague, Mr. Hunter, these things are compatible. They're 
absolutely essential. And when both countries recognize that 
this train that runs from Mexico to California is an important 
thing, both sides will cooperate and finally take care of the 
problems that specifically have been moved out into Mr. 
Hunter's area. So rather than being concerned about the 
possibility of commerce crossing the border, this should be a 
stimulus to be able to take care of those problems that Mr. 
Hunter has addressed for so long.
    It is something that needs to be done. It's obvious, and, 
frankly, the only issue here is the fear of working with an 
international relationship with Mexico in commerce. I think 
that there shouldn't be that fear. I think that it's a way to 
bring them back to the table to take care of these problems.
    So I'll say this as somebody who lives on the border and 
has had to live with the problems of the border: we need these 
types of projects as a way to be able not only to create the 
economic opportunity, but take care of those environmental and 
law enforcement problems that have been ignored for too long. 
So I see this as a win/win for everybody; I hate to use that 
term, but it is such a small investment with such a huge 
potential of not only economic opportunity, but law enforcement 
and social opportunity.
    Thank you, Mr. Chairman.
    Mr. Wolf. Does your constituent care to comment?
    Mr. Filner. Ms. Kehoe is just here to answer any questions.
    Ms. Kehoe. No, Mr. Chairman. Thank you.
    Mr. Wolf. Okay, fine. Mr. Sabo.
    Mr. Sabo. No questions.
    Mr. Wolf. Mr. Torres. Mr. Pastor.
    Thank you very much. We appreciate your taking the time.
    Mr. Filner. Thank you.
    Mr. Bilbray. Thank you, sir.
    Ms. Kehoe. Thank you.
    [The prepared statements of the Hon. Bob Filner and Hon. 
Brian Bilbray follow:]

[Pages 611 - 620--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

         CENTRAL PUGET SOUND REGIONAL AUTHORITY PIERCE TRANSIT

                               WITNESSES

HON. NORM DICKS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
HON. ADAM SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
BOB DREWEL, CHAIRMAN, REGIONAL TRANSIT AUTHORITY
DAVE EARLING, CHAIRMAN, RTA'S PUBLIC GOVERNMENT AFFAIRS COMMITTEE
BOB WHITE, EXECUTIVE DIRECTOR, REGIONAL TRANSIT AUTHORITY
MIKE VASKA, SEATTLE CHAMBER OF COMMERCE
JULIE INMAN, MICROSOFT
BOB VILHAUER, BOEING

    Mr. Wolf. Mr. Dicks, with both the Central Puget Sound 
Regional Transit Authority and also with the Pierce Transit.
    Mr. Dicks. Mr. Chairman, I want to thank you for inviting 
me here to testify on behalf of two transportation projects 
important to the district I represent: the Regional Transit 
Authority Sound Plan and the Tacoma Dome Station.
    Last November, the voters of the Puget Sound Region 
approved the Sound Move plan which will be a system of commuter 
rail, light rail, HOV lanes, and express bus service, which 
will make transportation in the region much more efficient. 
This ambitious project will be largely funded by local revenue, 
but there is a need for Federal assistance.
    I would like to recognize several people from Washington 
State who are here who are deeply involved with the RTA: Bob 
Drewel, on my right, is chairman of the RTA and will testify 
today. Also here is Dave Earling, chairman of RTA's Public 
Government Affairs Committee; Bob White, RTA's executive 
director; Mike Vaska, who represents the Seattle Chamber of 
Commerce. Julie Inman from Microsoft; Bob Vilhauer from Boeing 
are also here to represent the business community's support for 
the RTA's plan. I also want to introduce Adam Smith, the new 
Congressman for the ninth district, who also wants to say a few 
words in support of RTA and who will introduce Don Monroe, the 
executive director of Pierce Transit, who will testify on 
behalf of the Tacoma Dome Project, which I have long supported.
    Adam?
    Mr. Smith. Thank you very much, Mr. Chairman, and thank 
you, Congressman Dicks. I'm pleased to be here with 
Representative Dicks in support of a project that helps both of 
our districts. The RTA is critical to passenger rail in our 
respective districts, and I trust the committee will consider 
our testimony and help us fund this project. It's critical to 
the area.
    And with that, I'd like to actually introduce Bob Drewel, 
who's the chairman of the RTA for the State.
    Mr. Drewel. Thank you, Congressman, and good morning, Mr. 
Chairman and members of the committee, and thank you for this 
opportunity to testify before you today.
    On November 5th of 1996, the voters in the Puget Sound area 
overwhelmingly approved our 10-year transit plan by a majority 
of 56.5 percent. This $3.9 billion plan is a 10-year plan of 
investments, and it represents a significant investment in our 
region's transportation infrastructure. It includes a mix of 
light rail, commuter rail, HOV expressways, and new community 
connections.
    The region's voters agreed to pay for most of this plan, 
voting in support of new taxes that will provide a stable, 
dependable, dedicated source of local revenue for building, 
maintaining, and operating the system. We will be seeking an 
authorization for Federal funding for our light rail and 
commuter rail projects in the bill that will reauthorize ISTEA.
    For fiscal year 1998, we are seeking $22.7 million for our 
light rail project and $21.9 million for our commuter rail 
project--to fund the engineering and environmental work 
associated with implementing these projects. We are absolutely 
convinced that our system will be among the most cost-effective 
of any rail new starts in the Nation. Because Washington State 
is the most trade-oriented in the country, this infrastructure 
investment is essential for continued economic vitality for not 
only our region, but for our State and the Nation.
    Again, we appreciate your consideration of our request, and 
thank you for this opportunity to share these thoughts with 
you.
    Mr. Smith. Thank you. I'd like to now introduce Don Monroe 
of Pierce Transit to talk about another project in our area, 
the Takoma Dome Station Project.
    First of all, I'd like to thank the Chair and the committee 
for their past support of this project. It has meant a great 
deal to the Pierce County area which both Congressman Norm 
Dicks and I serve, and would urge you to continue its support.
    I'm now pleased to turn over for more remarks to Don 
Monroe, who will tell you more about the project.
    Mr. Monroe. Mr. Chairman and members of the subcommittee, 
I'm Don Monroe, executive director of Pierce Transit in Tacoma, 
Washington. I appreciate the opportunity to meet with you today 
to update you on the progress of phase one of the Pierce 
Transit Tacoma Dome Station Project and to submit our request 
for an additional $3 million in section 3 bus discretionary 
funds to work toward the second half of the project.
    By way of background, the Tacoma Dome Station is a park-
and-ride facility designed to support express bus service 
between Seattle and Tacoma on I-5, one of the most congested 
corridors in the country. When completed, the facility will 
have 2,000 parking stalls and support twice the level of 
current service. Over the next 10 years, the station will also 
become a major intermodal hub, making commuter and light rail, 
AMTRAK service, airport shuttles, and interstate bus service 
provided by private carriers.
    Thanks to this subcommittee's continuing support, and that 
of Congressman Dicks and the rest of the Washington State 
delegation, the Tacoma Dome Station is well on its way to 
completion. We are grateful for the $3 million we received in 
fiscal year 1995, the $5 million in fiscal year 1996, and $4.5 
million in fiscal year 1997. Your funding support enabled us to 
begin construction of phase one just this last July. This 
portion of the project facility will be completed this fall.
    Phase one includes a 1,200-stall park-and-ride garage, 
transit platform, and pedestrian walkways. Phase two includes 
an adjacent five-level park-and-ride garage with 800 spaces, an 
acquisition of 5 buses to expand shuttle express bus service. 
Completion of phase two is dependent on receiving $3 million in 
section 3 funding for fiscal year 1998 and another $3 million 
in fiscal year 1999. More details on the project schedule is 
provided in the briefing package.
    As I've stated in previous appearances before this 
committee, ridership on the shuttle express service continues 
to grow dramatically. Between 1994 and 1996, ridership 
increased by 48 percent. Currently, we average about 2,700 
passengers every weekday. On peak days, we carry more than 
3,200 passengers. In fact, with the availability of expanded 
shuttle express service, we expect to fill the 1,200 parking 
spaces included in phase one of the project within a year of 
opening.
    Anticipating this demand for more capacity, we are seeking 
$3 million in section 3 funding to proceed with phase two. 
These funds will go toward construction of the second half of 
the parking garage, bringing the total capacity to2,000 parking 
stalls and toward the purchase of buses to allow for expansion of our 
express service. Our completion date is 1999.
    To date, the Federal, State, and local support for the 
Takoma Dome Station has been outstanding. Private citizens, as 
well as legislators, are strong supporters of the Takoma Dome 
Station. This universal support reflects not only the project's 
positive impact on the region's transportation problems, but 
also its potential for revitalizing the older, urban area.
    Mr. Chairman, members of the committee, thank you for your 
past support and for your time and consideration. I look 
forward to working with you and your staff members on the next 
step of this important project. Thank you.
    Mr. Wolf. I thank you very much for your testimony.
    Mr. Sabo.
    Mr. Sabo. I'm just curious, Mr. Monroe, on the Tacoma Dome 
Station, I notice all your descriptions indicated car parking. 
Do you have significant facilities for allowing people to 
safely lock up bikes?
    Mr. Monroe. Yes, we have bike lockers, is what we call 
them. So we not only provide for that capacity or facility, but 
also we allow, of course, the bikes to be on the buses as well 
and have the racks.
    Mr. Wolf. Mr. Torres.
    Mr. Torres. No questions, Mr. Chairman.
    Mr. Wolf. Thank you very much.
    Mr. Dicks. Thank you.
    Mr. Smith. Thank you, Mr. Chairman.
    [The prepared statements of Bob Drewel and Don Monroe 
follow:]

[Pages 624 - 632--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

 CONGESTION MITIGATION STRATEGIES IN THE NORTHERN AREA OF INDIANAPOLIS

                               WITNESSES

HON. DAN BURTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
LARRY HOPKINS, EXECUTIVE DIRECTOR OF THE PORT AUTHORITY

    Mr. Wolf. Mr. Burton? Or Mr. Durbin from the Pennsylvania 
Turnpike Commission? We'll allow Mr. Burton to take your spot 
because of his meeting. So welcome. Welcome to the committee. 
Mr. Durbin, thank you very much.
    Mr. Burton. Thank you, Mr. Chairman. We have Mr. Hopkins 
with us, who's one of the principals in our program over in 
Vienna.
    I want to thank you very much for taking us out of order. 
As you understand, I have a meeting at 11 o'clock. So thank you 
very much. I'll try to reciprocate sometime in the future.
    Mr. Wolf. Okay.
    Mr. Burton. I want to thank you for allowing us to testify 
before your committee today. We're here to ask for your support 
for a transportation project in the Indianapolis area in 
central Indiana, one of the most heavily traveled and congested 
areas in the whole State of Indiana.
    This is a new start project that we are also seeking 
authorization for in the ISTEA reauthorization legislation. Our 
request will cover a major investment study, preliminary 
engineering, and final design.
    Today we're here to request a $2 million appropriation in 
the fiscal year 1998 appropriations bill for a major investment 
study to explore congestion mitigation strategies in the 
northern area of Indianapolis. This project would be of 
substantial value to the Indianapolis region and the entire 
State of Indiana.
    The Indianapolis area is not widely known as a transit-
friendly region. That is partly or largely because it is not. 
Current bus service is not extensive, and it's confined to one 
county in what is becoming a nine-county region. The whole area 
is growing very rapidly there.
    However, development patterns, especially in Indianapolis 
and areas to the northeast, are likely to change that. At the 
northern end of the transportation corridor is Hamilton County, 
which is a very rapidly-growing residential area in the State 
of Indiana, and also the center of regional job growth. At the 
other end of the corridor, Indianapolis' central business 
district, is a downtown that is experiencing a commercial and 
entertainment renaissance.
    In between the two corridors is an incredible amount of 
congestion. In fact, this is the most congested corridor in the 
State, not just the region, but the whole State. A recently 
completed study of the transportation deficiencies in the 
corridor conducted by the Indiana Department of Transportation 
recommended that I-69 might have to be upgraded to a 14-lane 
highway, and I want to tell you, Mr. Chairman, the people out 
there will die if we start talking about that.
    Not surprisingly, this proposal has not been 
enthusiastically embraced, and residents are increasingly 
asking for realistic alternatives to relieving this congestion 
other than just simply building a 14-lane highway. One of the 
alternatives that is being given serious consideration is the 
use of mass transit. This would reduce traffic congestion, 
decrease the number of additional travel lanes needed in the 
corridor, improve the local air quality which our environmental 
people are very concerned about, and help counter the trend 
toward low-density sprawl.
    In order to more fully explore this or other possible ways 
in which we can mitigate increasing congestion in the corridor, 
a major investment study would appear to be a necessary step. 
An MIS would allow the city of Indianapolis and the State of 
Indiana to begin the process of solving this corridor 
congestion problem.
    Now Anne Shane, the chief of staff for Mayor Goldsmith of 
Indianapolis, was supposed to be here, but her plane was 
cancelled this morning, so she wasn't able to be here, but the 
mayor and the entire city council and the business community 
are very much in favor of this study.
    I do have with me, however, Larry Hopkins, executive 
director of the Port Authority, which represents Indianapolis 
and Hamilton County. However, before he testifies, I would like 
to address two critical issues that I know are of great 
interest to you and the subcommittee: local support and local 
funding.
    The opportunity for major transit investment, possibly 
including commuter rail or light rail, continues to receive 
strong support throughout the community. It has the backing of 
elected officials in the cities of Indianapolis, Fishers, and 
Noblesville--the three major municipalities in the corridor. 
It's also supported by the Chamber of Commerce, which through 
its Metropolitan Association of Greater Indianapolis 
Communities is defining regional solutions to regional 
problems.
    The Amalgamated Transit Union and the Indianapolis Urban 
League support this project as well. We have labor and the 
minorities and everybody in favor of this project. 
Environmental groups, most notably, the Hoosier Environmental 
Council, supports this project, as does the recently-formed 
Central Indiana Regional Citizens League, which has identified 
transportation as one of the region's most critical issues.
    The second issue is local funding. As you know, Mr. 
Chairman, this is often one of the most difficult and 
contentious issues in a major project such as this. For that 
reason, attempts to reach a solution are often put off until 
late in the process, sometimes leading to a situation in which 
a transit line opens without a dedicated source of revenue.
    In central Indiana, the Chamber of Commerce and the 
Indianapolis Metropolitan Planning Organization took the lead 
in proposing State legislation that would enable counties and/
or municipalities to form a regional transit authority which 
would have broad powers in the area of transit in the region, 
and which would determine how to fund the local share. I am 
pleased to report that this legislation is going to pass, in 
all probability, in the next couple of weeks in the Indiana 
General Assembly.
    In conclusion, I firmly believe that the $2 million is 
needed for a major investment study to begin the process of 
relieving this part of Indianapolis of increasingly serious 
traffic problems. I am confident that the need for this project 
is clear, that the support is widespread and diverse in the 
region, and that we are prepared to handle any funding 
questions in the very early stages of overall process.
    I want to thank you for this opportunity to introduce this 
important project to your subcommittee, Mr. Chairman, and I 
respectfully request that you give it your full attention. The 
traffic problems in that region of the State of Indiana are 
just growing in leaps and bounds. We've got a lot of very nice 
homes out there. When you talk about a 14-lane highway going 
through, the people just go apoplectic. I'm telling you, they 
go into orbit. This study would help find alternatives to that, 
and we would really appreciate your help.
    Mr. Wolf. Well, thank you very much for coming. We will 
also submit the statement from the mayor's office for the 
record.
    Mr. Burton. Okay.
    [The prepared statement of Anne Shane follows:]

[Pages 636 - 637--The official Committee record contains additional material here.]


    Mr. Wolf. Would you like to make a statement?
    Mr. Hopkins. Yes, sir, Mr. Chairman and members of the 
subcommittee. My name is Larry Hopkins, and I'm the executive 
director of the Port Authority that oversees the existing rail 
line.
    For those of you that may have missed it, the reality of 
the new Indianapolis is a far cry from the old image of the 
Indianapolis as a traditional conservative Midwestern city. The 
city of Indianapolis has invested more than $1 billion in our 
downtown projects in recent years, including $300 million in 
the Circle Center Mall; $240 million in the Convention Center, 
and more than $200 million in the RCA Dome. We are researching 
the possibility of investing an additional $175 million in a 
new basket ball arena downtown as well.
    In addition, at a time when many central business districts 
in mid-sized cities are facing serious problems, employment in 
downtown Indianapolis has risen 15 percent over the last five 
years, while the vacancy rate for commercial office space has 
fallen 10 percent. While all this is happening in downtown 
Indianapolis, the commercial and entertainment center of the 
central Indiana region, the region as a whole is expected to 
maintain its strong economy and to continue to attract new 
residents drawn to our high quality of life and economic 
opportunity. According to forecasts in the Indianapolis 
Regional Transportation Plan, population in the urbanized areas 
is forecast to grow 27 percent between 1990 and 2020. The 
number of households is expected to increase by 38 percent, 
with employment rising 44 percent.
    Much of that development will occur in suburban areas. 
Growth will be especially concentrated in the area to the north 
and northeast of Indianapolis in Marion County. Hamilton County 
is expected to be among the fastest-growing areas in Indiana 
over the coming decades. So we are facing strong development 
trends at both ends of the northeaster corridor. This means 
that increasing strain will be placed on our already 
overburdened transportation system.
    The transportation plan's forecasts are for daily person 
trips to increase by 48 percent; vehicle miles of travel by 69 
percent, and daily vehicle hours of travel by 77 percent. Such 
dramatic increases in travel could threaten the very quality of 
life that makes the region so attractive to those of us who 
live here now and those of us who would like to live and work 
in central Indiana.
    Our traditional approach to addressing transportation needs 
has been to expand the highway system to accommodate our 
greater automobile usage, but we are now at the point where 
simply adding lanes to existing roads, as well as building new 
freeways, will not solve the transportation problem.
    Congressman Burton mentioned the recently completed study 
of the I-69 corridor which foresees a massive expansion of 
highway facilities in the northern end of the northeast 
corridor. That comes two decades after the community killed a 
plan to extend I-69 into the heart of Indianapolis.
    The project that we are discussing today would move toward 
an alternative solution to a problem widely acknowledged in the 
community. Under the direction of the Indianapolis Metropolitan 
Planning Organization, we are completing a feasibility study of 
several transportation alternatives. These are likely 
candidates for detailed analysis in a major investment study. 
We are seeking a Fiscal Year 1998 appropriation for that study. 
These include two light rail options, commuter rail, high-
occupancy vehicle busways, transportation systems' management, 
and highway expansion. We will have preliminary cost and 
ridership forecasts soon.
    We want to carefully consider the costs and benefits of 
many transportation options in order to connect the downtown 
with the high growth area of the northeast Indianapolis. In 
this way, we can help assure the continued vibrancy of downtown 
and safeguard the city of Indianapolis' enormous capital 
investment. I hope we can count on your support to help address 
and thoroughly analyze these critical transportation issues.
    Thank you.
    Mr. Wolf. I thank you very much, Mr. Hopkins. I just have 
one question. Is any of this to serve the gambling interest at 
all? Because that would trouble me personally--I don't know 
about the rest of the committee--but gambling is running 
rampant in the country, and I've been surprised that Indiana 
has been right in the forefront with regard to the riverboat 
gambling. I would predict that up in the Gary, Indiana, area we 
may very well see what happened down in New Orleans, whereby a 
ship loaded with gamblers, some who perhaps maybe don't want to 
leave because their money is on a table, and also perhaps 
drinking, whereby a boat goes down, and the Coast Guard has 
demonstrated that there is a danger in the water, and New 
Orleans is not nearly as cold as the water in the Great Lakes. 
I just wondered, this has nothing to do with gambling 
interests?
    Mr. Burton. Mr. Chairman, let me just say that I share your 
concern about that. This corridor that we're talking about, 
many years ago they wanted to expand it. It needed to be 
expanded from where the interstate comes into downtown 
Indianapolis. It was not extended because the people out there 
just were very upset. It's a very nice residential area with 
very nice homes, and the people didn't want to have a major 
interstate going through their neighbors.
    Well, now that the traffic congestion, which has nothing to 
do with gambling, has gotten so severe they're talking about 
the need for a 14-lane highway, 7 on each side, because the 
traffic is so bad; it's just like gridlock. It's as bad as 
going across the 14th Street Bridge or worse.
    Mr. Wolf. Not that bad.
    Mr. Burton. Well, it's pretty bad. And so the bottom line 
is the people are still upset about the possibility of 
expanding that road. So we're looking at alternative ways, mass 
transit, things that are environmentally-sound, to help the 
people of Indianapolis deal with this congestion problem and 
still maintain the residential area, but it doesn't have 
anything to do with gambling.
    Mr. Wolf. Okay, well, I was pleased----
    Mr. Burton. That's a long answer, but----
    Mr. Wolf. Well, I'm glad to hear that. I was pleased that 
Senator Lugar and Senator Simon from the adjoining State took 
the leadership over in the Senate to establish a National 
Commission on Gambling that we passed here. And I just would 
really feel kind of sick if I thought we were putting any money 
into anything that would help any gambling casino.
    Mr. Sabo.
    Mr. Sabo. No questions.
    Mr. Wolf. Mr. Torres.
    Mr. Torres. No questions, Mr. Chairman.
    Mr. Wolf. Mr. Pastor.
    Mr. Pastor. No, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Hopkins. And thank you once again for letting us 
testify.
    Mr. Wolf. And the full statement of the mayor's office will 
be in the record.
    Mr. Burton. Thank you, Mr. Chairman.
    [The prepared statement of Hon. Dan Burton follows:]

[Pages 641 - 644--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

                    PENNSYLVANIA TURNPIKE COMMISSION

                                WITNESS

JOHN T. DURBIN, EXECUTIVE DIRECTOR, PENNSYLVANIA TURNPIKE COMMISSION

    Mr. Wolf. Mr. Durbin.
    Mr. Durbin. Good morning, Mr. Chairman and Committee 
members. Chairman Wolf, I want to thank you for the opportunity 
to come before your Committee with testimony concerning the 
exciting developments at the Pennsylvania Turnpike Commission 
regarding intelligent transportation systems.
    First, let me thank you for the fiscal year 1997 
appropriation of $3 million which has successfully launched our 
ITS program. Without your support, these valuable initiatives 
on the Nation's first superhighway, the Pennsylvania Turnpike, 
would not be possible.
    From its earliest days as a highway, the Pennsylvania 
Turnpike has become a vital artery for our State and national 
commerce system. It is our goal, through the use of ITS, to 
provide our customers with services that ensure safety and 
convenience well into the next century.
    The Pennsylvania Turnpike Commission is committed to 
continued investment into intelligent transportation systems. A 
$300,000 ITS early deployment strategy plan, financed jointly 
by the Federal Highway Administration and the Pennsylvania 
Turnpike Commission, was completed on April 11, 1996. This 
comprehensive, coordinated, integrated, and seamless ITS plan 
is the basis for implementing ITS on the Pennsylvania Turnpike.
    Several elements of the intelligent transportation 
infrastructure will be the result of a number of private/public 
partnerships. One such private/public partnership is the 
travelers' information boards located in the 22 service plazas 
along the Pennsylvania Turnpike that have been financed by the 
travel industry. It gives real-time pertinent information to 
our travelers, as well as other necessary travel information, 
such as lodging and attractions, and is controlled through 
leased telephone lines. Other potential private/public 
partnerships are being explored, such as additional leasing of 
space on microwave towers to cellular phone companies.
    A significant contributor to an efficient and cost-
effective intelligent transportation system is the monitoring 
and availability of personnel on a 24-hour basis in the 
Pennsylvania Turnpike's Operation Center. With individual ITS 
components supported by a microwave communication system and 
leased communication lines, real-time information exchange 
could occur with all our service plazas, maintenance yards, 
State police barracks, highway advisory radio, travel boards, 
weather and traffic sensors, and incident-detection devices 
such as our call boxes, *11, and radios, as well as variable 
message signs, electronic toll and traffic management systems, 
traveler-initiated phone calls, and Internet access.
    The data, voice, and video communication ability, when all 
the ITS components are installed, will create a seamless 
transportation facility for real-time information and customer 
services on a 506-mile highway that connects the five largest 
metropolitan areas in Pennsylvania and will greatly assist 
intermodal transfers and just-in-time delivery systems.
    Rural and recreational areas of the Pennsylvania Turnpike 
will also be served. The new communications system will 
integrate and coordinate various independent components of ITS 
into a single, comprehensive system that will be controlled 
from the Commission's Transportation Center in central 
Pennsylvania.
    Electronic toll collection, when implemented, will provide 
access around toll barriers for the toll agencies in New York, 
New Jersey, and Pennsylvania.
    Mr. Chairman, I wish to thank you very much for this 
opportunity to come and discuss with you our ITS plans, and 
thank you for your support.
    Mr. Wolf. Thank you very much.
    Do you have fast-toll on the turnpike?
    Mr. Durbin. No, we are in an interagency group with our 
surrounding States known as Easy Pass.
    Mr. Wolf. Meaning what?
    Mr. Durbin. Electronic toll collection.
    Mr. Wolf. Electronic toll. So you just go through and you 
buy one at the end of the month, and it takes it off on a 
monthly as-used basis?
    Mr. Durbin. We do not have that up and operational on our 
system at this point. We are slightly different than our 
neighbors who have used it primarily on bridges and tunnels. We 
do have various entry points and exit points and a rather 
complicated fare system. Our plan is to have Easy Pass up, in 
concert with our neighbors, within three years.
    Mr. Wolf. Mr. Sabo.
    Mr. Sabo. No questions.
    Mr. Wolf. Mr. Torres.
    Mr. Torres. No questions.
    Mr. Wolf. Mr. Pastor.
    Mr. Pastor. No, Mr. Chairman.
    Mr. Wolf. Thank you very much.
    Mr. Durbin. Thanks, Mr. Chairman. Committee members, thank 
you.
    [The prepared statement of Mr. Durbin follows:]

[Pages 647 - 655--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

                    BAY AREA RAPID TRANSIT DISTRICT

                               WITNESSES

HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
DOROTHY DUGGER, DEPUTY GENERAL MANAGER, BAY AREA RAPID TRANSIT DISTRICT

    Mr. Wolf. Congresswoman Pelosi. Welcome, Nancy.
    Ms. Pelosi. Thank you very much, Mr. Chairman. I, begging 
your indulgence, will only be able to introduce our witness 
here today because we're having next door our own hearing on 
Labor/HHS, where we're hearing the intricacies of the cloning 
that went on in England.
    Mr. Wolf. That sounds much more interesting than what we're 
doing. [Laughter.]
    Ms. Pelosi. It's being presented by a Nobel Laureate. So it 
is interesting, but, no, no, it couldn't possibly be more 
interesting. [Laughter.]
    Well, in any event, it did arouse a great deal more 
interest than we usually have at our hearings, but, knowing how 
busy you are, Mr. Chairman, I want to thank you very much for 
the opportunity for BART to make its presentation today and to 
the other members of the committee as well for their interest 
and their time.
    First of all, I want to thank you for making what is 
happening at BART possible to date, both by the appropriations 
and by your thoughtful attention of you and the staff of the 
committee to our full-funding agreement and to the project 
itself. I look forward to your visiting there, hopefully, 
sometime soon.
    I'm pleased to introduce today Dorothy Dugger, who's deputy 
general manager of the San Francisco Bay Area Rapid Transit 
District, otherwise known as BART. Ms. Dugger will bring us up 
to date on the latest plans for building the BART extension to 
San Francisco International Airport. As you know, Mr. Chairman 
and members of the committee, this is the top transportation 
priority for the San Francisco Bay area--indeed, Mr. Torres, 
for the State of California.
    The administration's budget request is $54.8 million, and I 
come here to support that request. The funds will enable BART 
to advance the project in close coordination with the airport 
schedule for construction of the new international terminal, 
the site of the future BART station. This is, of course, a cost 
saving that all this digging is happening at once, this dirt 
flying instead of coming back again to put in the BART station.
    The fiscal year 1998 funds are, therefore, pivotal to 
achieving our region's long-held goal of connecting BART with 
the San Francisco International Airport. As Ms. Dugger will 
discuss in further detail, BART is poised to initiate 
construction of the final segment of the project as soon as the 
full-funding grant agreement is secured.
    Mr. Chairman, once again, I want to thank you for your 
responsiveness to our concerns regarding this request and 
apologize again to you and the members of the committee for my 
having to leave, I am the ranking member there. I'm not really 
the ranking member, but I'm serving as the ranking member 
there, and I must excuse myself, but that isn't because--as I 
know you know, the tremendous interest that we have in this 
project, but the tyranny of the schedule that we are all 
subjected to.
    And, with that, Ms. Dugger will make the presentation for 
BART. Thank you again, Mr. Chairman.
    Mr. Wolf. Thank you. Welcome.
    Ms. Dugger. Good morning, Mr. Chairman and members of the 
subcommittee. As Congresswoman Pelosi has introduced, I'm 
Dorothy Dugger, deputy general manager of BART. I have 
submitted written testimony for the committee's use and will 
summarize that this morning.
    I want to start by expressing our appreciation for the 
opportunity to present our request for the Fiscal Year 1998 
section 3 new rail starts funds for a project that has been 
more than two decades in the making, and which continues to 
advance with broad and unparalleled support throughout the Bay 
area. I'm speaking, of course, of the extension of BART to the 
San Francisco International Airport.
    With the funding and support of this committee in the past, 
we have opened a year ago this week the first phase of this 
project, which was the extension to Colma, just south of San 
Francisco. That station has been well-received. Ridership is 
strong, and, again, we want to thank you for your past support 
that has made that first step possible.
    And before I address our specific funding request for the 
coming year, I want to take the opportunity also to underscore 
our appreciation for your willingness to see the issuance of 
the full-funding grant agreement for the project go forward. 
Administrators Linton and Valentine have responded in detail to 
issues that were raised in last year's Conference Report. The 
requested 60-day waiting period has expired, and we certainly 
appreciate that you have not requested an extension of that 
period.
    As the Congresswoman mentioned, the BART extension is 
planned to be built in tandem with the San Francisco 
International Airport's $2.5 billion expansion program. That 
project is underway. Construction is proceeding, and timing is, 
therefore, critical for the projects to proceed in tandem. 
Delay in our moving forward could undermine the requisite 
dovetailing of construction schedules and ultimately impact 
project budgets, as well as inconvenience to the airport and 
its customers.
    With regard to fiscal year 1998, BART requests that the 
subcommittee appropriate $54.8 million in section 3 new rail 
starts funds, as requested by the administration. This is part 
of a larger $89.8 million request for the Bay area, which 
includes an appropriation of $35 million for the Tasman Project 
in Santa Clara County.
    The Metropolitan Transportation Commission, our region's 
MPO, will be submitting subsequent written comments to this 
subcommittee outlining the region's request in its entirety.
    Again, as Mrs. Pelosi mentioned, upon award of the full-
funding grant agreement, BART is poised to immediately proceed 
with ground-breaking, site preparation, utilities relocation, 
and completion of the right-of-way acquisition. We have 
received bids for the first contract for the site preparation 
and utilities relocation work, and we are poised and ready to 
award that contract. We are also in the process of finalizing 
contract documents for the first and largest of the design/
build contracts associated with this project, and will shortly 
initiate the bid process for that contract, which will 
encompass the line, track work, and systems. Finally, we 
anticipate proceeding with contracting for railcars associated 
with this extension, using the financing mechanisms provided 
for in the project's financial plan.
    In the coming fiscal year, BART will also--our schedule 
calls for the award of three design/build contracts for three 
individual stations along the extension. So we are, indeed, 
ready and poised to proceed.
    As you are aware, the system enjoys extraordinary public 
support that has been reflected in a 70 percent local matchor 
local investment in our overall $3 billion extension program. The SFO 
project, which is the only recipient of Federal funds in that overall 
program, has leveraged this significant local investment in transit 
expansion in our arena. The support we have received is, however, not 
universal, and I'm followed on your agenda today by an advocate of an 
alternative approach to service to the airport. I would stress that it 
is one of the--it is a variation on one of the over 90 alternatives 
that were reviewed during this project development process along an 
extensive process that concluded last summer in a selection of the 
project that we bring before you today, reflecting strong local, 
regional, and State consensus for the project.
    I will not take the committee's time today to dispute some 
of the claims made by the advocates of that alternative. As I 
say, we are beyond that point. We do disagree with the claims, 
particularly on the issue of cost variations between the two 
alternatives, and, importantly, the alternative would eliminate 
our ability to attract over $200 million in local funding that 
is coming to the project and has allowed us to reduce the 
Federal cost share authorized by ISTEA from 75 percent to about 
64 percent of our current project budget.
    Again, our strong appreciation to the committee for your 
past support. We look forward to working together in 
partnership to deliver this long-awaited and much-anticipated 
critical transit access improvement to an airport that is 
projecting over 70 percent growth in its traffic by the year 
2006 and provides critical relief to the already overly-
congested highway that provides the single point of access to 
the airport today.
    Thank you very much, Mr. Chairman.
    Mr. Wolf. I thank you very much. I don't have any 
questions, just a comment for the record. We didn't want to do 
anything to tie you up, but to allow you to move, move ahead. 
And I don't question the project. There are some revenue-
diversion issues that I think have yet to be decided.
    There also is a problem that I guess is more or less how 
you're going to ultimately pay for it at the end. I mean, the 
whole full-funding issue, if we had all the money to fully fund 
all the full-funding agreements, there would still be a 
shortfall, and I think you understand that.
    And, also, 31 percent of all the new start money is going 
to the State of California, and it is really becoming very, 
very tough work these things out. We're going to have a number 
of questions for the FTA when they come up, but I appreciate it 
and I understand it's important because you have terrible 
congestion out there and really have to deal with it, but we'll 
be working together and working with you, but I appreciate your 
taking the time to come.
    Mr. Sabo.
    Mr. Sabo. No questions.
    Mr. Wolf. Mr. Torres.
    Mr. Torres. No questions.
    Mr. Wolf. Mr. Pastor.
    Mr. Pastor. No, Mr. Chairman.
    Mr. Wolf. Thank you very much.
    Ms. Dugger. Thank you very much, Mr. Chairman, members of 
the committee.
    [The prepared statement of Dorothy Dugger follows:]

[Pages 660 - 663--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

                   COALITION FOR A ONE-STOP TERMINAL

                                WITNESS

MIKE SPINELLI, VICE MAYOR, BURLINGAME, CALIFORNIA

    Mr. Wolf. The last witness will be Mike Spinelli, Coalition 
for a One-Stop Terminal. You're vice mayor; is that right?
    Mr. Spinelli. Yes.
    Mr. Wolf. You're vice mayor of?
    Mr. Spinelli. Of the city of Burlingame.
    Mr. Wolf. The city of Burlingame.
    Your full statement will appear in the record as if read. 
Welcome to the committee.
    Mr. Spinelli. Yes, thank you, sir.
    Mr. Chairman, members of the subcommittee, my name is Mike 
Spinelli. I'm appearing on behalf of the Coalition for a One-
Stop Terminal, COST. Cost is an alliance of elected officials, 
individuals, and organizations who are working to ensure the 
extension of BART to the San Francisco International Airport 
provides the best possible airport access for both BART and 
CalTrain riders, and that it is designed in a cost-efficient 
manner and does not drain funds that could better be used for 
other important transportation projects.
    I have submitted a prepared statement for the committee, 
and ask you to accept it for the record. I will just summarize 
my statement.
    Thank you for the opportunity to appear before the 
subcommittee. Please be assured that the views I present are 
representative of those shared by many citizens, businessmen, 
officials, and civic organizations on the San Francisco 
Peninsula, many of whom are identified in my prepared 
testimony.
    We will strongly support bringing BART to the San Francisco 
International Airport as part of a coherent regional mass 
transit plan. We also believe that BART's plans to go beyond 
the airport to Milbrae represent an ill-timed, overly-
expensive, under-funded, and inefficient expansion that 
squanders scarce transportation funds that might be used for 
other equally-important mass transit improvements.
    Mr. Chairman, two years ago I first appeared before you to 
describe the shortcomings of BART's expansion plans. Last year 
a panel of five witnesses appeared to explain how BART could 
save $300 million and sacrifice no transportation benefits by 
ending the extension at a single intermodal station across from 
the airport. A few months ago--or a few months later, the GAO 
completed a report that concluded that BART's cost estimate had 
relied upon unproven savings, included inadequate 
contingencies, and failed to account for escalation. It also 
found that the financing plan for the extension left little 
room for error and did not provide for overruns.
    At about the same time, BART was confronting a draft short-
range transit plan that projected a deficit of between $119 and 
$200 million. How did BART respond? It resolved its own 
financial crisis by assuming a growth in sales tax revenues 
that is 35 percent higher than the 10-year historical average. 
It then addressed the problems with its cost estimate by 
including escalation, but counteracting the cost or increase by 
assuming new and specified savings from value engineering and 
by reducing the amounts included in the contingencies.
    It took this action despite the fact that its two most 
recent extensions exceeded the cost estimates in their 
environmental documents by 23 percent and 68 percent. BART also 
explained its plans to fund cost overruns from surcharges 
collected at the Daly City Station, and a special premium 
surcharge at the Airport Station. Unfortunately, the Daly City 
Station surcharges were already needed to service existing 
debt. What little is left over is already committed to other 
critical capital projects.
    BART had another problem. The subcommittee and certain 
Senators have particularly questioned the legality of plans for 
the airport to pay for the entire line through the airport in 
light of BART's plan to use the Airport Station during certain 
hours as a stop on the San Francisco-Milbrae service. BART had 
a solution for this problem also. It decided that, contrary to 
the operational plan discussed in the final EIR, no San 
Francisco-Milbrae trains would run through the airport. 
Unfortunately, such an operational plan is unrealistic. It most 
likely provides service to the--it would most likely provide 
service to the airport during off-peak hours of only one train 
per hour. In fact, only one in three trains will serve the 
airport during peak hours. Mr. Chairman, this is not 
responsible transit planning.
    BART has simply not demonstrated that the Bay area can 
afford its extravagant plan. Cost overruns are likely because 
of the questionable assumptions in BART's cost estimate and 
virtually inevitable because BART's financing plan depends upon 
highly-unrealistic appropriations--an example: $120 million 
through years five through seven. If BART is to pay for such 
overruns, it must divert funds from operations in other needed 
capital improvements, modify the project at a time when the 
modifications will be far more difficult, or come begging to 
the Federal Government.
    Perhaps, like many highways and mass transit projects that 
get out of hand, the extension will be abandoned after 
significant expenditures have already been made. Under that 
scenario, or under any scenario, other transit needs of the Bay 
area will likely to unmet.
    These risks are unnecessary because the cost-effective 
alternatives are available. Last year, COST presented a 
comparison of BART's plans with alternative 5(b), an off-
airport intermodal station. Alternative 5(b) in real dollars is 
approximately $300 million less expensive than the current 
plan. As we know, BART's own ridership projections that 5(b) 
would produce at least equal transit benefits to the current 
plan.
    Recently, a number of interested parties have suggested a 
compromise, a BART extension that ended at the Airport Station 
with an intermodal San Bruno Station, which would save hundreds 
of millions of dollars. It also resolves the concerns raised by 
COST and others.
    BART is insisting on going to the airport or going to 
Milbrae. It is not a good reason to embark on such a project 
that threatens the financial stability of its sponsors and the 
vitality of other regional transportation systems.
    In sum, Mr. Chairman, BART has chosen an overly-costly 
option that it cannot afford, that could threaten equally and 
more important transportation, and before Congress gives BART 
the go-ahead for the extension, it should insist that BART 
revise its plans to eliminate waste and to accommodate the 
broader transportation needs of the San Francisco Bay Area 
region. If it must withhold funds to accomplish this end, it 
should do so.
    Thank you, Mr. Chairman, for allowing me to testify, and I 
would be pleased to provide additional information to the 
subcommittee and answer any questions that you might have.
    Mr. Wolf. I thank you, Mr. Spinelli. This is a difficult 
issue. It's very difficult for the committee to tell the people 
of your region what they ought to be doing.
    Mr Spinelli. I understand that.
    Mr. Wolf. There are some--when you look at this, I believe, 
from an objective look--and I understand the transportation 
problems because we have major ones here--I really wonder how 
you meet the final cost, and yet that's probably not for us to 
say. The funding at the Federal level has been capped at $750 
million, as you know, in the report. As we reach the deficit-
reduction numbers or reach a balanced budget that both parties 
are committed to by the year 2002, these things become more 
difficult. It was actually easier last year than it was this 
year, and this year a little easier than it will be next.
    So you raise some valid questions. I hope you're part of 
that group that's supposedly meeting out there that we hear of, 
but I think this is really going to be an issue for the people 
from your region to decide. We will have a lot of questions at 
the hearing when FTA comes before us and when the FAA comes 
before us. There are some potential problems of revenue 
diversion and things like that. Hopefully, they can all be 
worked out, but I appreciate your taking the time.
    Mr Spinelli. Well, thank you, and I might add that we 
weren't part of that group and I would love to be part of it, 
or we would love to be part of it.
    Mr. Wolf. Well, they probably should have had you there, 
even if you weren't going to completely like what they did. I 
think to have everybody together is probably the best way to 
reconcile differences.
    Mr. Pastor.
    Mr. Pastor. I have no questions.
    Mr. Wolf. Thank you. Thank you very much for coming.
    Mr Spinelli. Thank you, sir.
    Mr. Wolf. The hearing will be adjourned and we'll reconvene 
at 1:00 o'clock.
    [The prepared statement of Mike Spinelli follows:]

[Pages 667 - 675--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.
TRI-COUNTY COMMUTER RAIL AUTHORITY
PALM BEACH COUNTY
DADE COUNTY EXPRESSWAY AUTHORITY (DCEA)
CITY OF MIAMI BEACH

                                WITNESS

HON. CLAY SHAW, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA
CAROL ROBERTS, COMMISSIONER, TRI-COUNTY COMMUTER RAIL AUTHORITY, AND 
    CHAIRMAN OF THE BOARD, TRI-RAIL
GIL ROBERTS, TRI-COUNTY AUTHORITY
HON. WILLIAM LEHMAN, CHAIRMAN, INTERGOVERNMENTAL AFFAIRS COMMITTEE, 
    DCEA BOARD, AND FORMER REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
SERVANDO M. PARAPAR, EXECUTIVE DIRECTOR, DADE COUNTY EXPRESSWAY 
    AUTHORITY
JOSE GARCIA-PEDROSA, CITY MANAGER, CITY OF MIAMI BEACH

    Mr. Wolf [presiding]. Welcome. Welcome to the committee. 
Mr. Sabo will be here in a little while.
    The first witness will be the Tri-County Commuter Rail 
Authority, and other witnesses from south Florida at the table 
together. So maybe as you begin everyone could identify 
themselves.
    We want to welcome Mr. Shaw. We go way, way back together, 
having been elected together at the same time. Mr. Lehman, who 
I served under for a number of years, and the rest of you we 
welcome.
    Clay, do you want to introduce the witness
    Mr. Shaw. Yes, sir, if I could; I've got a subcommittee 
meeting that I've got to chair. So I'll be excusing myself 
after--if I may just introduce the entire panel----
    Mr. Wolf. Sure.
    Mr. Shaw [continuing]. And then go on?
    And I'd like to thank you, Mr. Chairman, for again 
tremendous patience which you have shown to us over the years 
for coming in on these projects that are most important to 
south Florida.
    I believe strongly that each of the projects that we're 
going to be talking about this afternoon are of the utmost 
importance to help overcome the current state of traffic 
congestion in south Florida. I believe you, Mr. Chairman, are 
somewhat familiar with the problems of growth that we've got in 
Florida and dealing with them and constantly trying to catch 
up.
    The witnesses here today are committed to improving the 
transportation in south Florida and are members of the south 
Florida congressional delegation. In addition to the testimony 
you will receive today, I will be submitting written testimony 
which I ask that you allow to become a part of this record.
    Mr. Wolf. Without objection.
    [The prepared statement of Hon. Clay Shaw follows:]

[Pages 677 - 679--The official Committee record contains additional material here.]


    Mr. Shaw. You will first hear from Commissioner Carol 
Roberts, who's to my immediate left, from Palm Beach County. 
She'll be talking to you on Tri-Rail and Palm Tran, and with 
her is Mr. Gil Roberts with the Tri-Rail Authority. Following 
her will be a distinguished gentleman who needs no 
introduction, whom you've already acknowledged, our former 
colleague, former chairman of this subcommittee, Mr. Bill 
Lehman, who will allow Mr. Servando Parapar to brief you on the 
Dade County Expressway Authority. Finally, following them will 
be the city manager of Miami Beach, Mr. Jose Garcia-Pedrosa, 
who will say a few words about the city of Miami Beach's 
project. With him is Mr. Neisen Kasdin, who is the Commissioner 
from the city of Miami Beach.
    Again, we thank you for allowing us to appear before you, 
and I'm very hopeful that these projects will be looked on 
favorably.
    Mr. Wolf. Thank you, Clay.
    Do you want to begin?
    Ms. Roberts. Thank you very much.
    Mr. Wolf. State your name for the record for the reporter. 
It will be helpful.
    Ms. Roberts. Fine. My name is Carol Roberts, and I'm a Palm 
Beach County Commissioner. Today I'm appearing in two roles. 
I'm appearing as the chairperson of the Board of Florida's Tri-
County Commuter Rail Authority, known as Tri-Rail, and I'm also 
appearing before you as a county commissioner for Palm Beach 
County. I'll try to be very brief, but it is two projects.
    Tri-Rail, as you're familiar with, has provided a commuter 
rail service on 67-mile State-owned rail line from Miami to 
West Palm since 1989. I know I've appeared before you in 
previous years, and you know our top priority is to add a 
second track to our single-track rail corridor.
    We have received about 18 percent of the total Federal and 
State funds needed to complete the project, which includes $49 
million in new start funds from Congress. The actual 
construction on two of the ten project phases will soon be 
done--the first phase by June and the second phase by year-end.
    We're on track, but with four-fifths of the funding still 
needed, it will take many years at this rate. Assuming even a 
modest Federal share of 44 percent, we still need $157 million 
from this committee to complete this project. Unfortunately, 
our project was not in the ISTEA 1991 bill, and we have not yet 
had a full-funding grant agreement with FTA. We just missed the 
1991 ISTEA authorization bill since our service initially began 
as a temporary traffic mitigation issue in 1989, and our 
double-tracking plan did not start until 1992, just after ISTEA 
passed.
    I want to thank the subcommittee for allowing us to get 
started in the meantime. Mr. Chairman, the big issue for Tri-
Rail is: how do we get our double-tracking project done as soon 
as possible? Without that second track, we will always have 
difficulty.
    Our present single-track corridor, which AMTRAK uses also, 
poses a greater challenge for us than most typical commuter 
situations. Unlike the typical commuter with a morning inbound 
and an evening outbound, our south Florida rail corridor has a 
constant two-way flow. That two-way flow makes adding a second 
track a necessity for increased train frequency, increased 
schedule reliability, and increased ridership. With a second 
track, instead of running a train every hour, we can have 
headways every 20 minutes, but without a second track, we can't 
get there from here, so to speak.
    Tri-Rail, FDOT, and the south Florida congressional 
delegation are working hard to ensure this project is properly 
authorized in ISTEA II with a full FTA funding grant, and we 
understand that if those underpinnings are nailed down, it 
makes your job much easier.
    We'd like to ask for Tri-Rail for two things. First, please 
keep Tri-Rail's new start grant funds flowing, so we can make 
progress as rapidly as possible. We could obligate $40 million 
for the year 1998. We've always timely obligated all of our 
past funds from Congress.
    Second, since we need to think creatively and look at all 
options, to accelerate construction of our double-tracking, we 
also request that Tri-Rail be eligible for some form of a 
direct loan, not as a substitute for grant funds, but as an 
additional tool to speed construction.
    We understand the administration will be proposing further 
loan options for transportation projects of national 
significance, as was proved recently for the 20-mile Alameda 
corridor in California. For now, I'd just simply ask that we be 
allowed to follow up with the subcommittee to explore options 
and determine if such an option may be helpful to us.
    Palm Beach County--and I'm going to switch roles because we 
also have a project with Palm Tran, which does connect. It's 
our rover system, and it certainly connects with this 
particular Tri-Rail.
    We rank 40 in size among urban areas with a resident 
population of almost a million, and a major portion of this 
population is elderly, retired, and minority low income. We 
were the worst system in the United States for a system our 
size. We improved our system in August of 1996 by doubling our 
system, and at that time Palm Beach County, as a county 
commission, took to pass what the State gave us an opportunity 
to do, which was a 6-cent gas tax, a local 6-cent gas tax 
option. We passed that gas tax option in August of 1993, and we 
set up a transit trust fund, and 50 percent of that fund was 
dedicated to improving transit service in Palm Beach County.
    We went to 72 new fixed-route buses. We originally had 52. 
We added 72 more, and several paratransit vehicles were needed 
to implement the service expansion. In addition, we needed to 
construct, and have constructed, a new main administration 
operation and maintenance facility in central Palm Beach County 
and a satellite maintenance facility in South County. South 
County is open and operational; the main facility is under 
construction.
    Total capital cost of this expansion was estimated at $29.8 
million. Of this amount, a major portion of needed capital has 
been funded with the Federal Transit Administration section 9 
funds available from 1994 to 1997 to our county. To fund the 
final project of 18 replacement and 10 expansion buses, it's 
critical that Congress and FTA support our efforts with a 
section 3 discretionary earmark. I'm here today to solicit your 
support for full funding of our section 3 grant request of 
$5,536,000.
    We know that you have a lot of requests. We believe that we 
have three reasons, excellent reasons, why this request should 
receive priority.
    First and foremost, the 18 replacement buses are over 17 
years old. The 10 expansion buses are desperately needed by our 
senior citizens, our minority population, and as we go into 
transporting people to jobs, for jobs.
    Second, Palm Beach County, as I told you, passed a 6-cent 
gas tax. This new funding source gives us the long-term 
operating cost for the expanded operation.
    And, third, we have increased our transit ridership over 
100 percent since we opened in 1996, August, with a new system. 
Clearly, we were in the right place at the right time with the 
right amount of dedicated funding to fund the operating costs. 
We do need those additional buses, though, to continue the 
expansion that's so desperately needed and to serve our 
population.
    Again, I'd like to thank you for the opportunity to be 
here, for letting me go on more than five minutes, and I'd be 
pleased to answer any questions on either of the projects.
    Mr. Wolf. Thank you very much.
    [The prepared statements of Carol Roberts follow:]

[Pages 683 - 694--The official Committee record contains additional material here.]


    Mr. Lehman.
    Mr. Lehman Well, thank you, Mr. Wolf. It's a pleasure to be 
here, as always. It's really deja vu being back in this room 
again.
    My name is Bill Lehman, and I'm a member of the Dade County 
Expressway Authority, and before yielding to Servando Parapar, 
I think for the record I just want to comment on the fact that 
the Dade County Expressway Authority is more than just an 
expressway authority because we have the capability to use 
expressway funding for other forms of transportation, mass 
transit and otherwise. And so we really have a wide scope of 
needs to fulfill, and we have the power to do so.
    But at this time I want to yield to our executive director, 
Servando Parapar.
    Mr. Parapar. Thank you so much. Thank you so much, 
Congressman.
    Good afternoon, Chairman Wolf and distinguished members of 
the Transportation Appropriations Subcommittee. My name is 
Servando Parapar. I'm the executive director of the Dade County 
Expressway Authority. I thank all of you for the opportunity to 
speak before you today.
    In the way of background, the Dade County Expressway 
Authority was enabled by the Florida Legislature Expressway 
Authority Act and created by the Dade County Board of County 
Commissioners in 1994. The Dade County Expressway Authority's 
primary role is to operate and maintain the toll road 
expressway system in Dade County, Florida, as well as to 
improve and create programs to improve transportation services 
county-wide, as ex-Congressman Lehman alluded to.
    Revenue collection and management and direction in the 
creation and expansion of the public transportation system and 
facilities are key missions of the Dade County Expressway 
Authority. Last December 10th, the Dade County Expressway 
Authority sold $80 million worth of bonds in a very favorable 
market and simultaneously took control of five of Dade County's 
major roadways. For those of you that are familiar with, State 
Road 112, State Road 836, State Road 874, State Road 878, and 
State Road 924.
    The No. 1 priority of the Dade County Expressway Authority 
is to improve traffic flow at toll collection points throughout 
the system and on high-volume roadway segments via an 
electronic toll collection system. The Dade County Expressway 
Authority seeks intelligence transportation funds to automate 
toll collection by use of these electronic scanning devices.
    The total cost of this endeavor is not determined at the 
present, and the remainder phases will be funded from toll 
revenues. The Dade County Expressway Authority has contracted 
with the Florida Department of Transportation to implement a 
system called Sun-Pass. This is a statewide system that has 
been designed and conceived by the State and will allow 
somebody with one single transponder to go through all the toll 
facilities in the State.
    The initial phase of Sun-Pass is scheduled to be 
operational in Dade County by the second half of 1998, but that 
initial phase is less than 20 of the existing almost 40 toll 
lanes in Dade County. So we have a long way to go on there.
    The integration of this initial phase will cost 
approximately $5 million. Obtaining these funds will expedite 
implementation of the Dade County Expressway Authority's No. 1 
priority. That is to improve traffic flow and relieve 
congestion at the toll collections point. Thus, we are 
requesting $5 million in ITS funds to serve as seed money 
toward the total and early implementation of this electronic 
toll collection system in Dade County. This technology is among 
those identified in the U.S. Department of Transportation's 
Operations Timesaver Program, which proposes to deploy the 
intelligent transportation infrastructure, designed to reduce 
the average commute by 15 percent, and specifically the vehicle 
through-put could increase as much as 300 percent over the 
existing lanes with all additional expected advantages of the 
toll plaza.
    Thank you so much for the opportunity to address this 
committee today, Mr. Chairman.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Mr. Parapar follows:]

[Page 697--The official Committee record contains additional material here.]


    Mr. Garcia-Pedrosa. Thank you, Chairman Wolf, Congressman 
Sabo. I'm Jose Garcia-Pedrosa, city manager of the city of 
Miami Beach. With me is Neisen Kasdin, who is a commissioner of 
the city of Miami Beach.
    And thank you for the opportunity to appear before you this 
afternoon. As you may recall, we were here last year seeking 
funding for phase one of an electric shuttle park-and-ride 
circulator system for the city of Miami Beach, and we were 
thrilled and delighted that the subcommittee, and eventually 
the Congress, provided us that funding for phrase one. We used 
the appropriation as we indicated we would, to purchase the 
first part of a fleet of 22-passenger electric shuttle 
vehicles, the first seven of which have already been acquired. 
These vehicles will serve a highly-congested urban residential 
and commercial historic district in the entertainment area of 
the city of Miami Beach.
    We are here this afternoon requesting funding for phase two 
of that project. Phase two will include the design and 
construction of a multi-modal center and has been estimated at 
a cost of $21 million over three years. The first-year funding 
that we are seeking is $6.3 million to be used for land 
acquisition and architectural and engineering services in 
connection with this multi-modal facility. The multi-modal 
facility will provide a vital transportation hub for the area. 
In fact, we have not identified quite a similar facility 
anywhere in the region, because it will also serve as a link 
for the future east-west corridor of metropolitan Dade County 
that will link together the Palmetto Expressway, State Road 
836, the Miami Intermodal Center at Miami National Airport, 
downtown Miami, the seaport, and the island city of Miami 
Beach.
    We seek to include in the multi-modal facility a link to 
the bikeway paths that we are building, and even to the water 
taxi service that currently exists. So it will be truly a 
unique hub of transportation opportunities.
    The second phase will provide for a commuting 
transportation center that will bring together parking, the 
electric shuttle system, local transit services, maintenance 
and charging facilities for these electric shuttle vehicles, 
and a commuter visitor store where commuters can buy passes and 
obtain information about the surrounding area.
    The Miami Beach Transportation Management Authority, which 
is the city's private/public partnership, has the financial 
support of the State of Florida Department of Transportation, 
which has already put in about $1,300,000 into this project; 
the Dade County Metropolitan Planning Organization and Transit 
Agency, the Florida Environmental Trust. This being an 
electric, pollution-free vehicle, we also have, and are pleased 
to have, the support of the Clean Cities Coalition, the Florida 
Department of Energy, the Florida Alliance for Clean 
Technologies, and Florida Power and Light Company. In fact, 
most all of those entities have contributed not only their 
support, but financial resources to this project.
    I might also add that we have extensively sought, and been 
successful in obtaining, private funding, including a million 
dollars in advertising from Paxton Communications and others.
    The objective of the project is to reduce demanding traffic 
on the already over-capacity roadway system of our island city 
by providing a comprehensive park-and-ride system. The project 
is totally supported by the Miami Beach City Commission and by 
the Miami Beach community.
    We ask for your support for this second phase of this 
critical program, and we appreciate very much your prior 
support of phase one and the opportunity to appear before you 
this afternoon. Thank you.
    Mr. Wolf. Thank you very much.
    Mr. Sabo.
    Mr. Sabo. No, no questions, except to say hello to our 
former chairman who spent hours and hours in this room. It's 
good to see you again, and give Joan our best.
    Mr. Wolf. Mr. Olver.
    Mr. Olver. No questions.
    Mr. Wolf. Well, we want to thank you very much. Bill, it's 
good seeing you. We appreciate your taking the time. We may 
have some questions later-on.
    The problem with phase one, there's always a phase two. 
[Laughter.]
    Thank you for coming by.
    [The prepared statement of Mr. Garcia-Pedrosa follows:]

[Pages 700 - 701--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

                         TAMPA BAY RAIL PROJECT

                                WITNESS

HON. CHARLES CANADY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
HON. JIM DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA
ED TURANCHIK, COUNTY COMMISSIONER, HILLSBOROUGH COUNTY

    Mr. Wolf. From Hillsborough County, Congressman Canady and 
Congressman Davis. Charles, do you want to lead off? And 
welcome. Welcome to the Committee.
    Mr. Canady. Thank you, Mr. Chairman. I'm very pleased to be 
here today.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to testify today in support of a request for $4 
million to conduct environmental studies for the Tampa Bay Rail 
Project, a rail line which includes terminals in Plant City and 
Lakeland, Florida, both of which I represent. I'm very pleased 
to be here today with Representative Davis, who represents 
Tampa, and Commissioner Turanchik, representing Hillsborough 
County, and they will be presenting statements as well.
    But before I begin, I also want to express my appreciation 
to you, Mr. Chairman, for your consistent support of this 
project in the past. We very much appreciate the support that 
you and the committee have shown for this project.
    Previously appropriated funds have played a crucial role in 
advancing the project into the major investment study phase. 
The MSI was launched in October 1996 and is expected to be 
completed in late 1997 or early 1998. It will look at each of 
the major transportation improvements and land use decisions 
that need to be made to address mobility in the region. A range 
of transportation options are being considered with a 83-mile 
transit system as the centerpiece of the study.
    The proposed transit system being studied would consist of 
seven lines and 31 stations that would run through the most 
heavily populated areas of Hillsborough County and extend out 
to both Polk and Pinellas Counties. Approximately 67 miles of 
the track for the system are already in place and owned by CSX 
Transportation.
    Preliminary regional discussions with CSX management reveal 
a receptivity toward the concept of shared utilization of the 
tracks. Hillsborough County has already initiated discussions 
with major property owners concerning the other 16 miles of 
track, and those owners may be willing to dedicate those tracks 
to the rail system.
    The regional rail system is conveniently situated adjacent 
to most of the population and employment centers in the region. 
Studies have indicated that 41 percent of the regional 
population, 43 percent of the regional jobs, and 38 percent of 
the available hotel rooms are located within three miles of the 
proposed system. The system would also serve a large number of 
the regional attractions, a list of which includes the Tampa 
Bay Convention Center, the Florida Aquarium, the Tampa Bay 
Lightning Ice Palace, Busch Gardens, Tampa International 
Airport, and the Universities of Tampaand South Florida. The 
rail system would also extend to Lakeland in Polk County, which is my 
hometown, thus serving the eastern side of the Tampa Bay area and 
greatly reducing the heavy commuter and tourist traffic along I-4.
    As the regional population grows, individuals will need a 
viable transportation system to travel to their jobs and to 
other destination points within the community. The current 
travel corridors are already heavily congested and cannot be 
expanded without a significant expense for right-of-way 
acquisition. Moreover, Florida's growth management laws limit 
the type of developments that can occur through concurrency 
requirements. Developments of regional impact require adequate 
transportation before these developments can be initiated. 
There are several proposed developments of regional impact that 
cannot be advanced within the current transportation system and 
can only be advanced when an adequate transportation system is 
completed.
    It is expected that work on the draft Environmental Impact 
Statement will begin in late 1997 and be completed by the end 
of 1998. The Florida Department of Transportation and the 
Hillsborough County Metropolitan Planning Organization have 
identified $7 million in Intermodal Surface Transportation 
Efficiency Act funds that would partially complete the funding 
for the PE/DEIS phase of this project. Another $4 million from 
the new starts program would complete the funding for this 
phase of the project.
    Your assistance and support in providing $4 million to 
complete this phase of the regional transit project would be 
greatly appreciated. This funding, Mr. Chairman, is critical to 
maintaining the momentum of this project. I stand ready to 
assist your subcommittee however possible in connection with 
this matter.
    Thank you.
    Mr. Wolf. Thank you, Charles.
    Congressman Davis.
    Mr. Davis. Thank you, Mr. Chairman. Charles has covered 
virtually all the details for the presentation. Let me just add 
a couple of things.
    One is there has been a tremendous amount of preparation 
that's taken place that you will hear from Commissioner 
Turanchik. Our community has come together from the level of 
neighborhood and civic associations through the various Chamber 
of Commerces and the business interests. And so this really 
represents a very integrated and thoughtful development as to 
the merits of this project. It also has a definite regional 
component, as evidenced by the fact that Representative Canady 
and I are sitting side by side and recognize this is something 
that will be mutually beneficial to our neighboring counties.
    We enjoy the benefits of living in a heavy growth State, 
but we in Florida have learned that managed growth is terribly 
important, and having this rail system using existing tracks is 
very important to really our immediate and our future managed 
growth. As Charles mentioned, our State has a law that's 
referred to as the Growth Management Act that requires that the 
transportation infrastructure be in place concurrent with the 
initiation of development of a project. Charles and I worked 
together on that issue in the Florida legislature as State 
representatives. It is a good policy, but it puts a burden on a 
community to put the roads or rail in place at the time the 
development is going to occur. We need this project in order to 
continue quality managed growth in our community.
    This subcommittee has been generous in the past in funding 
the study, and we're simply asking for the opportunity to 
continue the effort to complete the study to determine when the 
project is ready to go.
    Mr. Wolf. Okay, thank you very much.
    Mr. Turanchik. Mr. Chairman, if I might just briefly--
    Mr. Wolf. Sure.
    Mr. Turanchik. My name is Ed Turanchik.
    Mr. Wolf. And your full statement will be in the record.
    Mr. Turanchik. Yes, I'm not going to read my statement.
    Mr. Wolf. That's okay. No, take your time.
    Mr. Turanchik. Just very briefly, we are aware of the 
issues facing the Congress and the Nation, severe shortages of 
transportation dollars. We've got a serious deficiency in 
roadway construction. What we're putting forward is a unique 
project in this country. I know people stand before the 
committee and say that. We're using existing rail lines that 
have one train a day on them and talking about self-propelled 
rail vehicles. We're talking about an 83-mile project which has 
an average cost of about $5.5 million per mile. Now that's very 
low cost.
    In the authorization legislation, we're talking about a 
Federal share of that project in the 35 to 40 percent range. So 
we're really trying to talk about a partnership with the 
Federal Government, very low capital cost, very high coverage 
in terms of regional project that really, I think, is 
extraordinary in terms of projects that you will see. The next 
phase for that is $4 million, and Congressmen Davis and Canady 
are right; there's a tremendous amount of regional cooperation 
and partnership on this.
    We also have requests before this committee for $3 million 
for rolling stock. I know the bus fleet in the country is a big 
issue. Ours is average of over 10 years in age.
    Then we are also proceeding with a streetcar, historic 
streetcar project, which we have managed through local and 
ISTEA funds to fund virtually the whole cost of, and we're 
looking at starting construction next year. There's one piece 
that's missing, and that is a streetcar station facility that 
will actually be part of an intermodal facility that will 
interface with this regional rail system in a streetcar system 
that will run to various attractions that both Congressmen have 
mentioned.
    I know that you have a tough schedule and just appreciate 
that you are affording us this opportunity to speak to you at 
this time.
    Mr. Wolf. Well, thank you very much. We appreciate it.
    Mr. Sabo.
    Mr. Sabo. No questions.
    Mr. Wolf. Mr. Olver.
    Mr. Olver. No questions.
    Mr. Wolf. Well, thank you, Charles Canady and Congressman 
Davis. We appreciate it, and more information as it comes up, 
we'll be back to you, and if FTA testifies and you want to 
submit anything else, just let us know.
    Mr. Canady. Thank you, Mr. Chairman.
    [The prepared statements of Hon. Charles Canday, Hon. Jim 
Davis, and Ed Turanchik follow:]

[Pages 706 - 713--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

                        TWIN CITIES TRANSITWAYS

                               WITNESSES

HON. BRUCE F. VENTO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA
MARK ANDREW, COUNTY COMMISSIONER, HENNEPIN COUNTY, MINNESOTA
PETER McLAUGHLIN, COMMISSIONER AND VICE CHAIRMAN, HENNEPIN COUNTY 
    REGIONAL RAILROAD AUTHORITY, AND CHAIRMAN, TWIN CITIES METROPOLITAN 
    LRT JOINT POWERS BOARD

    Mr. Wolf. Mr. Sabo.
    Mr. Sabo. Mr. Chairman, it's my privilege to introduce to 
you two distinguished county commissioners from Hennepin 
County: Mark Andrew, who will be speaking to a Hennepin County 
works program, and Peter McLaughlin, who will be presenting a 
unified local request for some transitway funding.
    I must say that the transit request is historic. We have 
been very divided for years over how to proceed on transit, and 
the request that Commissioner McLaughlin is presenting to the 
committee today has the support of local officials, the 
Metropolitan Planning Agency, and the State Department of 
Transportation. It represents lots of geographic and political 
agreement that's been lacking for a long time and is a welcome 
step forward. I think it was only finalized within the week, 
and so we're very pleased to have both of you here, and thank 
you for your service.
    Mr. Wolf. Thank you very much. Proceed. Your full statement 
will appear in the record.
    Mr. McLaughlin. Yes, thank you, Mr. Chairman. I very much 
appreciate being here. I'm Peter McLaughlin. I'm vice chair of 
the Hennepin County Regional Rail Authority and chair of the 
seven-county Metropolitan LRT Joint Powers Board.
    I first want to thank Congressman Sabo, my Congressman, for 
his leadership on these issues and his work back home in 
Minnesota. I also want to thank Congressmen Ramstad, Vento, and 
Luther, who are supportive of this project as well.
    With me on my left is Rafael Ortega, who is the vice chair 
of the Ramsey County Board and the chair of the Ramsey County 
Regional Rail Authority, and also vice chair of the Joint 
Powers Board.
    We are here today, I am here today, representing the Seven-
County Joint Powers Board, and we are, in fact, united, as 
Congressman Sabo indicated. We are the fifteenth largest region 
in the country, the fifteenth largest. We have half, over half, 
the population of the State of Minnesota, and all seven 
counties are united in the support of this proposal from the 
region. The mayors of Minneapolis and St. Paul are supportive, 
the Metropolitan Council, from which you have a letter from its 
chair, Kurt Johnson. That's the MPO in the region. They are 
supportive. He is appointed, as are all the members of the 
Council, by Governor Carlson, and they are supportive of this 
as well. And, as the letter indicates, the Department of 
Transportation of the State and the Airports Commission are 
also supportive. So we have, indeed, come here today united 
with this request after many, many years of struggle.
    The project connects the key economic centers in this 
region--downtown Minneapolis, 140,000 jobs and anywhere from 
30,000 to 70,000 new jobs by the year 2010. There is a map in 
the testimony; you can take a look at this, Mr. Chair and 
members.
    The airport, a decision has been made about where the 
airport--that the airport is going to stay where it is now 
located. They are spending over a billion dollars within the 
next few years on renovations, and this project would connect 
both Minneapolis, St. Paul, and Anoka County to that airport 
with a transitway. The Mall of America is on this project. It's 
the third most popular destination in North America and a big 
job center as well.
    Downtown St. Paul, 68,000 jobs and much new work and 
redevelopment on the riverfront, where their transitway would 
go. The University of Minnesota, home to 40,000 students, 
18,000 jobs, and, of course, the No. 2 ranked in men's 
basketball, who are going, we hope, to clinch the title in the 
Big Ten tonight----
    Mr. Wolf. Do we hope that? [Laughter.]
    Mr. McLaughlin. We're not talking about the tournament yet, 
Mr. Chairman. I know we've got some ACC teams that may have 
some interest in that.
    The North Town Shopping Center is the last connection in 
Anoka County. All of these would be tied--it would be 
transitways, central city and suburbs, and this would provide 
the underpinnings for economic prosperity in the Twin City area 
through infrastructure investment.
    The total request over a three-year period would be $45 
million, $24.5 million in 1998. It would be split among the 
three projects. The first priority for the region, Hiawatha 
Transitway. It would be for construction of that transitway, a 
$32 million request, and it would take the transitway from 
downtown Minneapolis to the airport and the Mall of America. 
The second component is rivertown connection to St. Paul, for a 
major investment study to look at minor bus service, exclusive 
busways, LRT, or commuter rail in that corridor, and, again, it 
would tie in from the airport. You'd have a connection to the 
Mall of America, the airport, and then into downtown St. Paul.
    And, finally, the Northstar line into Anoka County; it 
would connect to the North Town Transit hub, and that's where 
we have the shopping center, sort of the northern shopping 
center. So we have three major pieces of the region tied 
together.
    Mr. Chairman, we would appreciate this. We have the local 
share in place, and we are hoping that we can move forward in 
fulfilling our regional plan in getting this funded and having 
the infrastructure we need to succeed.
    Thank you, Mr. Chairman.
    Mr. Andrew. Mr. Chairman, thank you very much for allowing 
us this time to testify. My name is Mark Andrew. I'm the 
Hennepin County Commissioner in Hennepin County, the city of 
Minneapolis, and some of the western suburbs.
    And we'd also like to thank our Congressman, Congressman 
Sabo, for the help he's given us on this and myriad other 
issues.
    Mr. Chairman, members, the issue of transportation, 
particularly in the central cities, has been elevated again 
back to the top of our policy agenda, and I think that that has 
happened for a lot of reasons, not the least of which is the 
impact that good transportation infrastructure development has 
on other systems within our central cities, particularly on 
housing patterns, on economic development, on the environment, 
and, of course, on the business of moving people and 
facilitating the movement of people.
    We are looking at transportation in a lot of different ways 
now to help resolve some of these endemic social problems that 
plague our cities, and probably the most important thing we can 
do at this point is make sure that the infrastructure 
transportation system is funded and in place. Since 1986, Mr. 
Chairman, this committee has appropriated about a million 
dollars in funding to Hennepin County for the purposes of 
examining alternative transportation options and transportation 
corridor enhancements. We have been working, at the direction 
of this committee, with the University ofMinnesota's Center for 
Transportation Studies, and Hennepin County has been using a very, very 
critical rail corridor within the city itself as the case study for 
researching the role of transportation and creating sustainable 
communities.
    Hennepin County currently owns about four-and-half miles of 
the rail corridor that extends east-west across the city of 
Minneapolis and which is home to a lot of--thousands, in fact--
of citizens who are on public assistance, who have a tremendous 
need for transportation enhancements, and we've also been 
working with the city of Minneapolis and have devised a mixed-
use development in this six-mile corridor that will ultimately 
accommodate commuters, bikers, pedestrians, light rail transit, 
ultimately, as well as become a new urban greenway for the 
city.
    The transportation piece is obviously the most critical of 
all of these pieces, and the study that your financial support 
to us has facilitated has allowed us to examine how to best 
make these dollars work to the advantage of the public with the 
least amount of impact on taxpayers. What's really significant 
about this corridor, referred to as the 29th Street Corridor 
and commonly referred to in the community as the Mid-Town 
Greenway, is that it spans all through south Minneapolis and 
runs through one of the most densely-populated areas of the 
entire Midwest. When this project is finished, the transit 
corridor will provide working people with an alternative route 
to their jobs, as well as give thousands of people who are 
dependent on public transportation alternative modes of moving 
around.
    This development will also help clean up contaminated sites 
and foster public, as well as private, economic investment into 
our community, private housing development in the corridor. 
Providing transportation will stabilize this area and make the 
city run a lot better.
    Mr. Chairman, to conclude, the county is requesting 
renewing funding once again, so that we can continue the 
development of this extremely important project, and we would 
like to, once again, thank you for the tremendous support and 
assistance we've had from your committee.
    Mr. Wolf. Thank you very much, Mr. Andrew.
    Mr. Sabo.
    Mr. Sabo. I just want to note Congressman Vento is present, 
who is also, I know, part of the request.
    Mr. Wolf. Oh, would you like to--I'm sorry, I didn't----
    Mr. Vento. Well, I just walked in, Mr. Chairman. I see 
you're recognizing me. I appreciate the consideration. The 
county commissioners here have worked hard to bring together 
the seven counties which comprise the Minnesota Metropolitan 
Area, and I think we have a great synthesis of cooperation and 
effort that's going forward.
    This obviously in the first phase would be a request for 
funding of the transitways or exploration, and work on the 
riverview corridor, which runs from--would run from St. Paul, 
which is a principal interest of mine, as well as, of course, 
the decades of work that have been done in the Hiawatha 
corridor by Congressman Sabo and by the Hennepin County 
Commissioners.
    So we're very interested in seeing this move forward. It's 
the sort of effort that can, in the end, end a lot of 
congestion and provide efficiency and economy in terms of 
moving people around in our communities. The transitway is what 
is being accepted. I understand it's been endorsed by the 
governor and by other authorities. It's been part of the 
metropolitan. We hope that funding would be available for this 
project this next Fiscal Year.
    Mr. Wolf. Thank you very much.
    Mr. Olver.
    Mr. Olver. No questions.
    Mr. Wolf. Thank you very much for coming. We appreciate it 
very much.
    [The prepared statements of Peter McLaughlin and Mark 
Andrew follow:]

[Pages 718 - 726--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

              TIDEWATER TRANSPORTATION DISTRICT COMMISSION

                               WITNESSES

HON. OWEN PICKETT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
HON. ROBERT C. SCOTT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
GREG STILLMAN, CHAIRMAN, HAMPTON ROADS CHAMBER OF COMMERCE
RANDY WRIGHT, COUNCILMAN, NORFOLK CITY COUNCIL
LOUISA STRAYHORN, COUNCILWOMAN, VIRGINIA BEACH CITY COUNCIL
BOB FENTREES, MEMBER, TIDEWATER TRANSPORTATION DISTRICT COMMISSION
KIM KIMBALL, EXECUTIVE DIRECTOR, TIDEWATER REGIONAL TRANSIT

    Mr. Wolf. Tidewater Transportation District. Owen Pickett 
and Bobby Scott and Mr. Stillman from Hampton Roads. Mr. 
Pickett.
    Mr. Pickett. Thank you. Mr. Chairman, I'll start off very 
briefly here because I wanted to introduce just a couple of 
people, if I may. We have Councilman Randy Wright from the city 
of Norfolk City Council and Councilwoman Louisa Strayhorn from 
the city of Virginia Beach City Council; Bob Fentrees, who is a 
member of the Tidewater Transportation District Commission, and 
Kim Kimball, who is the executive director of the Tidewater 
Regional Transit--all here along with Congressman Scott and I 
in support of this money for the light rail system that's 
proposed between Virginia Beach and Norfolk. This is something 
that these communities have been working on for a very long 
time. They've brought it to the point where they've agreed to 
go ahead and try to get the money for the planning and 
development phase of it here, and naturally we'd very much 
appreciate that.
    Greg Stillman is the president of the Chamber of Commerce 
for Hampton Roads, and he's here in support of the project, and 
he'd like to make some remarks after Congressman Scott has his 
opportunity.
    Mr. Wolf. Sure. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman and members of the 
committee. It's a pleasure for me to be here in support of the 
project.
    The project, I guess, has two ends. One is in Owen's 
district and the other is mine. Speaking about my end of the 
district, it would serve the downtown Norfolk and Norfolk State 
University area, as well as spur economic development in the 
downtown area and provide transportation alternatives to 
transportation-dependent citizens in the community.
    Development is already underway at McArthur Center, a new 
shopping center featuring Nordstrom's and Dilliard's department 
stores, as well as the downtown campus of Tidewater Community 
College. All of these projects are immediately adjacent to a 
proposed light rail station and would contribute to the 
economic growth of the entire region.
    During the preliminary engineering phase of the project, 
the region to select an enlignment to both the Norfolk Airport 
and Norfolk Naval Base, and this will provide access for each 
of these regionally-significant facilities and alleviate 
congestion in an already congested Interstate-64 corridor that 
serves these facilities. Moreover, the future expansion into 
the cities of Portsmouth and Suffolk will also be studied for 
possible expansions into those communities during the 
preliminary engineering phase of the project.
    So this obviously has a strong impact on both of our 
districts. It's a regional project, and it's very important to 
the quality of life and economic development of the area. I 
appreciate the opportunity to be able to work with Owen on this 
project.
    Mr. Wolf. Well, thank you, Bobby. Thank you, Owen.
    Mr. Stillman, you're certainly welcome to testify. Your 
full statement will appear in the record.
    Mr. Stillman. Thank you, Mr. Chairman. I am Greg Stillman. 
I am chairman of the Hampton Roads Chamber of Commerce, which 
represents the business community for South Hampton Roads, 
Norfolk, Portsmouth, Chesapeake, and Virginia Beach. I wish to 
thank you for the opportunity to present our endorsement of the 
request of Congressmen Pickett and Scott for $5 million from 
the new starts program in Fiscal Year 1998 for preliminary 
engineering and environmental impact studies for the light rail 
project for the Tidewater Transportation District Commission.
    The business community enthusiastically supports the 
development of a light rail transit system complemented by an 
enhanced integrated bus system and congestion management 
strategies. The Tidewater Transportation District Commission, 
through the major investment study process and in collaboration 
with local, State, and Federal agencies, has selected a light 
rail project as the most effective and efficient means to add 
transportation capacity to the heavily-used Interstate 64 and 
Route 44 corridor between downtown Norfolk and the Virginia 
Beach Pavilion Convention Center.
    The proposed light rail project will utilize the existing 
Norfolk Southern right-of-way and extend 18 miles with 13 
stations, many of which have both bus and park-and-ride access. 
The project would carry 15,000 riders a day in 2015, and it's 
projected to cost $376 million in current-year dollars and 
approximately $450 million in year-of-construction dollars. The 
letter of intent outlining preliminary understandings regarding 
the use of the right-of-way for construction, maintenance, and 
operation of the light rail system has been executed between 
the Commission and Norfolk Southern.
    The two major east-west travel corridors that the light 
rail project would serve are now at or over capacity in many 
locations. Travel is forecast to grow by 87 percent in some 
sections by 2015, which will severely strain already 
overutilized traffic corridors and decrease average vehicle 
speed to eight miles per hour. There is no more room to expand 
existing available right-of-way in this corridor, and widening 
the current roadway would cost $1 billion.
    Transportation planning initiatives long ago concluded that 
an expanded road system alone cannot meet the capacity and 
environmental concerns of the future. The concept of a balanced 
transportation system is essential to create a system which 
supports economic growth and provides sufficiently increased 
capacity. The Hampton Roads Chamber of Commerce recognizes the 
significant inadequacies of the region's surface transportation 
system to meet the projected demands of our rapidly-expanding 
population base. A light rail project provides the only cost-
effective means to service this transportation corridor, and 
offers the most viable alternative toward meeting the future 
transportation demands of the Hampton Roads region and its 
citizens and businesses.
    There are other important issues which this project 
addresses, such as potential economic development and increased 
mobility of Hampton Roads residents. Based on continued 
increases forecast for population, employment, and tourism, the 
necessary transportation infrastructure to accommodate this 
growth is simply not in place.
    The corridor served by the light rail project encompasses 
the top five activity centers and serves almost half of the top 
20 activity centers in the area, including the Pavilion 
Convention Center, the Virginia Beach CBD, Norfolk State 
University, and downtown Norfolk. These are important 
employment centers for the region. The Hampton Roads region 
draws an estimated 4 million visitors each year, and convenient 
access to oceanfront and recreational and historic attractions 
is critical. A light rail project in this corridor will 
accommodate much of this growth and provide capacity equivalent 
to at least a two-lane roadway, connectthese major activity 
centers, and do so without having to displace large numbers of 
residences or businesses or condemn expensive right-of-way.
    In addition to relief of traffic congestion and improvement 
of air quality, the light rail system will provide direct 
economic benefits to the residents and businesses of the area. 
Specifically, it will improve the permanent tax support base 
for education and other publicly-supported functions by 
increasing retail sales, business receipts, and property values 
in the area; add 3,900 new jobs and a permanent increase in the 
area's annual payroll of more than $88 million; improve the 
competitive business climate of the area, and provide a 
unifying force to support a regional approach to 
decisionmaking.
    There are significant implications associated with not 
implementing transportation improvements in the corridor in 
terms of increased congestion, extended travel times, and 
reduced productivity. Doing nothing in the corridor to improve 
mobility and accessibility has serious economic implications 
for decreased regional competitiveness, thereby resulting in 
the loss of new business and a decline in job growth.
    As part of PE/DEIS activities, an extension of the light 
rail system to the Norfolk Naval Base, the area's largest 
employer, will be selected in corridor analyses the cities of 
Chesapeake and Portsmouth prepared. This will help advance the 
process of implementing a passenger rail system to connect the 
Hampton Roads region with Richmond, Washington, and other major 
areas along the East Coast.
    The project enjoys significant community support. In 
addition to the Chamber's support, resolutions from the Norfolk 
and Virginia Beach city councils, numerous business 
organizations representing Virginia Beach and Norfolk, tourist-
related organizations, and educational institutionals and 
environmental groups have been secured, along with letters of 
support from residents.
    Mr. Chairman, I thank you for the opportunity to present 
our position in support of this light rail project for Hampton 
Roads and ask that my full remarks and the resolution of 
support be entered into the record.
    Mr. Wolf. Thank you very much.
    Mr. Olver.
    Mr. Olver. No questions.
    Mr. Wolf. Owen, Bobby, thank you very much for taking the 
time----
    Mr. Pickett. Who shall we give these copies to, Mr. 
Chairman?
    Mr. Wolf. You can give one to the clerk and one here, and 
your full statement will be in the record, too. We appreciate 
very much your coming. Thank you, Owen.
    [The prepared statements of Hon. Robert Scott and Greg 
Stillman follow:]

[Pages 731 - 775--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

   MAIN STREET STATION (RICHMOND, VIRGINIA) GREATER RICHMOND TRANSIT 
                             COMPANY (GRTC)

                               WITNESSES

HON. ROBERT C. SCOTT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
HON. LARRY CHAVIS, MAYOR, CITY OF RICHMOND, VIRGINIA
KEITH PARKER, ASSISTANT GENERAL MANAGER, GRTC

    Mr. Wolf. Bobby, you'll be here for the Richmond Main 
Street, Mayor Larry Chavis, and also perhaps it might be a good 
idea, Bobby, if we called up Keith Parker, the assistant 
manager of the GRTC together.
    Bobby, do you want to begin?
    Mr. Scott. Okay.
    Mr. Wolf. If you'd identify yourself for the record?
    Mr. Scott. We have two people, and we'll start with the 
Main Street Station.
    Mr. Wolf. They can both come up now at the same time.
    Mr. Scott. Yes, he's on the way.
    Mr. Wolf. Okay.
    Mr. Scott. We'll start with Main Street Station, if that's 
fine.
    Mr. Wolf. Sure.
    Mr. Scott. Mr. Chairman, members of the committee, I thank 
you, and we have Keith Parker with us now. Mr. Chairman, on the 
Main Street Station project, I'd like to thank you for the 
opportunity to present to you the request for a $10 million 
appropriation to continue the development of the historic Main 
Street Station located in the city of Richmond. I want to thank 
you for your past support for the project; your commitment to 
the transportation needs of the citizens in my district is 
greatly appreciated. I've asked Mayor Larry Chavis to join me 
here today to provide you with a status report on the project 
and to clarify the nature of the request. He has made this 
project a priority for the entire Richmond area, and has been 
instrumental in gaining support for the project from the 
general assembly, the governor, neighboring cities and 
counties, and the private sector. This is an important project 
for the economic development for the downtown Richmond area, 
and I'd like Mayor Chavis to make a statement at this point.
    Mayor Chavis. Thank you, Congressman Scott, for the 
introduction.
    Mr. Wolf and other members of the standing committee, thank 
you for having me up here today, sir. I appreciate your 
allowing me the time.
    If you traveled to Richmond before 1975, you most likely 
would have gotten off at the old Richmond Main Street Station, 
a 100-year-old building in the heart of downtown Richmond. This 
building, owned by AMTRAK, unfortunately, closed down because 
of the change of policy by AMTRAK to create suburban stations 
instead of maintaining downtown centers. Since that time, it 
has been through several reincarnations, first as a shopping 
center and then as a State government office building, which it 
still is.
    My colleagues and I on the Richmond City Council are 
excited that the Main Street Station has come full circle and 
is once again the focus for the future of our region's 
transportational needs. We are in the process of recreating a 
state-of-the-art regional multi-modal transportation center. 
Main Street Station, as we also call the project, will feature 
one facility that combines innercity rail service, local and 
innercity bus services, airport shuttles, and taxis.
    The Main Street Station project has received State and 
regional support from the Virginia General Assembly, Virginia 
Governor George Allen, our friends in the counties, and 
numerous businesses. The city is most grateful for the support 
we have received so far from Congress in the form of two 
earmarks from section 3 bus capital funding programs in Fiscal 
Years 1996 and 1997.
    We expect three phases of development, all of which will 
respond to market demands. The first phase calls for renovation 
of the historic head house, so that AMTRAK stations can once 
again pick up and drop off passengers in downtown Richmond. We 
will complete this phase in the spring of 1998, one more year.
    The second phase brings additional trains to downtown for 
more convenient business and personal travel. During this phase 
we expect to incorporate the local bus system as one of the 
station's services.
    The third phase established Main Street Station as a full 
multi-modal transportation center with direct service by 
AMTRAK, local bus services, Greyhound, airport shuttles, and 
other modes of transportation. For this phase, we respectfully 
request $10 million in funding from Congress.
    The Main Street Station project is critical to Richmond 
region's transportational system and economic vitality. The 
project not only makes common sense, but good business sense 
and is supported by a solid market demand for its services. We 
already have much of the infrastructure in place to make this 
project work. We hope you will look favorably upon our request 
for additional funding, so that we may complete the third and 
final phase of this project.
    Again, thank you, sir, for giving me the time.
    Mr. Scott. The second project we have is the Greater 
Richmond Transit Company. The present maintenance facility is 
inadequate for efficient maintenance of GRTC buses, and Mr. 
Keith Parker, the assistant general manager for GRTC, I've 
asked him to join us today to provide an overview of the 
project. He is responsible for the day-to-day operation and 
supervision of 4,000 employees. He also serves as the transit 
company's representative to public and private groups, 
including the Richmond City Council and the GRTC Board of 
Directors. We'd like him to say a word about the second 
project.
    Mr. Wolf. Mr. Parker, your entire statement will go in the 
record.
    Mr. Parker. Thank you. Thank you, Congressman Scott.
    Chairman Wolf, members of the Transportation Subcommittee, 
thank you for the honor of allowing me to speak here today.
    The Greater Richmond Transit Company is one of the most 
cost-efficient and cost-effective transit systems in the 
country. We have developed a national reputation because we 
require less in government subsidies than virtually every other 
transit system. However, maintaining our efficiency is becoming 
more difficult because of our existing maintenance facility, 
and that's why I stand here before you today.
    GRTC is requesting $22 million to renovate our maintenance 
facility. The buildings are close to 90 years old and cannot 
support today's workload efficiently. We propose to renovate 
the facility in three phases. Phase one consists of capital 
planning and engineering activities for renovation of the 
maintenance shops and renovation of the administrative 
buildings. The cost of phase one, to be conducted in fiscal 
year 1998, is approximately $5 million. Phases two and three 
total $17 million and are to be completed in three to five 
years. With such an old facility, we struggle each year to keep 
up with OSHA, ADA, and EPA requirements. We spend thousands of 
dollars to make temporary repairs and modifications. A 
comprehensiverenovation is needed.
    GRTC is a major component in the economic development 
efforts of the Richmond region. We carry approximately $10 
million customers each year and another 145,000 disabled 
customers on our wheelchair-accessible vans. Of these trips, 75 
percent are work-or school-related. Additionally, GRTC is 
outfront in the Richmond region's welfare reform efforts. 
Social service agencies have identified reliable transportation 
as a priority to successful welfare reform in the region, and 
GRTC is the primary transportation provider of this population. 
For example, we have recently developed a partnership with 
Goodwill Industries to provide job and travel training for 
individuals who are new to the job market.
    Finally, GRTC helps everyone in the Richmond region breathe 
a little easier. By offering an alternative to single-occupant 
vehicles, GRTC has helped reduce harmful emissions and 
congestion in the Richmond area. A renovated facility will 
allow us to more efficiently manage our resources and even help 
to reduce the number of people needed to run the operation. By 
reducing our overhead costs, GRTC can focus more on our 
resources to our primary mission; that is, to put buses on the 
street and connect people to jobs and students to educational 
institutions.
    Thank you for your time. I would like to leave with the 
committee a copy of a recently-completed study supporting the 
renovation efforts.
    Mr. Wolf. Sure, absolutely. I have no questions.
    Mr. Tiahrt, I didn't see you come in. Excuse me. I 
apologize.
    Bobby, thank you very much.
    Mr. Parker. Thank you, sir.
    Mr. Wolf. Mr. Parker, thank you very much.
    Mr. Scott. Thank you very much, Mr. Chairman.
    [The prepared statements of Larry Chavis and Keith Parker 
follow:]

[Pages 779 - 782--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

              TRANSPORTATION PRIORITIES IN SOUTHERN NEVADA

                                WITNESS

HON. JOHN ENSIGN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEVADA

    Mr. Wolf. Congressman Ensign.
    Mr. Ensign. Thank you, Mr. Chairman, and thanks for this 
opportunity to testify about actually the urgent transportation 
priorities in southern Nevada, the fastest-growing region in 
the country.
    For fiscal year 1998, I am requesting appropriations from 
this subcommittee in the amount of $19 million on behalf of 
various transportation projects in southern Nevada. The Clark 
County, Nevada Regional Transportation Commission has 
identified needs totaling $14 million, and the Clark County 
Department of Aviation has a need totaling $5 million.
    The Clark County Regional Transportation Commission, RTC, 
which is the metropolitan planning agency for the Las Vegas 
region and designated recipient of Federal transit 
administration funds is requesting $9 million to purchase buses 
for expansion of the CAT system fleet. The CAT system's current 
equipment is inadequate to keep pace with the significant 
growth of ridership that has occurred. I think these numbers 
will actually astound you.
    Since 1992, the inception of CAT, monthly ridership has 
increased from 700,000 to 3.2 million riders, a 134 percent 
increase. Service hours have doubled during this period. The 
number of service hours and service miles per bus in the CAT 
fleet is more than double that of any other transit system in 
the United States. Independent studies have found that the CAT 
system attained the lowest operating cost per hour in the 
Nation and has one of the lowest subsidy costs per passenger.
    The ongoing major investment study in Las Vegas has 
indicated that there is a clear need to increase the present 
bus fleet of 192 by two-and-a-half times to 500 buses. An 
appropriation of $9 million from the section 3 bus 
discretionary account would be utilized to purchase 23 
articulated buses. As usual, the RTC will significantly 
overmatch this amount. The RTC is also requesting $5 million 
for the fixed guideway new start account to conduct preliminary 
engineering and design for the proposed new start fixed 
guideway project along the resort corridor.
    By the way, it's not in my written testimony, but we have a 
significant new pollution problem in the Las Vegas Valley, 
especially with the new EPA standards, and this new fixed 
guideway system is one of the mitigating proposals to help the 
pollution in the Las Vegas Valley.
    The major investment study is in its concluding phase, and 
the RTC has adopted a locally-preferred alternative for the 
proposed fixed guideway system. The RTC is seeking, with my 
sponsorship, an authorization for a fixed guideway new start 
and the associated preliminary engineering and design in the 
upcoming ISTEA reauthorization, and it is my understanding that 
the Transportation Infrastructure Committee has no objection to 
preliminary engineering for a pending authorization.
    The Clark County Department of Aviation is seeking $5 
million to relocate and enlarge its existing air traffic 
control tower located at the North Las Vegas Airport. The 
growth in aircraft operations at the North Las Vegas Airport 
has made it the second busiest airport in Nevada. In 1996, more 
than 250,000 aircraft takeoffs and landings occurred at the 
airport. This is a 16 percent increase over 1995. In contrast, 
the Reno-Tahoe International Airport experienced 150,000 
operations. These figures give a clear indication that the 
North Las Vegas role as a reliever to Las Vegas McCarran 
International Airport, which is the Nation's ninth busiest 
airport, is being successfully fulfilled. A capacity study 
completed by the FAA for McCarran found that reducing general 
aviation activity by as little as 30 percent would provide 
immense capacity benefits. Accordingly, the FAA and Clark 
County have exceeded this 30 percent target by moving general 
aviation aircraft operations to North Las Vegas. North Las 
Vegas' airport annual operations are expected to exceed 300,000 
by 1998 and top 330,000 by 2015.
    This growth has led to concerns about the suitability of 
existing air traffic control tower structure. The existing air 
traffic control structure is inadequate for several reasons. 
One, corporate and commercial aircraft, including Grand Canyon 
air tour operators, are becoming a larger portion of 
operations. The current tower was designed for a small, 
privately-owned aircraft and cannot safely control larger 
aircraft.
    There is inadequate tower control or workspace to install a 
nonprecision instrument approach procedure based on the global 
position satellite technology, which FAA believes is necessary 
to relieve McCarran International.
    And, three, airfield development has resulted in some line-
of-sight hangar obstruction from the existing tower. FAA 
officials recommend the construction of a five-person, 90-foot 
tower based on the design of the tower at Scottsdale, Arizona 
to accommodate growth at North Las Vegas. The cost of 
constructing this new tower is $5 million.
    The President's budget justification supposedly proposed 
$700,000 for site selection at the North Las Vegas Airport. 
This amount is behind schedule because the site is ready for a 
new tower. Construction of the tower can begin in Fiscal Year 
1998.
    Mr. Chairman, thank you for this opportunity to testify, 
and I appreciate your support in the past for projects in 
southern Nevada.
    Mr. Wolf. Thank you, John.
    Mr. Sabo.
    Mr. Sabo. No questions.
    Mr. Wolf. Mr. Tiahrt.
    Mr. Tiahrt. No questions.
    Mr. Wolf. Thank you very much.
    Mr. Ensign. Okay, thank you.
    [The prepared statement of Hon. John Ensign follows:]

[Pages 785 - 790--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

                      TRANSPORTATION NEEDS OF OHIO

                                WITNESS

HON. DENNIS J. KUCINICH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OHIO

    Mr. Wolf. Congressman Kucinich. Welcome to the Committee.
    Mr. Kucinich. Hi. Thank you very much, Mr. Chairman, Mr. 
Sabo, and Mr. Tiahrt. I really appreciate very much, Mr. 
Chairman, the opportunity to come before this Transportation 
Appropriations Subcommittee and for you allowing me to testify 
on behalf of transportation needs in my district. It's 
certainly an honor to be here in Congress addressing you, and 
as a distinguished Member, you have shown that--by example, I 
might add--that we can work on both sides of the aisle while 
simultaneously standing up for what we believe in, and I hope 
to be able to emulate that standard of thoughtful, well-
reasoned leadership.
    This is an important year for transportation years. Between 
the standard appropriations process, the reauthorization of 
ISTEA, the proposed Conrail merger, and other important issues, 
Congress will be considering many options that will affect the 
sustainability of our national highways, railways, city 
streets--indeed, the totality of our transportation system.
    As the subcommittee undertakes the task of appropriating 
transportation funds and ISTEA reauthorization gets underway, I 
wanted to discuss a project in my district that is currently in 
progress, a project much like your example of leadership--
thoughtful, well-reasoned, with support from both Democrats and 
Republicans. I might add from the onset that I am here 
respecting the Chair's prerogative with respect to how funds 
should be appropriated. My point in being here is not to ask 
the subcommittee to specifically fund this particular project 
that I want to talk about, but I wanted to discuss it, if I 
may, as an example of a city in my district which has broad-
based transportation needs and use it as an example of why 
Congress needs to fully fund transportation funding, so that 
our taxpayers and communities are better served. It's in that 
spirit that I'd like to continue.
    The city of Strongsville, Mr. Chairman, is in the 10th 
congressional district. It's in northeastern Ohio, but happens 
to have a Republican mayor. Mayor Ehrenfelt has been there for 
many years, and this city has been working on widening a 
section of highway for about 15 years. Though there is an 
industrial park in Strongsville that is home to a number of 
businesses and employs many workers, Strongsville remains the 
only portion of Cuyahoga County, which is by far the largest 
county in the State, that has not been developed to its full 
potential. And the reason that it has not been developed, 
though they have a substantial area of land, is the same reason 
that businesses in the industrial park are more or less 
threatening to leave: Strongsville and Cuyahoga County, they 
can't get their trucks in and out of the industrial park 
because the highway is too narrow. They'reso serious about the 
issue, they're thinking of leaving.
    Now the mayor of Strongsville, Walter Ehrenfelt, has worked 
very hard to meet the needs of business in his community. He's 
been able to complete every aspect of this one project just 
short of getting it built, including all the engineering 
studies, all the environmental impact studies, and the like. 
The project at one time had the support of our governor, but 
has since fallen off the State's priority list because of 
budgetary constraints. Ironically, the state has even offered 
to reimburse Strongsville for all the money that's been spent 
to get this highway widened rather than allocate the necessary 
funds to finish the job, and it would seem a shame to have a 
State spend the money to reimburse the city of Strongsville for 
work already completed on the project when the real need is to 
finish the project. So, in addition to retaining the business 
and jobs that are located in Strongsville, estimates are the 
widened highway would bring up to 4,000 new jobs in the area in 
the next five to ten years. So you certainly understand better 
than I do, and most people, the connection between economic 
development and transportation.
    My point in being here, Mr. Chairman, as I said, is not to 
ask for the subcommittee to specifically fund a project, but to 
use the situation in Strongsville as an example of why Congress 
needs to fully fund transportation, to support transportation 
funding, so that our taxpaying citizens and communities are 
better served.
    With the permission of the Chair, I would like to submit 
the rest of my testimony for the record.
    Mr. Wolf. Sure, without objection.
    Mr. Sabo.
    Mr. Sabo. No questions.
    Mr. Wolf. Mr. Tiahrt.
    Mr. Tiahrt. No questions.
    Mr. Wolf. Thank you very much.
    Mr. Kucinich. Thank you very much.
    Mr. Wolf. We appreciate your coming before the committee.
    Mr. Kucinich. Thank you.
    [The prepared statement of Hon. Dennis Kucinich follows:]

[Pages 793 - 794--The official Committee record contains additional material here.]


    Mr. Wolf. Congresswoman Waters or Congressman Stupak? And 
Congressman Hefley?
    Mr. Sabo. Mr. Chairman, could I make a unanimous consent 
request?
    Mr. Wolf. Yes, without objection.
    Mr. Sabo. Ms. Waters, Mr. Stupak, Mr. Hefley's statements 
be inserted in the record----
    Mr. Wolf. Without objection.
    Mr. Sabo [continuing]. If they so desire, unless they 
withdraw it.
    Mr. Wolf. Absolutely.
                              ----------                              

                                      Wednesday, February 26, 1997.

            CHERRY CAPITAL AIRPORT, TRAVERSE CITY, MICHIGAN

                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Wolf. Welcome, Bart.
    Mr. Stupak. Well, thanks for the opportunity to get me in 
right away.
    Mr. Chairman, I believe you have a copy of my testimony and 
let me summarize it, if I may.
    The first thing I have listed, of course, is the radar at 
Cherry Capital Airport in Traverse City, Michigan. We are 
asking for an ASR radar, and my concern is that the Traverse 
City Airport ranks third in Michigan for the number of flight 
operations per hour. Yet, of all these airports in Michigan, it 
does not have a radar. They are still using the old binocular 
system. And as documented in our testimony, we have had four 
near-midair collisions there because of terrific weather 
problems we have in Traverse City. It's on Lake Michigan; 
problems we do have.
    We've met with the FAA. Jim Oberstar has tried to help me 
with this. We get a lot of lip service and nothing ever gets 
done. This is really a very serious matter. There's going to be 
a disaster there. Like I say, it's the third busiest airport in 
Michigan and our top 11 airports all have radar except this 
one, and it's probably the one that has the most adverse 
weather conditions.
    Mr. Wolf. We'll ask the staff to look into it with the FAA 
for you.
    Mr. Stupak. I appreciate it.
    Next is the Cutter MacKinaw. The President continues to 
fund it. We would appreciate it if you would continue to fund 
the Coast Guard Cutter MacKinaw. As you know, it's the largest 
cutter on the Great Lakes. We need that operation to continue 
until the new buoy tenders--they're doing some modifications. 
Hopefully, we'll get a new buoy tender. We need it to continue 
until we have something to replace it.
    STIP language, let me bring that up. That's on page 11, Mr. 
Chairman. Under ISTEA, I'll be testifying, and we're going to 
continue to do some more work on this. Last year this committee 
helped us out, telling governors that they should not divert 
the STIP money, State Traffic Improvement Plans, without 
permission of the local elected authorities. Unfortunately, our 
governor continues to do so.
    Mr. Wolf. We put language in for you, did we not?
    Mr. Stupak. Yes. Yes, we did, and he continues to do so to 
the tune of $41 million over two years. The small communities, 
the rural communities, are the ones that are being hurt. That's 
basically my district. We'll continue to work on it. I 
appreciate it. I bring you to the point that we're still having 
that trouble. Anything you can do, we certainly would 
appreciate it.
    The bus money, you and I've personally have had that 
conversation once or twice. As you know, in the past Michigan 
has used their $10 million in bus money for one or two 
projects. After discussions with you, and learning a little bit 
more of the ropes, you've directed me to put our needs very 
specifically. So we have here, we'd like $1.5 million for Bay 
Area Transit Authority and $200,000 for Gogebic County. You've 
helped out Gogebic County before, and we certainly appreciate 
that.
    Last, but not least--I guess I've got two more--Lake 
Antoine, we've asked for this every year. As ISTEA and as we 
redo ISTEA, reauthorize it hopefully this year, I don't think 
some of these projects will be around much longer. Lake Antoine 
is a $320,000 project. I certainly would appreciate it if you 
could give that consideration, as I think under ISTEA we're 
going to tighten up some of these things, and I'm not too 
sure----
    Mr. Wolf. ISTEA is going to solve the problems of the whole 
world.
    Mr. Stupak. It's not going to. [Laughter.]
    Mr. Wolf. Darn.
    Mr. Stupak. Last, but not least, let me just mention 
Chippewa County Airport near Kincheloe, Michigan. You've helped 
us out in the past, and they've put up about $400,000 to take 
down some old barracks and some--it was an old fire plane 
airbase, and we removed some of that. We did some demolition 
and reconstruction, but we need a cross runway.
    Back--this base closed in 1978, and they have made steady 
improvements on it. In Sioux Ste. Marie, Michigan, toward the 
eastern end, right by Canada, it's considered an international 
airport, the small planes that do come in and out of there 
cannot handle the wind real well. Toward the end, when that was 
a military base, they had B-52 bombers. You could run a B-52 
down anything and crosswinds didn't affect it. It does affect 
small planes. We're asking if we could pick up $1.35 million 
for design and construction of a crosswind runway. This airport 
certainly is on the move. It has grown steadily over the years, 
especially being right next door to Canada. It's an 
international airport. We do have to get a crosswind runway. So 
I'd appreciate it if you could----
    Mr. Wolf. Well, we're not really earmarking these things. 
I'll ask Rich Efford to also talk to the FAA about that, too, 
and we'll talk to you about both of them.
    Mr. Stupak. But there's no doubt our main concern is the 
Traverse City one.
    Thank you.
    Mr. Wolf. Thank you, Bart. I appreciate it very much.
    [The prepared statement of Hon. Bart Stupak follows:]

[Pages 797 - 801--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

                      DENVER INTERNATIONAL AIRPORT

                                WITNESS

HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO

    Mr. Wolf. Mr. Hefley.
    Mr. Hefley. Thank you, Mr. Chairman and committee.
    Mr. Wolf. Your full statement will appear in the record as 
read.
    Mr. Hefley. Thank you. Thank you. Then I certainly won't 
take your time by reading the statement.
    I am--this may seem strange to you, Frank, because you 
don't see this often, I'm sure, where someone comes in and 
testifies against a project in their own State, but I am here 
today to ask you to leave the prohibitive language in regarding 
the sixth runway at DIA. And let me be upfront about where I'm 
coming from, and you know this because we've discussed it many 
times. And that is that I was opposed to the airport. I thought 
we could have done everything we needed to do at the old 
Stapleton Airport. We could have done it for a lot less money, 
and I regard it then, and I regard it now, the new airport as a 
public works project at a time when Colorado could use public 
works; there's no question about that. But I don't think that's 
enough excuse to spend the $4 billion, or whatever it was, we 
did on the airport.
    But now that we have the airport, with all the problems 
that you're well aware of, we need to make it work, and it's 
not working right now from the standpoint of the noise problem 
it's creating for some of its neighbors. Now it's a little hard 
for me to understand why the noise problem when Stapleton was a 
much closer-in airport; they moved DIA way out on the plains. 
You would have thought that they could get the flights up and 
across the plains much better from the new location and get 
them out of the populated area quicker, and yet I never got 
these kind of complaints at the old Stapleton Airport. I think 
Pat Schroeder got some of the complaints of the people that had 
built around the airport, but I never got these complaints from 
the neighbors 30 miles off. And we have a tremendous number of 
complaints now, not just from south where I represent, but from 
as far north as Greeley in Well County and west into Boulder 
County. We get an awful lot of complaints.
    And what I've said to the city of Denver is that we want 
you to help us solve this noise problem. Now they'll tell you 
that the FAA is the one that routes the planes, but the FAA 
will tell you that we don't consider new routes unless Denver 
approves of it. And Denver has consistently, I think, denied 
that they had any responsibility in this, and Secretary Pena, 
who was very active, the mayor of Denver, when we were pursuing 
the airport, when he talks about it as well, I've never heard 
him say that this is partially Denver's responsibility; he says 
that we are complying with the Environmental Impact Study. 
Well, they are, from a technical sense, complying with the 
Environmental Impact Study, but the area that I'm mostly 
talking about, the area that I represent, was not in that 
impact study because no one imagined that 25 or 30 miles south 
there would be a problem.
    And what they didn't take into consideration, I think, 
Frank, is that the ground rises substantially from the airport 
as it moves south, and so when you say, well, we've got the 
planes up 7,000 feet above sea level, that may be true, but 
they may only be 3,000 feet above the houses there because the 
ground has risen considerably to get there.
    So my argument has been that I might not be adamantly 
opposed to a sixth runway forever, but that until Denver 
engages itself in helping us solve this problem, I'm opposed to 
the sixth runway. And to be fair to Denver, I think they have 
taken a more active stand in the last two or three months. It 
may be that they still don't come right out and say that we 
think we have some responsibility in this, but they at least 
are doing some things, it looks like, to try to take care of 
the problem. And I hope that continues.
    They will tell you we need a sixth runway in order to 
entice flights from the Pacific Rim. When the airport was being 
built, I called some folks in from, I think it was, Japan 
Airways, and I suggested this to them, and they're polite 
people. They almost laughed me out of the office. They said, 
``Why would we come nonstop to Denver and bypass the coastal 
cities? What sense does that make? And particularly because 
part of the year your altitude and your heat make it so you 
couldn't take off with a full load of passengers and freight 
and fuel. So why would we do that?''
    So I don't know if that's viable or if that's just 
something they're saying nowadays. I have a letter from the Air 
Traffic Controllers Association at DIA.
    Mr. Wolf. I just read it, yes.
    Mr. Hefley. They don't believe a sixth runway is necessary. 
So I don't want to belabor the point, Mr. Chairman. You know 
this subject far better than I do, and I'm simply asking that 
until we get this problem solved, that you keep the prohibition 
about spending for the sixth runway in the bill. Maybe a sixth 
runway is appropriate sometime, but not now.
    Mr. Wolf. Well, I appreciate your testimony. I'm glad you 
had the opportunity to come. Denver came in yesterday and 
testified in support of it. We have kept that in there. 
Obviously, we'll look at it year by year. I would hope they 
could take care of the noise. This is a pretty interesting 
letter, without objection, we will submit your entire 
testimony, particularly with the letter.
    Mr. Hefley. With the letter I would hope, yes, Mr. 
Chairman.
    Mr. Wolf. The one from the Air Traffic Controllers 
Association, are these air traffic controllers who work at the 
Denver Airport?
    Mr. Hefley. They're DIA controllers, yes. Yes.
    Mr. Wolf. They said, ``Our belief is that a sixth runway 
will not add value to DIA. In some areas it will certainly 
cause more noise complaints. We could certainly use a few more 
taxiways instead. Not only would this make DIA more efficient, 
it would save taxpayers millions of dollars.''
    Well, I appreciate your coming to the committee and I 
appreciate getting this information which we didn't have.
    Mr. Hefley. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Hon. Joel Hefley follows:]

[Pages 805 - 825--The official Committee record contains additional material here.]


                                      Wednesday, February 26, 1997.

     CITY OF INGLEWOOD'S INTELLIGENT TRANSPORTATION INFRASTRUCTURE

                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Wolf. Congresswoman Waters.
    Ms. Waters. Thank you very much, Mr. Chairman and members. 
Last year I was here requesting support for the city of 
Inglewood, one of the cities in my district that's involved in 
something called the Intelligent Transportation Infrastructure 
Project, and they received some funding, $1 million, last year, 
and they would like to complete that project, and we are 
requesting $1.4 million to do that.
    As you know, this is the city where we have the Great 
Western Forum and the LAX, and because of the congestion in 
this area, the cities come up with this project that is helpful 
in moving the flow of traffic, and we would request that you 
continue to help us with this project and let us kind of finish 
it with $1.4 million this time. We would really appreciate it, 
Mr. Chairman.
    Mr. Wolf. Thank you very much. We'll give it serious 
consideration.
    Ms. Waters. All right, I have one other little item yet.
    Mr. Wolf. Phase two.
    Ms. Waters. Phase two, that's right. The second request for 
the city is development--they're attempting to develop a 
transit center and bus layover area. This will kind of 
concentrate bus ridership at the city's main retail street. 
This city some years ago had a wonderful little downtown area 
in the city of Inglewood, ideally located, and over the years 
there's been an exodus of business owners and they're trying to 
revitalize this area. I think it's going to be very good for 
the city.
    In addition to a request here for $420,000 to help with 
this transit center, we're using section 8--not section 8, but, 
yes, it is section 108 funds that come through the city of Los 
Angeles and the city of Inglewood and other cities, I suppose, 
to do some economic development and projects that will help 
spur and grow businesses, and this transit center would be 
very, very helpful. It would help people to be able to get 
there, to be able to leave from a central area, and this would 
go a long way to helping revitalize not only that area, but the 
city. So I appreciate your taking a look at that.
    Mr. Wolf. Thank you very much, and we'll put your entire 
statement in the record.
    Ms. Waters. Okay, thank you very much.
    Mr. Wolf. Thank you very much.
    [The prepared statement of Hon. Maxine Waters follows:]

[Page 827--The official Committee record contains additional material here.]


    Mr. Wolf. The hearing is adjourned. We'll meet Tuesday at 
10:00 o'clock.
    [Additional statements submitted for the record follow:]

[Pages 829 - 1575--The official Committee record contains additional material here.]







                           W I T N E S S E S

                               __________
                                                                   Page
Adelman, C.R.....................................................  1498
Andrew, Mark.....................................................   714
Augenstein, J.S..................................................  1033
Austin, J.M......................................................   572
Babbitt, J.R.....................................................   955
Barclay, C.M.....................................................    96
Bartosiewicz, J.P................................................   539
Becker, F.R., Jr.................................................   988
Bennett, G.R.....................................................  1491
Benson, Brien....................................................  1230
Bilbray, Hon. B.P................................................   608
Blumenauer, Hon. Earl............................................   323
Boehm-Davis, D.A.................................................    76
Bohlinger, Linda.................................................   426
Bolen, Ed........................................................   176
Boyer, Phil......................................................   969
Boylan, C.P......................................................   348
Brown, Kirk..................................................1430, 1467
Bunning, Hon. Jim,...............................................   327
Burns, T.J.......................................................   875
Burton, Hon. Dan.................................................   633
Byrne, R.L.......................................................  1481
Cabral, R.J......................................................  1360
Campbell, Hon. Tom...............................................   838
Canady, Hon. Charles...........................................702, 839
Capon, R.B.......................................................   202
Carter, Ed.......................................................   999
Chavis, Hon. Larry...............................................   776
Christiansen, Dr. D.L............................................  1355
Clark, Les.......................................................  1360
Clementi, James..................................................  1487
Collins, Father T.B..............................................  1183
Costantino, James................................................  1320
Crosswell, O.H...................................................   315
Cunha, Manuel, Jr................................................  1360
Dahms, L.D.......................................................  1278
Davis, Hon. Jim..................................................   702
DeGette, Hon. Diana..............................................   420
Dettmann, C.E....................................................  1022
Dicks, Hon. Norm.................................................   621
Dixon, Hon. Julian...............................................   426
Donohue, T.J.....................................................  1079
Dow, M.C.........................................................  1224
Doyle, J.M.......................................................  1492
Dreier, Hon. David...............................................   572
Drewel, Bob......................................................   621
Driggs, G.K......................................................  1275
Duggan, D.M......................................................  1018
Dugger, Dorothy..................................................   656
Durbin, J.T......................................................   645
Dysart, M.R......................................................  1507
Earling, Dave....................................................   621
Ehrhardt, Paul...................................................  1186
Eiesland, Donald.................................................  1236
Ensign, Hon. John................................................   783
Erickson, J.J....................................................   872
Faber, Gordon....................................................   306
Faddis, R.J......................................................  1490
Farley, R.D......................................................   869
Farr, Hon. Sam...................................................   832
Fegan, J.P.......................................................   984
Fentrees, Bob....................................................   727
Ferguson, P.J....................................................  1240
Figueroa, Patricia...............................................  1285
Filner, Hon. Bob.................................................   608
Fischer, D.J.....................................................  1269
Fischer, K.R.....................................................   547
Foote, Stephanie.................................................   521
Ford, Hon. H.E., Jr..............................................   337
Friedlob, R.L....................................................   521
Frost, Hon. Martin.............................................539, 830
Furse, Hon. Elizabeth............................................   306
Garcia-Pedrosa, Jose.............................................   676
George, Father W.L...............................................  1183
Granger, Hon. Kay................................................   539
Greenberg, Allen.................................................   280
Greenwood, M.R.C.................................................   836
Guardino, Carl...................................................  1291
Guins, Thomas....................................................   271
Hanks, James.....................................................   243
Hansen, Hon. J.V.................................................   829
Harris, Harry....................................................  1435
Harris, J.A......................................................  1428
Hayward, Tom.....................................................   515
Hefley, Hon. Joel................................................   802
Hopkins, Larry...................................................   633
Howe, W.J........................................................  1037
Hudson, William, Jr..............................................   337
Hullinger, C.H...................................................  1482
Hunter, Hon. Duncan..............................................   591
Inman, Julie.....................................................   621
Jackson, L.W.....................................................  1314
Jackson-Lee, Hon. Sheila.........................................   894
James, Sharpe....................................................  1058
Johnson, Hon. E.B................................................   489
Johnson, Jack....................................................    57
Jones, Beverly...................................................   368
Jones, D.L.......................................................   866







                               I N D E X

                              ----------                              

 Testimony of Members of Congress and Other Interested Individuals and 
                             Organizations

Coast Guard:
                                                                   Page
    American Legion..............................................  1018
    Becker, Fred R., JAGC, USN (Ret.), Director, Naval Affairs, 
      ROAUS......................................................   988
    Carter, Ed, Boating Law Administrator, Tennessee.............   999
    Duggan, Dennis M., Assistant Director, NS/FR Division, 
      American Legion............................................  1018
    National Association of State Boating Law Administrators.....   999
    Reserve Officers Association of the United States (ROAUS)....   988
    Shackelford, Wayne, Commissioner, Georgia Department of 
      Transportation.............................................  1251
Federal Aviation Administration:
    Air Line Pilots Association..................................   955
    Air Traffic Control Association, Inc.........................   963
    Air Transport Association of America (ATA)...................   117
    Airports Council International--North America................    96
    American Association of Airport Executives (AAAE)............    96
    American Psychological Association...........................    76
    Babbitt, J. Randolph, President, Air Line Pilots Association.   955
    Barclay, Charles M., President, AAAE.........................    96
    Boehm-Davis, Deborah A., Assoc. Provost for Research, George 
      Mason University...........................................    76
    Bolen, Ed, President (GAMA)..................................   176
    Boyer, Phil, President, AOPA Legislative Action..............   969
    Federation of Behavioral, Psychological and Cognitive 
      Sciences...................................................    76
    Fegan, Jeffrey P., Executive Director, Dallas/Fort Worth 
      Int'l Airport..............................................   984
    Foote, Stephanie, Chief of Staff, Office of Mayor of Denver..   521
    Friedlob, Raymond L., Counsel, City and County of Denver.....   521
    General Aviation Manufacturers Association (GAMA)............   176
    Greator Orlando Aviation Authority...........................   981
    Human Factors and Ergonomics Society.........................    76
    Johnson, Jack, President, PASS...............................    57
    McAnaw, Michael F., President, NAATS.........................    42
    McNally, Michael, Executive Vice President, NATCA............     9
    National Air Traffic Controllers Association (NATCA).........     9
    National Association of Air Traffic Specialists (NAATS)......    42
    National Business Aircraft Association, Inc. (NBAA)..........   136
    Nelson, Don, Former VP, Flight Operations, Northwest Airlines     1
    Olcott, John W., President, NBAA.............................   136
    Pombo, Richard W., Representative from California............   913
    Professional Airways Systems Specialists (PASS)..............    57
    Quinn, Jack, Representative from New York....................   877
    Rioux, Michael F., Senior VP, Operations and Safety, ATA.....   117
    Young, Leon, Mayor of Colorado Springs, Colorado.............   946
Federal Highway Administration:
    American Road and Transportation Builders Association (ARTBA)   251
    American Society of Mechanical Engineers (ASME)..............   271
    American Trucking Association, Inc...........................  1079
    California Industry and Government Coalition on PM-10/PM-2.5.  1360
    Christiansen, Dennis L., Texas Transportation Institute, 
      Texas A&M Univ.............................................  1355
    Citizens for Appropriate Rural Roads.........................  1244
    Commercial Vehicle Safety Alliance...........................  1072
    Constantino, James, President and CEO, ITS America...........  1320
    Dakota County Board of Commissioners.........................  1428
    George Mason Institute of Public Policy......................  1230
    Guins, Thomas, Counsel on Engineering, ASME..................   271
    Harris, Fred-Eric, VP, ARTBA.................................   251
    Harris, Harry, Chairman, I-95 Corridor Coalition.............  1435
    I-95 Corridor Coalition......................................  1435
    ITS America..................................................  1320
    Knott, Andrew J., Hoosier Environmental Council Action Fund..  1335
    Lampson, Nick, Representative from Texas.....................   909
    Lee, Sheila Jackson, Representative from Texas...............   894
    Lewis, Ron, Representative from Kentucky.....................   910
    National Automated Highway System Consortium (NAHSC).........  1365
    Sanders, Bernard, Representative from Vermont................   885
    Seefeldt, Kathleen K., Chairman, Board of Supervisors, PW 
      County, VA.................................................  1243
    Sharpe, James, Mayor of Newark, New Jersey...............1058, 1188
    Sproles, Max R., Chairman-Elect, ARTBA.......................   251
    West, John, California DOT and Chair, NAHSC Program Mgmt. 
      Oversight..................................................  1365
Federal Railroad Administration:
    American Passenger Rail Coalition............................   214
    Association of American Railroads............................  1022
    Capon, Ross B., Executive Director, (NARP)...................   202
    Council of State Governments Eastern Regional Conference.....   248
    Dettmann, Charles E., Executive VP, OR&T, Association of 
      American RR................................................  1022
    Dysart, Mark R., President, High Speed Ground Transportation 
      Association................................................  1507
    High Speed Ground Transportation Association.................  1507
    Hunter, Duncan, Representative from California...............   591
    National Association of Railroad Passengers (NARP)...........   202
    Parcells, Harriett, Executive Director (APRC)................   214
    Railway Progress Institute...................................   187
    Sullivan, Dennis F., General Manager, Plassner Corporation...   187
Federal Transit Administration:
    American Public Transit Association (APTA)...................   348
    Andrew, Mark, County Commissioner, Hennepin County, Minnesota   714
    Atlanta Metropolitan Area Rapid Transit Authority............  1198
    Austin, Julie, Executive Director, Foothill Transit..........   572
    Bartosiewicz, John P., General Manager, Fort Worth 
      Transportation Authority...................................   539
    Bilbray, Brian P., Representative from California............   608
    Blumenauer, Earl, Representative from Oregon.................   323
    Bohlinger, Linda, CEO, LA County Metropolitan Transportation 
      authority..................................................   426
    Boylan, Christopher P., VP of Government Affairs, APTA.......   348
    Bunning, Jim, Representative from Kentucky...................   327
    Burton, Dan, Representative from Indiana.....................   633
    Campbell, Tom, Representative from California................   838
    Canady, Charles, Representative from Florida...............702, 839
    Central Oklahoma Transportation and Parking Authority........  1145
    Chavis, Larry, Mayor, City of Richmond, Virginia.............   776
    City of Oklahoma City........................................  1145
    Community Transportation Association of America..............  1190
    Crosswell, Holcombe O., Chairman, Board of Directors, Houston 
      Metro......................................................   315
    Dahms, Lawrence D., Executive Director, San Francisco MTC....  1278
    Dallas Area Rapid Transit Authority..........................  1126
    Davis, Jim, Representative from Florida......................   702
    DeGette, Diana, Representative from Colorado.................   420
    Dicks, Norm, Representative from Washington..................   621
    Dixon, Julian, Representative from California................   426
    Dow, Michael C., Representative from Alabama.................  1224
    Dreier, David, Representative from California................   572
    Drewel, Bob, Chairman, Central Puget Sound Regional Authority   621
    Driggs, G. Kenneth, Executive Director, Valley Metro PTA, 
      Phoenix, Arizona...........................................  1275
    Dugger, Dorothy, Deputy General Manager, Bay Area Rapid 
      Transit....................................................   656
    Durbin, John, Executive Director, Pennsylvania Turnpike 
      Commission.................................................   645
    Earling, Dave, Chairman, Puget Sound Government Affairs 
      Committee..................................................   621
    Ehrhardt, Paul, Chairman of the Board, Greater Hartford 
      Transit District...........................................  1186
    Ensign, John, Representative from Nevada.....................   783
    Faber, Gordon, Mayor of Hillsboro, Oregon....................   306
    Farr, Sam, Representative from California....................   832
    Fentrees, Bob, Member, Tidewater Transportation District 
      Commission.................................................   727
    Figueroa, Patricia, Santa Clara Valley, California, 
      Transportation Authority...................................  1285
    Filner, Bob, Representative from California..................   608
    Fischer, David J., Mayor, St. Petersburg, Florida............  1269
    Fischer, Kenneth R., Director, Volusia County Transportation 
      Authority..................................................   547
    Ford, Harold F., Representative from Tennessee...............   337
    Fort Worth Transportation Authority..........................   539
    Frost, Martin, Representative from Texas.....................   539
    Furse, Elizabeth, Representative from Oregon.................   306
    Garcia-Pedrosa, Jose, City Manager of Miami Beach............   676
    Georgetown University........................................  1183
    Granger, Kay, Representative from Texas......................   539
    Guardino, Carl, President, Santa Clara Valley Manufacturing 
      Group......................................................  1292
    Hansen, James, Representative from Utah......................   829
    Hayward, Tom, Chairman of the Board, SEPTA...................   515
    Hopkins, Larry, Executive Director, Port Authority, Northern 
      Indianapolis...............................................   633
    Hudson, William, Jr., President/General Manager, MATA........   337
    Inglewood, California Partners for Progress..................  1236
    Inman, Julie, Microsoft......................................   621
    Jackson, Lawrence W., President and GM, Long Beach Public 
      Trans. Co..................................................  1314
    Johnson, Eddie, Representative from Texas....................   489
    Jones, Beverly, 1997 National Easter Seal Adult 
      Representative.............................................   368
    Judge, Patrick R., President, Louisiana Public Transit 
      Association................................................  1167
    Kelley, Paul, Sonoma County, California, Board of Directors..   564
    Kimball, Kim, Executive Director, Tidewater Regional Transit.   727
    Kim, Jay, Representative from California.....................   572
    Klink, Ron, Representative from Pennsylvania.................   915
    Lampson, Nick, Representative from Texas.....................   909
    Leary, John, K., General Manager, SEPTA......................   515
    Lehman, William, Former Representative from Florida..........   676
    Louisiana Public Transit Association.........................  1167
    Martinez, Mathew, Representative from California.............   572
    Matsui, Robert T., Representative from California............   840
    McClennan, Bob, General Manager, Houston Metro...............   315
    McLaughlin, Peter, Commissioner, Hennepin County Regional RR 
      Authority..................................................   714
    Memphis Area Transit Authority (MATA)........................   337
    Mendez, Michael, Interstate 5 Consortium Cities Joint Powers 
      Authority..................................................   942
    Metra Commuter Rail of Chicago, Illinois.....................  1445
    Metropolitan Dade County, Florida............................  1096
    Metropolitan Transit Authority of Harris County, Texas.......   315
    Mica, John L., Representative from Florida...................   547
    National Easter Seal Society (NESS)..........................   368
    Nicholas, George, Chairman of the Board, Intermodal Trans. 
      Facility...................................................   400
    Parapar, Servando M., Exec. Director, Dade County Expressway 
      Authority..................................................   676
    Parker, Keith, Assistant General Manager, Greater Richmond 
      Transit Co.................................................   776
    Pelosi, Nancy, Representative from California................   656
    Penelas, Alex, Mayor of Metropolitan Dade County, Florida....  1096
    Pesquera, Carlos, Secretary, DOT and Public Works, Puerto 
      Rico.......................................................   361
    Pfeiler, Lori Holt, Chairman, No. San Diego County Transit 
      Dev. Board.................................................  1299
    Pickett, Owen, Representative from Virginia..................   727
    Pombo, Richard W., Representative from California............   913
    Portman, Rob, Representative from Ohio.......................   327
    Qualls, Roxanne, Mayor of Cincinnati, Ohio...................   327
    Quinn, Jack, Representative from New York....................   877
    Ratcliff, Billy J., Chairman of the Board, Dallas Area Rapid 
      Transit Authority..........................................  1126
    Regional Transportation Commission of Clark County, Nevada...  1215
    Roberts, Carol, Commissioner, Tri-Country Commuter Rail 
      Authority..................................................   676
    Roberts, Gil, Tri-County Commuter Rail Authority.............   676
    Robinson, Pilka, General Manager, Sacramento Regional Transit 
      District...................................................  1305
    Roemer, Tim, Representative from Indiana.....................   400
    Romero-Barcelo, Carlos, Representative from Puerto Rico......   361
    Schaefer, Dan, Representative from Colorado..................   843
    Scott, Robert, Representative from Virginia..................   727
    Scott, Robert, Representative from Virginia..................   776
    Serna, Joe, Mayor, Sacramento, California....................  1308
    Shaw, Clay, Representative from Florida......................   676
    Shays, Christopher, Representative from Connecticut..........   892
    Skoutelas, Paul P., Executive Director, Lynx, Central Florida 
      RTA........................................................   547
    Skoutelas, Paul P., Executive Director, Port Authority of 
      Allegheny County...........................................   934
    Smith, Adam, Representative from Washington..................   621
    Snyder, Ryan, President, Ryan Snyder Associates, Inc.........  1416
    Southeastern Pennsylvania Transportation Authority (SEPTA)...   515
    Spinelli, Mike, Vice Mayor, Burlingame, California...........   664
    Stillman, Greg, Chairman, Hampton Roads Chamber of Commerce..   727
    Straw, Geoffrey, Transit Manager, Logan, Utah Transit 
      Department.................................................  1194
    Strayhorn, Louisa, Councilwoman, Virginia Beach City Council.   727
    Train Riders Association of California.......................  1441
    Tucker, Robert H., Regional Transit Authority of New Orleans, 
      Louisiana..................................................  1150
    Turanchik, Ed, County Commissioner, Hillsborough County, 
      Florida....................................................   702
    Vaska, Mike, Seattle Chamber of Commerce.....................   621
    Vento, Bruce, Representative from Minnesota..................   714
    Vilhauer, Bob, Boeing........................................   621
    Vincent, Edward, Assemblyman, California Legislature.........  1239
    Walsh, Tom, General Manager, Tri-County Metropolitan District 
      of Oregon..................................................   313
    White, Bob, Executive Director, Central Puget Sound Regional 
      Authority..................................................   621
    Williams, Leon, Chairman, San Diego Metropolitan Transit Dev. 
      Board......................................................  1295
    Woolsey, Lynn C., Representative from California.............   564
    Wright, Randy, Councilman, Norfolk City Council..............   727
National Highway Traffic Safety Administration:
    American Sleep Disorders Association (ASDA)..................   290
    Augenstein, Jeffrey S., Ryder Trauma Center, University of 
      Miami......................................................  1033
    Greenberg, Allen, Government Relations Director, (LAB).......   280
    League of American Bicyclists (LAB)..........................   280
    Manocherian, Fraydun.........................................  1060
    Phillips, Dr. Barbara, ASDA..................................   290
    Siegel, John H., New Jersey Medical School...................  1037
    William Lehman Injury Research Center........................  1033
Research and Special Programs Administration:
    American Petroleum Institute.................................  1070
    Association of Oil Pipe Lines................................  1070
    Interstate Natural Gas Association of America................  1067
Transportation Issues--Crosscutting:
    Brown, Kirk, Secretary, Illinois Department of Transportation  1430
    Bus Riders Union of Los Angeles, California..................  1381
    Coalition of Northeastern Governors..........................  1351
    Electric Transportation Coalition............................  1345
    Hanks, James, President, JRH Transportation Engineering......   243
    Hefley, Joel, Representative from Colorado...................   802
    Illinois Department of Transportation........................  1430
    Institute of Transportation Engineers........................   243
    Kucinich, Dennis J., Representative from Ohio................   791
    Labor Community Strategy Center of Los Angeles, California...  1381
    Laney, David, Commissioner of Texas Department of 
      Transportation.............................................   227
    Pallone Jr., Frank, Representative from New Jersey...........   532
    Stupak, Bart, Representative from Michigan...................   795
    Texas Department of Transportation...........................   227

                                  <all>
</pre></body></html>
